<html>
<title> - NOMINATION OF BRYAN TODD NEWLAND TO SERVE AS ASSISTANT SECRETARY FOR INDIAN AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR</title>
<body><pre>[Senate Hearing 117-53]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 117-53

               NOMINATION OF BRYAN TODD NEWLAND TO 
                SERVE AS ASSISTANT SECRETARY FOR INDIAN 
                AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 9, 2021

                               __________

         Printed for the use of the Committee on Indian Affairs
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-309 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------  


                      COMMITTEE ON INDIAN AFFAIRS

                     BRIAN SCHATZ, Hawaii, Chairman
                 LISA MURKOWSKI, Alaska, Vice Chairman
MARIA CANTWELL, Washington           JOHN HOEVEN, North Dakota
JON TESTER, Montana                  JAMES LANKFORD, Oklahoma
CATHERINE CORTEZ MASTO, Nevada       STEVE DAINES, Montana
TINA SMITH, Minnesota                MIKE ROUNDS, South Dakota
BEN RAY LUJAN, New Mexico            JERRY MORAN, Kansas
       Jennifer Romero, Majority Staff Director and Chief Counsel
     T. Michael Andrews, Minority Staff Director and Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 9, 2021.....................................     1
Statement of Senator Cantwell....................................    28
Statement of Senator Cortez Masto................................    21
Statement of Senator Daines......................................    29
Statement of Senator Hoeven......................................    26
Statement of Senator Lankford....................................    22
Statement of Senator Lujan.......................................    24
Statement of Senator Murkowski...................................     2
Statement of Senator Peters......................................     4
Statement of Senator Schatz......................................     1

                               Witnesses

Newland, Hon. Bryan Todd, Nominee for Assistant Secretary for 
  Indian Affairs, Department of the Interior.....................     6
    Biographical information.....................................     7
    Prepared statement...........................................     9

                                Appendix

Letters submitted for the record 


Response to written questions submitted by Hon. Bryan Todd 
  Newland to:
    Hon. Catherine Cortez Masto..................................    34
    Hon. John Hoeven.............................................    33
    Hon. James Lankford..........................................    37
    Hon. Ben Ray Lujan...........................................    35
    Hon. Lisa Murkowski..........................................    39
    Hon. Mike Rounds.............................................    34
    Hon. Richard Blumenthal......................................    38

 
 NOMINATION OF BRYAN TODD NEWLAND TO SERVE AS ASSISTANT SECRETARY FOR 
            INDIAN AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

                              ----------                              


                        WEDNESDAY, JUNE 9, 2021


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m. in room 
628, Dirksen Senate Office Building, Hon. Brian Schatz, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. Good afternoon.
    Today the Committee will consider the nomination of Bryan 
Todd Newland of Michigan to be Assistant Secretary for Indian 
Affairs at the Department of the Interior. President Biden 
nominated Mr. Newland for this position on April 27th of this 
year.
    This hearing is an important first step in carrying out the 
Senate's constitutional duty to provide advice and consent. It 
is an opportunity to learn how, if confirmed, Mr. Newland plans 
to carry out and uphold the United States' trust 
responsibilities to American Indian and Alaska Native tribes 
and to the Native Hawaiian community, and about his priorities 
and goals for his leadership in the Indian Affairs hallway.
    It is quite simply one of the most consequential 
nominations for Native communities across our Nation. Because 
as the department's highest ranking Senate-confirmed official 
in Indian Affairs, the Assistant Secretary is charged with 
maintaining the government-to-government relationships with the 
sovereign tribal nations, respecting tribal sovereignty and 
promoting tribal self-determination. All are key to supporting 
the Secretary and meeting the Department's mission.
    I believe that Mr. Newland has the qualifications, the 
character and the heart to succeed in the role of Assistant 
Secretary for Indian Affairs. Indeed, Mr. Newland, a tribal 
citizen of the Bay Mills Indian Community and the first 
graduate of the Indian Law program at Michigan State University 
College of Law, is uniquely qualified. Prior to his current 
role as the Department's Principal Deputy Assistant Secretary 
for Indian Affairs, Mr. Newland served his tribe with 
distinction for several years, serving as its duly elected 
president, the chief judge of its tribal court, chairman of the 
tribe's gaming authority and business holdings board of 
directors, and as a member of the board of regents for the 
tribally controlled Bay Mills Community College.
    Mr. Newland's previous Federal experience in the Executive 
Branch as a presidentially appointed counselor and policy 
advisor to the Assistant Secretary for Indian Affairs under the 
Obama Administration and his command of Federal Indian law and 
policy strengthens his nomination.
    I believe Mr. Newland has the necessary experience to hit 
the ground running, implement the President's agenda, and 
execute Indian Country's priorities. His sincerity and 
willingness to learn are key attributes to this position.
    Mr. Newland has made clear that he is committed to serving 
as the chief Federal advocate for not just tribal nations, but 
for Native Hawaiians as well. That is not just my assessment. 
More than 30 tribes and tribal organizations, including the 
United South and Eastern Tribes, the National Congress of 
American Indians and the Alaska Federation of Natives submitted 
letters in support of Mr. Newland's confirmation. I have made 
them all part of the record.
    Before I turn to the Vice Chair, I would like to thank Mr. 
Newland and his family for joining us today. What a pleasure it 
was to meet all of you.
    I look forward to considering this important nomination and 
to working with Vice Chair Murkowski and all the members of 
this Committee to move Mr. Newland's nomination through our 
Committee.
    Vice Chair Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Newland, welcome to the Committee. It is nice to be 
able to welcome your family as well. We appreciate that.
    And I appreciate the conversation that we had by phone, and 
the opportunity to continue our discussions today. I do just 
want to note for the record, it is my understanding that we are 
still waiting for some outstanding documents from your 
questionnaire. I understand that our staffs have been in 
contact with you. So I am assuming that we will get those 
quickly and note that that is an important part of what we are 
doing here this morning.
    As I mentioned, Mr. Newland, in our phone conversation, you 
will be replacing Tara Sweeney, who was the first Alaska Native 
to hold the job of Assistant Secretary for Indian Affairs. Ms. 
Sweeney is not only a woman that I have known for a long period 
of time. What she was able to do in that role is a considerable 
one, and one that I am hoping that we will continue on with the 
good work that she laid down, most notably the focus on the 
crisis of missing and murdered indigenous women and children.
    With her support there as Assistant Secretary, we had 
operation Lady Justice and some key MMIW initiatives that 
Senator Cortez Masto and I have worked on that have been 
launched in these last couple of years. So we are certainly 
hoping that these things that she had laid forward will be 
initiatives that you will continue to build on.
    There are big shoes to be filled at the Bureau of Indian 
Affairs, and important ones. As the Chairman has noted, the 
Office of Indian Affairs is an exceptionally important one at 
the Interior Department for all of the reasons, as a central 
rallying point for Indian initiatives across the Federal 
Government. It is called upon to educate all stakeholders, 
government officials, about the challenges and problems, the 
opportunities that American Indians and Alaska Natives face in 
our Country, and provide solutions in a way that affirms Native 
self-determination.
    As Assistant Secretary, you will touch the lives of most 
tribes through trust management of lands, Indian education, 
energy development, housing, public safety, economic 
development, such as gaming, transportation, Federal 
acknowledgement, and so much. As we have discussed, the job is 
not an easy one. There are over 500 federally recognized tribes 
to serve. More than 200 of those are in my State. All have 
different histories, different cultures.
    You clearly can't take a one size fits all and try to 
superimpose that over Indian Country. There are treaties and 
unique laws to navigate, not to mention the ongoing debates 
about education, economic empowerment, land into trust, gaming, 
tribal jurisdiction and the like. It is the position 
responsible for assisting the Secretary of the Interior in 
fulfilling the United States sacred trust responsibility.
    When it comes to Alaska, we had talked about two of the 
unique laws, the Alaska Native Claims Settlement Act, ANCSA, 
and the Alaska National Interest Lands Conservation Act, or 
ANILCA. Fifty years ago, ANCSA was enacted into law as a new 
and a different approach by the Federal Government in settling 
aboriginal land claims. It created native corporations, 
referred to as ANCs, throughout the State, a very distinct 
approach to land and economic development from the reservation 
system of the lower 48.
    But ANCs, as we shared, are not like traditional for-profit 
corporations. Instead, they are mandated by Congress to care 
for social, cultural, and economic well-being of their Alaska 
Native shareholders in perpetuity. It is through the federally 
recognized tribes, the tribal consortia, and ANCs, that Alaska 
Natives deliver self-determination and self-governance programs 
at scale. This includes providing services and programs to 
address the pandemic that we saw throughout this past year.
    But even though Congress set up different types of 
structures for Native peoples across the Country, whether 
tribes are located in PL-280 States, or if they have different 
land claim settlements, it is important to understand and to 
represent all of them. In our phone conversation, we discussed 
ANCSA and these relationships. I am raising it here again 
because some of what you shared with me at the time with regard 
to distribution of funds from the CARES Act tribal set-aside in 
the Coronavirus Relief Fund showed me that you were still 
educating yourself about Alaska Native institutions. So I am 
hoping to hear more today from you on that, and really just 
reaffirming your support to be a strong advocate for all Native 
peoples.
    I think we have a lot of work that we need to do. I want to 
highlight just a few of those in Alaska. I have shared with you 
the concern that I have had now for decades about the good 
people of King Cove, the Aleut people, who have been seeking a 
lifesaving road for over three decades from the Federal 
Government. Also, what more needs to be done to speed up the 
cleanup of Federal contamination Native-conveyed lands? There 
is more than 1,000 sites that the Federal Government is legally 
responsible for.
    I know that this is not just an issue for us in Alaska, but 
it is faced by so many Native communities across the Country. 
These are really environmental justice issues.
    It is also time for the Federal Government to allow tribes 
to dictate how they want to utilize energy development on their 
lands. Whether it is renewables or resource extraction, it 
should be the tribes that decide, not the Department.
    I would be remiss if I didn't mention public safety, 
particularly the need to strengthen the tribal provisions in 
VAWA.
    So Mr. Newland, I am looking forward to hearing more about 
your vision for the Office of Indian Affairs, and with 
questions from myself and members, we will learn a little bit 
more and may have additional questions following that.
    So again, thank you, congratulations. Mr. Chair, I turn it 
back to you and look forward to Mr. Newland's comments this 
afternoon.
    The Chairman. Thank you, Vice Chair Murkowski.
    I will now turn to Senator Gary Peters, also of Michigan, 
to introduce his constituent and our nominee.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Chairman Schatz and Madam Vice 
Chair Murkowski, and distinguished members of the Committee.
    It is my honor to introduce Bryan Todd Newland as President 
Biden's nominee to be the next Assistant Secretary of the 
Interior for Indian Affairs. I am confident that if confirmed, 
Mr. Newland will be well-positioned to assist and support 
Secretary Haaland in fulfilling the United States' trust 
responsibility and maintaining the Federal tribal government to 
government relationship.
    Mr. Newland's prior experience at the Department of the 
Interior and his unique perspective as a former tribal leader 
provides him with deep understanding of the many issues facing 
tribal governments. His voice will be critical in supporting 
the tribes in Michigan, as well as all across the Country.
    Mr. Newland is a citizen of the Bay Mills Indian Community 
in Michigan, a former president of its executive council, and 
former chief judge of Bay Mills' tribal court. During his time 
serving the Bay Mills Indian Community, Mr. Newland played an 
instrumental role in a number of economic ventures, 
infrastructure projects, and the successful administration of 
dozens of tribal departments and employees and programs.
    During his tenure as tribal president, his administration 
also secured funding for the construction of a $15 million 
health care facility that will serve the entire eastern upper 
peninsula of Michigan.
    Mr. Newland's tenure also occurred during one of the 
hardest years for the Bay Mills Indian Community that they have 
endured, both economically, financially, and emotionally, due 
to the COVID-19 pandemic. His steady leadership was critical in 
ensuring that the Bay Mills Indian Community could weather the 
storm and emerge from the pandemic in a stable position.
    Further, his nomination enjoys the support of the 35 tribal 
nations from the Midwest Alliance of Sovereign Tribes, as well 
as from tribal nations all across the United States. From 2009 
to 2012, Mr. Newland served as the counselor and policy advisor 
to the Assistant Secretary of the Interior for Indian Affairs. 
In that capacity, he helped develop the Obama Administration's 
policies on Indian gaming and Indian lands, reforming the 
Department of the Interior's policy on reviewing tribal-State 
gaming compacts.
    He also led a team that improved the Bureau of Indian 
Affairs' leasing regulations and worked to help enact the 
HEARTH Act of 2012, which allows tribes to lease restricted 
lands for residential, business, public, educational, or 
recreational purposes without the approval of the Secretary of 
the Interior.
    Prior to his Federal service, Mr. Newland worked as an 
attorney with the Fletcher Law Firm in Lansing, Michigan. He 
represented tribal clients on issues including the regulation 
of gaming facilities, negotiation of tribal-State gaming 
compacts, the fee for trust process, and leasing of Indian 
lands. He graduated magna cum laude from Michigan State 
University College of Law, and received his undergraduate 
degree from James Madison College of Michigan State University. 
Go Green.
    Mr. Newland enjoys hiking and kayaking the shores of Lake 
Superior, and is a nature photography enthusiast. He is joined 
here today by his wife, Erica, his daughter, Meredith, his son, 
Graydon, and his parents, Vicki and Gordon Newland.
    Mr. Newland has been an incredible partner to my office and 
to my staff and to many all across the great State of Michigan 
over many, many years. I know he will be an excellent partner 
to all of us upon his confirmation.
    Thank you, Mr. Chairman, Madam Vice Chair, for the 
opportunity to appear today to introduce Bryan. And I thank 
Bryan for his willingness to serve the public in this capacity.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Peters.
    I think on behalf of my father, I am obligated to say Go 
Blue.
    [Laughter.]
    The Chairman. I will now swear in the nominee.
    Mr. Newland, please rise and raise your right hand. Do you 
solemnly affirm that the testimony you shall give today shall 
be the truth, the whole truth, and nothing but the truth under 
penalty of perjury?
    Mr. Newland. I do.
    The Chairman. Thank you. Please be seated.
    I want to remind you that your full written testimony will 
be made part of the official hearing record. Please keep your 
statement to no more than five minutes, so that members have 
time for questions.
    Mr. Newland, please begin.

  STATEMENT OF HON. BRYAN TODD NEWLAND, NOMINEE FOR ASSISTANT 
    SECRETARY FOR INDIAN AFFAIRS, DEPARTMENT OF THE INTERIOR

    Mr. Newland. Aanii, miigwetch. Thank you, Chairman Schatz, 
Vice Chairman Murkowski, and members of the Committee.
    First, I want to thank Senator Peters for his warm and kind 
introduction and his leadership for the state of Michigan and 
his friendship as well.
    It is an honor to be here today as President Biden's 
nominee to serve as Assistant Secretary for Indian Affairs at 
the U.S. Department of the Interior, an important position that 
serves as a leader for the U.S. trust relationship with Tribal 
Nations. It is also a privilege to serve with Secretary Haaland 
at such an important time for Indian Country.
    I am so happy to have my wife Erica Newland here with me. 
We grew up together on the Bay Mills Indian Reservation, and 
she has been my partner, strategic advisor, and most 
importantly, my designated ``humbler'' every step of the way. 
Together, we have two incredible children, Graydon and 
Meredith, who are also here, as are my parents, Gordon and 
Vicki Newland.
    My parents had me at a young age, under difficult 
circumstances, and worked hard to raise my brother Robert, my 
sister Holly, and me. They also had long careers in public 
service and instilled those values in us. I want to thank them 
for that.
    Growing up on our reservation, I saw how Federal laws and 
policies affected the lives of everyday Indians. Commercial 
tribal fishermen exercised treaty-protected fishing rights to 
feed their families. I lived up the street from the Bay Mills 
Community College, which was the first tribally controlled 
community college established in the State of Michigan.
    Our family also lived in tribal housing, which is supported 
by Federal funding. My parents were fortunate to each have 
jobs, which allowed them to get a land-lease so that we could 
move out of tribal housing and purchase a home. We lived in a 
single-wide trailer for several years while they waited for the 
Bureau of Indian Affairs to approve their mortgage. When that 
mortgage was finally approved, my parents became the first 
people on the Bay Mills Reservation to have a mortgaged-
financed home.
    Their experience with the BIA's time-consuming mortgage 
approval process, and the delays they faced was an experience 
that would stick with me.
    I attended Michigan State University and the MSU College of 
Law, where I was the first Native student to enroll in the 
Indigenous Law and Policy Program. I graduated there in 2007 
and started in private practice. Soon after, I had the 
opportunity to serve in President Obama's Administration at the 
Department of the Interior within the office of the Assistant 
Secretary. There I was lucky to have mentors like Larry Echo 
Hawk and Del Laverdure.
    We worked to reform leasing on Indian lands by putting 
timelines in place so that other families wouldn't face the 
same delays and circumstances my parents did. We worked with 
members of this Committee to see the bipartisan enactment of 
the HEARTH Act, putting tribes back in control of leasing and 
home mortgages on tribal lands.
    After that, I returned home and used my experience to serve 
my own tribe, to teach Indian law to aspiring Native attorneys, 
and to advocate on behalf of other tribes. In 2013, I was 
elected as Chief Judge of the Bay Mills Tribal Court. In that 
role, I heard heart-wrenching cases about families in crisis. I 
also enforced criminal laws in a deliberate and fair way.
    In that position, we worked to establish the Bay Mills 
Healing to Wellness Court. It is a substance-abuse treatment 
court that has helped to reunite families, provide job 
opportunities and housing to people in need, and to maintain 
our tribal connections to one another.
    In 2017, our tribe elected me to serve as tribal president 
and we set about to make Bay Mills a better place to live. We 
were making progress toward this effort when the pandemic 
struck, and that became an important life-or-death focus of 
mine.
    Through our partnership with the Indian Health Service, we 
established community surveillance testing for COVID-19. We saw 
a disproportionately low rate of infection on our reservation 
thanks to non-partisan coordination with local, State, and 
Federal officials.
    At the same time, we were able to expand our tribal 
businesses, develop a new health center, and grow jobs and 
incomes at Bay Mills, which were important goals for our 
community.
    I know firsthand the connection between public service and 
the lives of others. When you live with the people you serve, 
you cannot escape that connection. If you make a mistake, you 
see it. And if you don't see it, there is sure to be an auntie 
or a friend to remind you.
    If confirmed, I will bring that perspective with me to the 
Department of the Interior. We must help Indian Country build 
back better after the pandemic. We must respond with urgency to 
the violence against indigenous women and children across 
Indian Country. And we must lay the foundation for the next 
generation of Native children to succeed.
    I believe that tribal governments, rather than Federal 
agencies, are best suited to respond to the challenges their 
communities face. Our job is to be a collaborative trustee and 
ensure that Indian Country drives our work. With your consent, 
I will be a leader on these important efforts.
    I want to say miigwetch again, thank you, for the 
opportunity to be here today, and for your service to our 
Country. I look forward to answering your questions.[The 
prepared statement and biographical information of Mr. Newland 
follow:]

 Prepared Statement of Hon. Bryan Todd Newland, Nominee for Assistant 
        Secretary for Indian Affairs, Department of the Interior
    Aanii (Hello)! Thank you, Chairman Schatz, Vice-Chairman Murkowski, 
and members of the Committee. It is an honor to appear before you today 
as President Biden's nominee to be the Assistant Secretary-Indian 
Affairs at the U.S. Department of the Interior, an important position 
that serves as a leader for the United States' trust relationship with 
Tribal Nations.
    And it is a privilege to serve with Secretary Haaland at such an 
important time for Indian country.
    I'm so happy to have my wife Erica Newland here with me. We grew up 
together on the Bay Mills Indian Reservation, and she has been my 
partner, strategic advisor, and designated ``humbler'' every step of 
the way. Together, we have two incredible children--Graydon and 
Meredith--who are also here, as are my parents, Gordon and Vicki 
Newland.
    My parents had me at a young age, under difficult circumstances, 
and worked hard to raise my brother Robert, my sister Holly, and me. 
They also both had long careers in public service and instilled those 
values in us. I thank them for that.
    Growing up on our reservation, I saw how federal laws and policies 
affected the lives of everyday Indians. Commercial tribal fishermen 
exercised treaty-protected fishing rights to feed their families. I 
lived up the street from Bay Mills Community College--the first 
tribally-controlled community college in Michigan--which was 
established soon after Congress enacted the Tribally Controlled 
Colleges and Universities Assistance Act.
    Our family also lived in tribal housing, supported by federal 
grants.
    My parents were fortunate to each have jobs, which allowed them to 
get a land-lease to move out of tribal housing and purchase a home. We 
lived in a single-wide trailer for several years while they waited for 
the Bureau of Indian Affairs to approve their mortgage. When that 
mortgage was finally approved, my parents became the first people on 
the Bay Mills Reservation to have a mortgaged-financed home.
    Their experience with the BIA's time-consuming mortgage-approval 
process, and the delays that my parents faced as a part of it, would 
stick with me.
    I attended Michigan State University and the Michigan State 
University College of Law, where I was the first Native student to 
enroll in the Indigenous Law and Policy Program.
    I graduated law school in 2007 and started in private practice. I 
soon had the opportunity to serve in the Obama administration at the 
Department of the Interior--in the office of the Assistant Secretary--
Indian Affairs.
    There I was lucky to have mentors like Larry Echo Hawk and Del 
Laverdure. We reformed leasing on Indian lands, putting timelines in 
place so that other families wouldn't have the same delays my parents 
faced. Working with this Committee, we saw the bipartisan enactment and 
implementation of the HEARTH Act, putting Tribes back in control of 
leasing and home mortgages on tribal lands.
    Next, I returned home and used my experience to serve my own Tribe, 
to teach Indian law to aspiring Native attorneys, and to advocate on 
behalf of other Tribes.
    In 2013, I was elected as Chief Judge of the Bay Mills Tribal 
Court. In that role, I heard heart-wrenching cases about families in 
crisis and enforced criminal laws in a deliberate and fair way.
    In that position, I worked to help establish the Bay Mills Healing 
to Wellness Court. That substance-abuse treatment court has helped to 
reunite families, provide job opportunities and housing to people in 
need, and maintain our tribal connections to one another.
    In 2017, our Tribe elected me to serve as Tribal President and we 
set about making our Tribal community a better place to live. We were 
making progress toward this effort when the pandemic struck, and this 
became an important, life-or-death, focus.
    Through our partnership with the Indian Health Service, we 
established early community surveillance testing for COVID-19. We saw a 
disproportionately low rate of infection on our Reservation thanks to 
non-partisan coordination with local, state, and federal officials.
    At the same time, we were able to expand our tribal businesses, 
develop a new health center, and grow jobs and incomes at Bay Mills, 
important goals for our community.
    I know firsthand the connection between public service and the 
lives of others. When you live with the people you serve, you cannot 
escape that connection--if you make a mistake, you see it (and, if you 
don't see it, there's sure to be an auntie or a friend to remind you).
    If confirmed, I will bring that perspective with me to the 
Department of the Interior. We must help Indian country build back 
better after the pandemic. We must also respond with urgency to the 
violence against Indigenous women and children. And we must lay the 
foundation for the next generation of Native children to succeed.
    I believe that tribal governments, rather than federal agencies, 
are best-suited to respond to the challenges their communities face. 
Our job is to be a collaborative trustee and ensure that Indian country 
drives our work. With your consent, I will be a leader for these 
important efforts.
    Miigwetch (Thank you) for the opportunity to be here today, and for 
your service to our country. I look forward to answering your 
questions.
                                 ______
                                 
                        biographical information
    1. Name: Bryan Todd Newland

    2. Position to which nominated:

    Assistant Secretary--Indian A.flairs, U.S. Department of the 
Interior

    3. Date of nomination: April 27. 2021

    4. Address: [Information not released to the public.]

    5. Date and place of birth: [Information not released to the 
public.]

    6. Marital status: Married

    Erica Lynn Newland (Robbins)

    7. Names and ages of children: Two minor children [Ages and names 
of minor children not released to the public.]

    8. Education:

         Undergraduate--Michigan State University, Aug. 1999-May 2003,

        B.A. in Social Relations (May 2003)

         Law School--Michigan State University College of Law, Aug. 
        2004-May 2007

        Juris Doctorate (May 2007)

    9. Employment record:

         Administrative Assistant--Marketing Resource Group, Lansing, 
        MI (January 2000 to May 2003)(During academic year while 
        attending college)

         Cart Attendant--Wild Bluff Golf Course. Brimley. MI (May-Aug. 
        2000)

         Intern--Office of U.S. Representative Dale Kildee, Washington, 
        D.C. (May-Aug. 2001)

         Intern--Office of U.S. Senator Carl Levin, Washington. D.C. ( 
        May-Aug. 2002)

         Assistant Account Executive--Marketing Resource Group, 
        Lansing, MI (May 2003-Aug. 2004)

         Law Clerk--Dykema Gossett PLLC, Lansing, MI (Jan. 2005-May 
        2007)

         Associate Attorney--Dykema Gossett PLLC, Lansing, MI (Aug. 
        2007-Oct. 2009)

         Counselor/Senior Policy Advisor--Office of the Assistant 
        Secretary--lndian Affairs, Washington, D.C. (Oct. 2009-Dec. 
        2012)

         Memher/Attorney--Fletcher Law, PLLC, Lansing, MI (Dec. 2012-
        Jan. 2021)

         Chief Judge--Bay Mills Indian Community. Brimley. MI (Nov. 
        2013-Aug. 2017)

         Adjunct Professor--Michigan State University College of Law, 
        East Lansing, MI (Spring Semester 2014)

         Adjunct Professor--Michigan State University College of Law, 
        East Lansing, MI (Fall Semester 2017)

         President--Bay Mills Indian Community, Brimley, MI (Nov. 2017-
        Feb. 2021)

         Principal Deputy Assistant Secretary--Indian Affairs--U.S. 
        Department of the Interior, Washington, D.C. (Feb. 2021-
        present)

    10. Government experience:

         Visiting Judge--Grand Traverse Band of Ottawa and Chippewa 
        Indians, Peshawbestown, MI

         Visiting Judge--Sault Ste. Marie Tribe of Chippewa Indians, 
        Sault Ste. Marie, MI

         Member--Indian Education Committee for Brimley Area Schools, 
        Brimley. MI

         Member--Michigan Advisory Council on Environmental Justice, 
        Lansing. MI

         Member--Obama-Biden Presidential Transition Team, Washington, 
        D.C.

    11. Business relationships:

         Member--Nokomis Learning Center, East Lansing, MI

         Member--Michigan State University College of Law Board of 
        Trustees, East Lansing, MI

         Member--Bay Mills Community College Board of Regents, Brimley, 
        MI

         Chairman--Bay Mills Gaming Authority, Brimley MI

         Chairman--Bay Mills Business Holdings Board of Directors, 
        Brimley, MI

         Member--Title Track Board of Directors, Williamsburg, MI

    12. Memberships:

         State Bar of Michigan

         Federal Bar Association

    13. Political affiliations and activities:

    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.

         Candidate for and elected as, President--Bay Mills Indian 
        Community, Brimley, MI (Nov. 2017-Feb. 2021)

    (b) List all memberships held in or political registrations with 
any political parties during the last 10 years.

         Member of Michigan Democratic Party

    (c) List all political offices or election committees during the 
last 10 years. None.

    (d) Itemize all political contributions to any individual campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

         Expended approximately $750 in personal funds for my campaign 
        for elected tribal office. Beyond that, I have not made any 
        personal contributions to any candidate, party, or PAC over 
        $500.

    (e) Current political party registration, if any.

        Democratic Party.

    14. Honors and awards:

         2020 Clean Water Action Great lakes Protectors Award Recipient 
        (on behalf of Chippewa Ottawa Resource Authority member Tribes)

         2015 Recipient of the Michigan Lawyers Weekly Award for ``Up 
        and Coming Lawyers''

         2011 Recipient of the Washington, D.C. Native American Bar 
        Association ``Excellence in Government Service'' Award

         2011 Recipient of the National Center for American Indian 
        Enterprise Development ``40 Under 40'' Award

         2005 Recipient of the Native American Journalist Association 
        ``Best Column Writing'' for Monthly Publications

    15. Published writings:

         Bay Mills News, ``On my Fishbox'' (monthly column writer from 
        August 2004 to May 2007)(some columns available online, but 
        most were print only with no archives)

         Turtle Talk Indian law Blog (irregular posting from 2007 to 
        2020)(available online, with individual posts named below)

        -- Breach of Trust: How Government agencies are working with 
        Enbridge, Inc. to Jeopardize Tribal Treaty Rights, August 31, 
        2018

        -- Will the EPA allow the line 5 Pipeline to remain in the 
        Straits of Mackinac? May 31, 2018

        -- Is the Trump Administration Preparing to Gut the Indian 
        Reorganization Act, October 16, 2017

        -- Breakdown: A closer look at the Trump Administration's 
        proposed land into trust regulations, October 16, 2017

        -- The BIA's land-into-trust process and why changes will never 
        satisify the critics, July 24, 2017

        -- Remarks by President Trump and Secretary of Energy Rick 
        Perry at White House Tribal, state, and Local Energy 
        Roundtable, June 29, 2017

        -- The President's Budget Cuts for Treaty Rights Funding Affect 
        jobs, June 21, 2017

        -- Navajo Nation Office of the President Seeking legal Intern, 
        June 5, 2017

        -- State of Michigan sues Hannahville Indian Community over 
        Gaming Compact, March 14, 2017

        -- Bureau of Indian Affairs Updates Tribal Transportation 
        Regulations, November 9, 2016

        -- Donald Trump and Federal Indian Policy: Postscript, October 
        31, 2016

        -- Enbridge pipeline litigation and its (potential) impact on 
        tribal treaty rights in the Great lakes, September 19, 2016

        -- Dept. of the Interior Issues Secretarial Procedures for 
        North Fork Rancheria, August 11, 2016

        -- Donald Trump and Federal Indian Policy: ``They don't look 
        like Indians to me,'' July 25, 2016

        -- Placing Proposed Amendments to IGRA in Historical Context, 
        May 16, 2016

        -- Assistant Secretary--Indian Affairs approves gaming 
        application for Cloverdale Rancheria, May 3, 2016

        -- Parties seek intervention in Right of Way Regulation 
        Lawsuit, April 18, 2016

        -- Senators Tester and Franken Introduce legislation to Expand 
        Tribal Jurisdiction, April 15, 2016

        -- Lawsuit Challenges BIA Right of Way Regulations, April 11, 
        2016

        -- Department of the Interior Announces Departure of Kevin 
        Washburn (at end of year), December 10, 2015

        -- Supreme Court Oral Argument transcript in Dollar General, 
        December 7, 2015

        -- President Obama Appoints Fond du Lac Chairwoman Karen Diver 
        to key White House Post, November 4, 2015

        -- Dollar General and the Racist Foundation of the Supreme 
        Court's Tribal Jurisdiction Cases, September 8, 2015

        -- Gun lake Band Statement on Withholding Revenue Sharing 
        Payments, August 17, 2015

        -- HEARTH Act Regulations, Federal Preemption of State and 
        local Taxes, and the Seminole Case, August 12, 2015

        -- House Subcommittee on Indian Affairs Memo on Fee-to-Trust 
        and Important Context, May 14, 2015

        -- Medical Marijuana Legislation Introduced in Congress, March 
        16, 2015

        -- Recent Decision Applying BIA leasing Regulations Signals a 
        Shift in Indian Tax Law, September 10, 2014

        -- 9th Circuit's Decision in Big lagoon Case Spells Trouble 
        (breakdown), January 22, 2014

        -- A Closer look at Gaming Compact Negotiations in Michigan 
        Part Deux: The State's Bargaining Position, October 1, 2013

        -- A Closer Look at Gaming Compact Negotiations in Michigan 
        Part I: The history of Michigan's first gaming compacts, 
        September 24, 2013

        -- Reaction to Pommersheim Article on Fee-to-Trust, July 26, 
        2013

        -- President issues Executive Order Establishing Interagency 
        Council on Native American Affairs, June 26, 2013

        -- Tribes and the Michigan Wolf Hunt, May 10, 2013

        -- Department of the Interior Sued Over Tax Provision in New 
        Indian leasing Regulations, April 26, 2013

        -- The Second Time Around: looking Ahead to President Ohama's 
        Second Term, January 29, 2013

        -- Retrospective on Federal Indian Policy during President 
        Obama's First Term, January 16, 2013

         January 19, 2013--''A Retrospective on Federal Indian Policy 
        During President Obama's First Term'' Indian Country Today 
        (available online)

         April 2014--''The HEARTH Act: Transforming Tribal land 
        Development'' The Federal Lawyer (available online)

         May 9, 2015--''House Subcommittee on Indian Affairs Memo on 
        Fee-to-Trust and Important Context'' Indian Country Today 
        (available online)

         May 27, 2015--''Congress: Keep Hands-Off IRA Fee-to-Trust 
        Provision'' Indian Country Today (available online)

         July 28, 2016--''Donald Trump and Federal Indian Policy `They 
        Dont look like Indians to Me''' Indian Country Today (available 
        online)

         February 14, 2020--''Pete Buttigieg is The Best Candidate to 
        Empower Tribal Nations'' Indianz.com (available online)

         March 25, 2020--''Indigenous Americans Must Not Once Again Pay 
        the Price for the Mistakes of Others,'' Washington Post 
        (available online)

         April 13, 2020 ``COVID-19 Relief Funds Must go to Tribal 
        Governments, Fairly,'' Indian Country Today (available online)

         April 22, 2020--''Celebrate Earth Day by Protecting Michigan's 
        Environment from Line 5,'' Bridge Magazine (available online)

         July 4, 2020--''Enbridge Line 5 is Michigan's Next Ecological 
        Disaster,'' Detroit Free Press (available online)

         December 2, 2020--Terminating Line 5 Easement Means a Safer 
        Future for Michigan and the Great Lakes,'' Lansing State 
        Journal (available online)

         April 6, 2021 ``Indian Country Has Interior's Commitment to 
        Meaningful Consultation,'' Indian Country Today (available 
        online)

    16. Speeches:

         Native American Financial Officers Association, ``Federal 
        Update,'' Washington, D.C, April 2021

         Arizona State University Law School Conference, ``Federal 
        Update,'' Tempe, Arizona, March 2021

         National Congress of American Indians Winter Session, 
        ``Federal Update,'' Washington. D.C, February 2021

         Ford School of Public Policy ``Policy Talks Series: Tribal 
        Sovereignty and Legal Challenges,'' Ann Arbor, MI, December 
        2020

         Washington, D.C. Bar Association Water is Life Webinar, 
        ``Treaties, Water, and Oil Pipelines,'' Webinar, Washington, 
        D.C., September 2020

         Lake Superior State University, Campus Big Read Book 
        Discussion: Violence Against Women in Indian country,'' Sault 
        Ste. Marie, MI, September 2020

         Michigan Climate Action,'' Line 5 and Defending Tribal Treaty 
        Rights,'' Speaking of Resilience Podcast, July 2020

         Indian Country Today,'' Interview on Tribal COVID-19 
        Response,'' May 2020

         Arizona State University Law School Wiring the Rez 
        Conference,'' Moving Online,'' Wild Horse Pass Resort, 
        Glendale, Arizona, January 2020

         Michigan State University College Law 16th Annual Indigenous 
        Law Conference,'' The Lawyer Becomes the Client (Ethics), 
        Michigan State University College of Law, East Lansing, 
        Michigan, October 2019

         Wisconsin Bar Association Indian Law Conference, 
        ``Environmental Threats: Knowing the Battlefield,'' Wilderness 
        Resort, Wisconsin Dells, Wisconsin, August 2019

         Mackinac Island Community Forum, ``For Love of Water Update on 
        Line 5 Pipeline, July 2019

         Michigan Climate Action Summit, Grand Rapid, MI, February 2019

         Lake Superior State University Scholar Series, ``Blood Feud: 
        The Ethics of Researching Native American Genetics,'' Sault 
        Ste. Marie, MI, November 2018

         Great Lakes Coalition Press Conference, ``Enbridge Line 5 
        Pipeline,'' Lansing, MI, November 2018

         NextGen Native Podcast, ``Politics & Art,'' November 2016

    17. Testimony:

    While I have never testified in a non-governmental capacity. I have 
testified before Congress as the President of the Bay Mills Indian 
Community at the following hearings:

  <bullet>  May 9, 2018--House Appropriations Subcommittee on Interior, 
        Environment and Related Agencies, American Indian and Alaska 
        Native Public Witness. Hearing on Appropriations for 2019 
        (appearing in my capacity of President of the Bay Mills Indian 
        Community as witness for Chippewa Ottawa Resource Authority)

  <bullet>  March 7, 2019--House Appropriations Subcommittee on 
        Interior, Environment and Related Agencies, Public Witness 
        Hearing--Tribal Programs: Day 2, Morning Session (appearing in 
        my capacity of President of the Bay Mills Indian Community as 
        witness for Chippewa Ottawa Resource Authority)

  <bullet>  February 11, 2020--House Appropriations Subcommittee on 
        Interior, Environment, and Related Agencies, American Indian 
        and Alaska Native Public Witness Day 1, Afternoon Session 
        (appearing in my capacity of President of the Bay Mills Indian 
        Community as witness for Chippewa Ottawa Resource Authority)

    18. Selection:

    (a) Do you know why you were selected for the position to which you 
have been nominated by the President?

    I believe I was selected for my experience working both in the 
Department and as an elected tribal leader and for my accomplishments, 
in addition to my reputation for ethics and respecful treatment of 
others.

    (b) What in your background or employment experience do you believe 
affirmatively qualifies you for this particular appointment?

    I believe my experiences, including working in the Department, as a 
successful elected tribal leader and tribal judge, and as an attorney 
who has represented many different tribes, makes me quafified to 
exercise the duties of the Assistant Secretary--Indian Affairs.

                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations, or business organizations if you 
are confirmed by the Senate? Yes.

    2. Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, please explain. No.

    3. Do you have any plans, commitments, or agreements after 
completing government service to resume employment, affiliation, or 
practice with your previous employer, business firm, association, or 
organization? No.

    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.

    5. If confirmed, do you expect to serve out your full term? or 
until the next Presidential election whichever is applicable? Yes.

                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.

    I maintain 401(k) or similar retirement accounts through the 
following previous employers: Dykema Gossett, PLLC; Fletcher Law, PLLC; 
and Bay Mills Indian Community.

    My former employers do not make any further contribution to these 
plans.

    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

    I have consulted with, and will continue to consult with, the 
Department's Designated Agency Ethics Official and staff in the 
Departmental Ethics Office, to identify potential conflicts of 
interest. I have entered into an ethics agreement, which has been 
provided to the Committee, with the Department's Designated Agency 
Ethics Official to identify potential conflicts of interest. I will 
complv with that agreement.

    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, spouse or dependents, on behalf of a client, or acting as an 
agent, that could in any way constitute or result in a possible 
conflict of interest in the position to which you have been nominated.

    Any potential conflicts of interest have been identified and 
addressed through consultalions with the Office of Government Ethic's 
and the Department' Designated Agency Ethics Official. As a result of 
those consultations, I have entered into an ethics agreement, which has 
heen provided to the Committee, with the Department's Designated Agency 
Ethics Official to identify potential conflicts of interest. I am not 
aware of any other conflicts of interest.

    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy, regardless if you 
were a registered lobbyist.

    I have never been a registered lobbyist. As a tribal leader, I was 
regularly in contact with State and Federal legislative bodies and 
agencies to maintain good relations and influence the execution of 
policy affecting Indian tribes. As a tribal attorney, I often 
represented tribal governments and entities on matters that touched 
upon the implementation of federal policies. For example, I have 
negotiated tribal-state gaming compacts for several Tribes (Jicarilla 
Apache Nation, Menominee Indian Tribe of Wisconsin, and the Crow Tribe 
of Montana) that required review and approval by the Department of the 
Interior. I have also advised several Tribal clients on Federal and 
State relations, without serving as a principal contact with agency 
officials or congressional staff.

    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)

    I have consulted with, and will continue to consult with the 
Department's Designated Agency Ethics Official and staff in the 
Departmental Ethics office, to identify potential conflicts of 
interest. I have entered into an ethics agreement, which has been 
provided to the Committee, with the Department's Designated Agency 
Ethics Official to identify potential conflicts of interest. I will 
comply with that agreement. I will adhere to all federal ethics 
statutes, regulations, and policies, as well as ethics rules applicable 
to me as a licensed attorney.

    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.

                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.

    I was the subject of a complaint to the Michigan Attorney Grievance 
Commission filed by an attorney in 2014 or 2015 for communication with 
an unrepresented party. The attorney who filed the complaint was a 
defendant in a civil case in which I was the plaintiffs counsel, and he 
was represented by at least 6 different attorneys during the course of 
the litigalion--including periods where he represented himself. I had 
served the complaining attorney with notice and a copy of a pleading in 
the case during a period in which he was representing himself. The 
Michigan Attorney Grievance Commission disposed of the complaint 
without any disciplinary action.

    2. Have you ever been a subject of an investigation, or 
investigated, arrested, charged, or held by any Federal, State, Tribal 
or other law enforcement authority for violation of any Federal, State, 
Tribal, county, or municipal law, regulation, or ordinance, other than 
for a minor traffic offense? If so, please explain. No.

    3. Have you or any entity, partnership or other association, 
whether incorporated or unincorporated, of which you are or were an 
officer ever been involved as a party in an administrative agency 
proceeding or civil litigation? If so, please explain.

    Yes. Before and during the course of my tenure as President of Bay 
Mills Indian Communitv, and as a Member of the Board of Regents for the 
Bay Mills Community College, both entities have been involved in civil 
litigation as plaintiffs and defendants on a number of matters. None of 
the cases pertained to my actions or decisions in either my official or 
personal capacity while serving at those organizations.

    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.

    5. Are you currently a party to any legal action? If so, please 
provide the nature and status. No.

    6. Have you ever declared bankruptcy? If so, please describe the 
circumstances. No.

    7. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. Not applicable.

                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.

    2. Will you ensure that your department/agency responds to all 
congressional inquiries and letters from members of Congress in a 
timely matter? Yes.

    3. Will you ensure that your department/agency protect 
congressional witnesses and whistle blowers from reprisal for their 
testimony and disclosures? Yes.

    4. Will you cooperate in providing the committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee in a timely 
manner? Yes.

    5. Please explain, if confirmed, how you will review regulations 
issued by your department/agency, and work closely with Congress, to 
ensure that such regulations comply with the spirit of the laws passed 
by Congress.

    If confirmed, I, with the help of the Department's Office of 
Regulatory Affairs and Collaborative Action and the Office of the 
Solicitor, will utilize the established administrative decisionmaking 
process, applicable law, and any relevant case law to develop, review, 
and, finalize regulations. I will aim to ensure that the Department's 
regulations comply with the spirit and letter of the law passed by 
Congress.

    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    7. Will you commit to submitting timely testimony to the Committee 
consistent with Committee Rule 4(b)? Yes.

                  f. general qualifications and views
    1. How does your previous professional experiences and education 
qualify you for the position for which you have been nominated?

    I have previously served within the Department of the Interior as a 
Counselor and Senior Policy Advisor to the Assistant Secretary of 
Indian Affairs. That service has given me a clear understanding of the 
responsibilities of the position and the scope of the work. I also 
served as the Chief Judge of a Tribal Court for 4 years, which was 
funded through a P.L. 93-638 contract with the Bureau of Indian 
Affairs. During my tenure as Chief Judge, I experienced the challenges 
facing many tribal justice systems and the people that they serve. I 
had the opportunity to serve as President of a Tribe for more than 3 
years and was directly responsible to Tribal citizens, for taking 
actions to improve their lives and being a steward for tribal 
resources. I have taught Federal Indian law at a large university law 
school. Lastly I have represented a number of Tribes across the United 
States as legal counsel, which has given me a perspective regarding the 
unique challenges facing tribes in different regions.

    Together, these experiences have helped me to develop a unique 
perspective on the relationship between individual tribal citizens, 
tribal governments, the Department of the Interior, and the Federal 
Government. I've learned how Federal laws and policies impact tribal 
governments, and how those impacts flow directly to tribal citizens and 
residents of tribal communities.

    2. Why do you wish to serve in the position for which you have been 
nominated?

    I want to utilize this opportunity to implement policies to improve 
the lives of people in Indian country, and to set the foundation for a 
better relationship between American Indians/Alaska Natives and the 
United States.

    3. What goals have you established for your first two years in this 
position, if confirmed?

    If comfirmed, in my first two years I intend to:

  <bullet>  Oversee the successful implementation of the American 
        Rescue Plan within the Indian Affairs bureaus at the Department 
        of the Interior;

  <bullet>  Take steps to restore tribal homelands and empower Tribal 
        governments to exercise greater control over the use and 
        development of their lands;

  <bullet>  Move the Bureau of Indian Education closer toward 
        operational independence;

  <bullet>  Implement the Not Invisible Act, build-out the Missing and 
        Murdered Unit at the Department of the Interior, and coordinate 
        with other agencies to respond to missing and murdered 
        Indigenous persons in Indian country;

  <bullet>  Work with the Secretary of the Interior to fulfill 
        President Biden's commitments to Indian country in his January 
        26, 2021, memorandum regarding tribal consultation and 
        strengthening the nation-to-nation relationship; and,

  <bullet>  Coordinate with other cabinet agencies to successfully 
        reconstitute the White House Council on Native American Affairs 
        and organize the White House Tribal Nations Summit.

    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?

    There are many subject matter areas where I do not have expertise, 
and I believe the best method to obtain knowledge on those areas is to 
engage with an open mind, ask questions, and listen.

    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.

    I believe that the role of government is to preserve the safety and 
general welfare of the people it serves, and to create conditions that 
allow people to live safe, healthy, and fulfilling lives in communities 
of their choosing. I do not believe that the activities of government 
should be constrained or enlarged by rigid ideology, and instead 
believe that government actors should adhere to core legal principles 
while adaptively working to address problems in a dynamic environment.

    6. Describe the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated.

    The mission and objectives of the Department of the Interior with 
respect to American Indians, Indian Tribes, and Alaska Natives are to 
enhance the quality of life, to promote economic opportunity, and to 
carry out the responsibility to protect and manage trust assets.

    The Department's operational objectives are to facilitate tribal 
self-government and self-determination through a variety of programs.

    7. What do you believe to be the top three challenges facing the 
department/agency and why?

    The biggest current challenge facing the Department of the 
Interior--Indian Affairs operation is responding to the COVID-19 
pandemic in a way that supports tribal self-determination and self-
government while protecting the health and safety of Department and 
Tribal employees. Relatedly, the Department must also assist Tribal 
government in delivering effective government services to Tribal 
citizens in a manner that protects the public health and creates 
economic opportunity in the aftermath of the pandemic.

    Other significant challenges included the need to protect American 
Indians and Alaska Natives from violent crimes--particularly domestic, 
intimate partner, and sexual violence. American Indians and Alaska 
Natives are subjected to violent crimes at a disproportionately high 
rate, and those criminal acts are often difficult to address due to a 
lack of resources and jurisdictional challenges.

    The Department must also work with Congress and Tribes to help 
develop modern infrastructure across Indian country. A lack of high-
speed Internet access, safe drinking water, safe roads, and housing 
inhibit economic growth in Indian country.

    8. In reference to question number six, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years?

    The biggest obsticle to upholding the trust responsibility and 
protecting and managing those assets for the true benefit of Tribes has 
been indifference and prioritizing the views of other stakeholders that 
participate in the process over the views of Indian tribes.

    9. Who are the stakeholders in the work of this department/agency?

    While there are many entities that participate in Indian Affairs 
activities, like other federal agencies, States, and private sector 
companies, the primary stakeholders for Departmental programs are 
federally recognized Indian tribes, individual tribal citizens and 
Indian landowners, and indigenous people within the United States.

    10. What is the proper relationship between the position to which 
you have been nominated and the stakeholders identified in question 
number nine?

    The proper relationship between the Assistant Secretary--Indian 
Affairs and Tribe, tribal cilizens, Indian landowners, and Indigenous 
people is a respectful relationship in which the Assistant Secretary 
acts as a Trustee who empowers the beneficiaries to define their needs 
and priorities.

    11. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices.

    a) What do you believe are your responsibilities, if confirmed, to 
ensure that your department/agency has proper management and accounting 
controls?

    The Assistant Secretary must work closely with managers to provide 
clear direction and oversight on the execution of program functions. 
This includes instilling and upholding values consistent with the 
public trust and holding senior managers accountable for the proper 
expenditure of taxpayer funds.

    b) What experience do you have in managing a large organization?

    I served as the President of a federally recognized Tribe for more 
than 3 years, in which time I was responsible for establishing annual 
budgets and overseeing nearly 700 employees. During my tenure as Tribal 
President, I helped lead our Tribe through the COVID-19 pandemic with a 
comparatively low infection rate while also expanding the Tribe's 
business holdings and developing a new health center. I also know the 
Department and its programs well, having served during the Obama 
Administration, assisting the Assistant Secretary--Indian Affairs in 
the management of the Indian Affairs bureaus.

    12. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.

    a) What benefits, if any, do you see in identifying performance 
goals and reporting on progress in achieving those goals?

    Establishing performance goals is a useful tool to measure progress 
and hold the organization accountable. Reporting on progress is useful 
in building trust with employees and outside stakeholders.

    b) What steps should Congress consider taking when a department/
agency fails to achieve its performance goals? Should these steps 
include the elimination, privatization, downsizing, or consolidation of 
departments and/or programs?

    The first step Congress should take is to evaluate the reasons an 
agency has not met its performance goals. Sometimes, an agency's 
failure to meet its goals may be due to the capacity of staff, and 
sometimes it may be due to larger structural challenges--such as a lack 
of funding or reliance on other agencies for critical support. Remedies 
must be designed to respond to the cause of the failure to meet 
performance goals. With respect to Indian Affairs, Congress should also 
consider empowering Tribal governments to carry-out the functions to 
meet the performance goals locally.

    c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?

    Indian Affairs is unique in that its objectives are usually defined 
by Tribes and individual beneficiaries. It is important that the 
Assistant Secretary work closely with Tribal leaders to understand how 
they define and evaluate success and establish performance goals based 
upon that feedback.

    13. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?

    I believe the role of a supervisor is to lead, teach, and empower 
employees to move an organization toward its goals; and a supervisor 
must ensure that each employee is accountable for meeting those goals 
and upholding ethical standards. In my career, I have worked hard to 
empower employees to help meet tasks and avoid micromanagement. I view 
it as my responsibility as a leader to clearly communicate goals, 
deadlines, and ethical standards, and trust that employees will use 
their skills and professionalism to meet deadlines, accomplish goals, 
and abide by ethical standards.

    I have never been the subject of an employee complaint.

    14. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please explain.

    I have had limited experience working with Members of Congress and 
Committees, but have maintained respect for Members and staff in my 
prior engagements.

    15. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.

    The Inspector General must retain a measure of independence to 
preserve the ability to conduct fair and unbiased investigations of 
complaints and referrals, and to issue findings--even if critical of 
current agency employees. If confirmed, I would maintain a degree of 
respect for staff with the Office of the Inspector General and ensure 
that they have the abilily to perform their important duties without 
interference.

    16. In the areas under the department/agency's jurisdiction to 
which you have been nominated, what legislative action(s) should 
Congress consider as priorities? Please state your personal views.

    I believe that Congress should prioritize enactment of the American 
Jobs Plan, because it will provide historic levels of funding for 
Indian country infrastructure development. In addition, I believe that 
it will be important for Congress to reauthorize the Violence Against 
Women Act, and to adopt ``Carcieri fix'' legislation.

    17. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending in an open 
manner through a set of fair and objective established criteria? If 
yes, please explain what steps you intend to take and a timeframe for 
their implementation. If not, please explain why.

    Yes. If confirmed, I will engage in tribal consultation to 
understand how Tribes want to prioritize discretionary spending, and 
will actively participate in dialogue with the Tribal Interior Budget 
Committee.

                           g. financial data
    [Information not released to the public.]

    The Chairman. Thank you very much, Mr. Newland. You were an 
elected tribal leader. The first question I have for you is, if 
confirmed, what lessons from that experience will you take into 
the role as Assistant Secretary? What specific improvements do 
you think need to be made that you are going to bring your old 
perspective into your new role?
    Mr. Newland. Thank you for that question, Chairman Schatz.
    I think the most important lessons I learned serving as 
tribal leader, again referencing my introductory comments, is 
that I understand that when we show up to work every day and do 
something or don't do something, that it affects the lives of 
people. So I want to make sure that as I go to work, if I have 
the privilege of being confirmed, that I keep that in mind.
    Another thing I learned working with other elected members 
of our tribal council in a community that governs itself 
through a general tribal council is that consensus building is 
important. While we have many urgent issues to tackle, we also 
must work to ensure that we are meaningfully engaged with 
tribes across Indian Country and stakeholders, so that the 
decisions that we make and the policies we enact, to make sure 
that they stick. Because when you don't have consensus, when 
you don't take the time to build that, oftentimes the change 
you seek eludes you, because people haven't bought in.
    So those are some of the lessons that I would bring with me 
to the Department.
    The Chairman. A friend of mine in Hawaii says, you got to 
go slow to go fast. So I agree with your perspective on 
consensus building.
    BIE in particular has been really awful in responding to 
Committee requests, letters, questions from the record, they 
are just late, sometimes they never get back to us. Do I have 
your commitment that if confirmed, that you will make sure that 
BIE and BIA and other bureaus over which you have 
responsibility timely respond to any Committee member who has 
any formal correspondence?
    Mr. Newland. Thank you, Mr. Chairman. You have my 
commitment.
    The Chairman. Thank you.
    I want to talk to you just a little bit about the OIG. The 
paperwork you submitted indicates that you agree, but for the 
hearing record, if confirmed, will you ensure that the OIG has 
the ability to perform its duties without interference?
    Mr. Newland. Thank you, Mr. Chairman. Yes, the Office of 
Inspector General has a very important role to play and I 
respect that role and will make sure that they have the ability 
to do their job without any interference.
    The Chairman. I want to talk to you a little bit about the 
Native Hawaiian trust responsibility, the Federal trust 
responsibility encompassing American Indians, Alaska Natives, 
and Native Hawaiians. I think there tends to be a 
misunderstanding depending on where you reside within the 
Executive Branch. I was just talking to Secretary Becerra about 
this, that even though the trust responsibility as it relates 
to Native Hawaiians is sometimes expressed, even through 
funding or statutory law, in a different part of the Federal 
architecture, both bureaucratically and in terms of the law 
itself. That doesn't make it any less valid.
    I am just wanting your commitment to not just recognize it 
as a person and as a leader in a specific position, but as an 
advocate across the Federal Government. Everybody has to 
understand that just because, for instance, Native Hawaiian 
education and Native Hawaiian health, Native Hawaiian housing 
may reside in a different place, and may be administered by a 
different department or agency, doesn't make it any less valid.
    I really need your commitment to sort of be the watcher 
here, whether it is HHS or United States Department of 
Education or the Department of Interior. Do I have your 
commitment to kind of articulate across agencies that the 
government's obligation sticks, whether it is Native Hawaiians, 
Alaska Natives or American Indians?
    Mr. Newland. Thank you, Mr. Chairman, for your comments and 
your advocacy on behalf of Native Hawaiians. You have my 
commitment to work with you and other officials across the 
Federal Government to make sure that we are carrying out our 
legal and our moral obligations to Native Hawaiian people.
    The Chairman. Thank you very much.
    Vice Chair Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Newland, as I mentioned in our call, and just in my 
opening here, the differences that we have in Alaska when it 
comes to Alaska Native governance and representation, and the 
distinction with our ANCs that were created through ANCSA.
    So we learned very clearly, I think, after the passage of 
the CARES Act and the Treasury's actions to disburse the funds 
under the tribal set-aside, it became clear to us in Alaska 
that the structure, when it comes to Alaska Native governance, 
is just not as well understood as we believe it is. It has been 
around now for 40 years, and we think that others understand 
it. But because it is so unique to Alaska, I think it is an 
ongoing education issue. We saw that play out. We are now 
awaiting the decision by the Supreme Court in the Chehalis 
litigation.
    I need to know that you are aware of how important it is 
that ANCs are included in the ISDEA definition of Indian tribe, 
which is referenced in hundreds of other statutes. I am also 
needing to reinforce and make sure that you are aware of how 
important it is that ANCs serve as the recognized governing 
body of an Indian tribe under ISDEA and DOI guidelines, 
sometimes only in limited circumstances. But I know that you 
have been looking further into this in not only preparation for 
this hearing but just in the role that you have been nominated 
to.
    So again, if you can affirm to me that you do understand 
the importance of what I have just laid down, and if you can 
share with me what you are doing to educate yourself now on 
ANCSA and ANILCA and Alaska's unique structure that serves 
tribal communities, and making sure that not only for yourself 
but for others in your office that you will commit to the ANCSA 
and the ANILCA trainings that are provided, if you are 
confirmed.
    Mr. Newland. Thank you, Vice Chair Murkowski. I appreciate 
your comments.
    First, I would share your assessment that there is a lot of 
educating that needs to be done on the unique structure of 
Indian law in Alaska. I will acknowledge that I am working to 
educate myself on those laws as well, and I have been working 
diligently since I arrived at the Department to work with the 
experts within the Department to understand ANCSA and ANILCA, 
and also the other unique ways that other laws interact with 
those statutes.
    I am also looking forward to having the opportunity to 
getting on the ground in your State and working with leaders 
and visiting communities and understanding and hearing directly 
from them. I believe there is no substitute for that.
    Which is all a longwinded preface, I know, to respond to 
your question, which is that I am committed to better 
understanding and to carrying out my responsibility to the 229 
federally recognized tribes in Alaska as well as the 
corporations there. I am eager to work with you and your team 
and folk across Alaska.
    Senator Murkowski. I thank you for that. I think you have 
been made aware that because of some of the comments that were 
made last year, comments that were very critical of ANCs in the 
context of the CARES implementation, including comments that 
you have made, that the temperature on this got pretty hot 
there for a while. So I think it is going to be important to 
not only lower that temperature, but for you in this position 
to really set that tone as an ambassador and as an advocate for 
all of Indian Country and Native people.
    Very quickly, because my time is just about expired, Alaska 
is a PL-280 State. We have been working over the years to piece 
together different grants and programs to support our public 
safety systems. We have been able to direct funding to Alaska 
for our tribal courts, even though we are a PL-280 State. So 
your position on using BIA funding for tribal courts in PL-280 
States like Alaska, recognizing your significant experience 
with the tribal court system?
    Mr. Newland. Thank you, Vice Chair Murkowski.
    Consistent with what you have just laid out under the 
President's Rescue Plan that Congress enacted, we worked toward 
that end with leaders across Alaska Native communities to make 
sure that our law enforcement funding that came down through 
the Department of the Interior acknowledged the unique 
challenges that tribes in Public Law 280 States faced so that 
we made sure that they were not excluded from public safety 
funding under the Rescue Plan. I think that is important, as 
you have laid out. I look forward to working on it, if 
confirmed.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chairman.
    Mr. Newland, congratulations on your nomination. Welcome to 
your family. And thank you for taking the time with me to talk 
with me prior to today's hearing as we talked about important 
issues that impact tribal communities in my State and across 
the Country.
    One of the things I want to focus on is the need for better 
coordination among the Federal agencies as it comes to 
representing and providing additional and necessary resources 
to our tribal communities. One, I want to get a commitment from 
you that you are willing to not only appear before us, but work 
with other Federal agencies on issues, whether it is economic 
development or infrastructure, that pertain to tribal 
communities. Are you willing to do that?
    Mr. Newland. Yes, Senator.
    Senator Cortez Masto. Two, there are two issues really that 
are a priority for me. One of them, and I am going to need our 
help with this, has to do with wildfires. In the west, we are 
seeing more and more wildfires, we are dealing with this here 
in Congress, not only the resources, but addressing the 
prevention, suppression, all of the above.
    I want to make sure our tribal communities are brought into 
this conversation, because they are dealing with the wildfires 
and necessary resources to assist them. But it requires you to 
work with other Federal agencies to really come to the table 
and have a coordinated response for policies, protocols, and 
working with State and local as well as our tribal communities, 
most importantly.
    So can you talk a little bit about that, what is already 
being done and what you can promise at least or make a 
commitment that we can address for the future?
    Mr. Newland. Sure, thank you, Senator. I appreciate the 
opportunity to talk about this a little bit.
    One of the great things this Administration has already 
done on this effort is to reconstitute the White House Council 
on Native American Affairs. The trust obligation to Indian 
Country does not rest solely within the Bureau of Indian 
Affairs, it is the United States' trust obligation. That allows 
us to actually put action behind the all-of-government approach 
to issues across Indian Country, including wildfire issues.
    I know that Secretary Haaland and Secretary Vilsack at the 
Department of Agriculture have been speaking and working on 
wildfire issues across the west, particularly as the relate to 
Indian Country and protecting tribes and making sure tribes 
have resources on that. Within the Department, we have bureaus 
coordinating in anticipation of this year's wildfire season.
    But the White House Council is going to be critical to 
making sure that this coordination on Indian Country issues 
happens. I am really glad to be a part of it.
    Senator Cortez Masto. Thank you. And really, what I am 
looking for is action items coming from that, whether they are 
MOUs or agreements, policies, protocols and how the agencies, 
who is going to take the lead at certain times, how it actually 
gets done at the end of the day. I am hopeful that you will 
help me make sure that that happens.
    Let me jump to another issue. When it comes to the Tribal 
Energy Loan Guarantee Program, we discussed this previously, 
but let me just broach this again with you. Tribal Energy Loan 
Guarantee Program has not issued any loans since it was 
authorized under the Energy Policy Act of 2005. I think this is 
a missed opportunity to help tribes as they look to deploy 
renewable energy. The fiscal year 2021 Consolidated 
Appropriations Bill included language to encourage the 
Department of Energy's Office of Indian Energy to better market 
the program.
    So if confirmed, will you commit to reviewing the Tribal 
Energy Loan Guarantee Program and expediting efforts to make 
the program more accessible to tribes?
    Mr. Newland. Sure, thank you, Senator.
    This goes back to the all-of-government approach you 
referenced in your first question. We have been working with 
the Department of Energy on this, and also trying to make sure 
that the Department of the Interior's Indian Loan Guarantee 
Program works with Department of Energy's loan guarantee 
program for Indian Country, so that tribes have access to the 
capital they need to develop the resources they have on their 
lands, be they renewable energy resources, or others.
    Senator Cortez Masto. Thank you. I appreciate your comments 
today. Congratulations again.
    Thank you, Mr. Chair.
    The Chairman. Senator Lankford.

               STATEMENT OF HON. JAMES LANKFORD, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Lankford. Mr. Chairman, thank you very much.
    Mr. Newland, it is a tough job to be able to step up into. 
You know well, because you watched it, when you served in 
Interior before. So thanks for stepping up and being able to be 
energetic, I would say, to be able to step into this and be 
able to try again to be able to lead it.
    I have multiple questions for you. I will try and run 
through them as quick as I can, through several of them.
    This issue of tribal energy production that Senator Cortez 
Masto was talking about is an important one. There are a lot of 
tribes in my State as well that want to continue energy 
production.
    Are you still committed to all-of-the-above energy 
production on Native lands?
    Mr. Newland. Thank you, Senator. I have had an opportunity 
to work in your State with a number of the tribes and know how 
important oil and gas development is to tribes in Oklahoma. My 
priority, if confirmed to this job, is to make sure that tribes 
are in control of whether, when and how to develop their energy 
resources, be they renewable energy or other resources they 
have on their lands.
    Senator Lankford. That is great. Let me just give you a 
specific, I can give you a bunch of them, but let me zero in on 
one tribe in particular, for the Osage. Starting in 2014, the 
Solicitor of the Department of Interior determined that if they 
are going to get their own records to be able to do land 
development, energy development on the Osage Nation area, then 
they would have to go through a FOIA request to do that. As you 
know, for energy development right now, with it $68, $70 a 
barrel, there are a lot of folks that want to do production. 
They are going to go to start doing production.
    Now, if they have to do a FOIA request, if it would take 
months to years just to get the records for that area, they are 
not going to do it. They are going to move on. This has been a 
challenge for a very long time of how long it takes to be able 
to get to those records.
    I can give you multiple other examples of things that just 
take an extraordinarily long period of time to be able to get 
access to information. How do we solve those things?
    Mr. Newland. Thank you, Senator. I don't know the details 
of that particular opinion.
    Senator Lankford. Right.
    Mr. Newland. But there is a reference in my introductory 
comments, my parents faced this when I was a kid, and we have 
lived it. That was something that really stuck with me, making 
me want to work with members of the Committee on the HEARTH 
Act.
    When it comes to things like you have just referenced, it 
is going to be important for us to be a collaborative trustee. 
That is going to mean that tribes are in the driver's seat for 
what they want to do within their communities, especially in 
terms of economic development and energy development.
    I don't want to be an impediment for tribes. Part of that 
is going to involve communicating directly with leaders of 
communities, kind of that on the ground, that slog that you 
come in day after day and build those relationships. But I also 
want to make sure that we are holding our staff within Indian 
Affairs accountable for getting the job done.
    Senator Lankford. Right. That is the challenge, that there 
is communication. But when it comes time to actually make the 
decision, the decision doesn't seem to made, or it takes so 
long to get to a decision on something that would be pretty 
straightforward that it makes that a real challenge to be able 
to do energy production, whether it be renewable or traditional 
energies. So it is an area that we do need to be able to fix.
    Let me ask you about another legal opinion. You have done 
so much work on Indian law, let me bring up an obvious one. 
This is recent, it is the McGirt case. Everyone that I know 
that is dealing with Indian law right now is all interested in 
that case.
    Tell me your opinion on that. How far does that expand? 
What is the meaning of the McGirt case? How far does it extend 
beyond Oklahoma and the five tribes directly affected?
    Mr. Newland. Thank you, Senator. The Supreme Court's 
decision in McGirt was an interpretation of a single treaty for 
a single tribe on the matter of criminal prosecutions. But when 
you confirm the existence of reservation boundaries that leads 
to a host of other questions. I know that has been a particular 
concern for tribes and communities in Oklahoma.
    I think it is going to be important that we take those 
questions as they come in terms of the consequences of the 
McGirt decision. Because reservation boundary questions, 
questions of jurisdiction, they are so fact-specific, even 
within the same reservation they depend on the actors and the 
land tenure involved.
    So that is all to say I don't want to mis-speak by 
pronouncing consequences for McGirt that don't exist yet or 
that haven't come before us. I would rather take it as it 
comes, work with the Solicitor the Department of the Interior, 
affected tribes and communities and try to find answers on 
questions as they come.
    Senator Lankford. Right. It will be an area that we need to 
be able to talk about. Because obviously, as you mentioned, the 
McGirt case was a criminal case. But then there have been some 
decisions by the Department of Interior dealing with Office of 
Surface Mines and others to say, well, we have expanded beyond 
criminal, that we are still trying to determine where that 
decision got made, how that decision got made.
    So it becomes important as the State and as our tribes 
continue to be able to work out all the issues that will 
obviously be Federalized as well as we actually talk through 
final decisions on it and what that really looks like.
    I will try to submit some things for the record. I need 
some clarification on Indian child welfare. This is a 
significant issue for many of our tribes and individuals in the 
State.
    Then I have been pretty outspoken on off-reservation gaming 
to say that I completely understand all the issue with on-
reservation gaming. But off-reservation gaming has its own 
unique challenges for the governments and the counties and the 
cities that are now competing with a new government in the area 
they weren't used to, or to be able to move to another 
reservation and to be able to allow gaming in that area.
    So I will submit those for the record for you as well.
    Mr. Newland. Thank you, Senator.
    The Chairman. Senator Lujan.

               STATEMENT OF HON. BEN RAY LUJAN, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Lujan. Thank you, Chair Schatz, and thank you, Vice 
Chair Murkowski as well, for holding this hearing on the 
nomination of Bryan Newland to be the Assistant Secretary of 
Indian Affairs. Congratulations to you, sir, and to your 
family. It is great to see them here with you.
    I want to begin by sharing the story of Helene Archeletta, 
who is the daughter of Betty McArthur. Helene lives beyond 
Counselor, New Mexico, on the Navajo Nation, miles and miles 
from her school at Cuba High, where she has to travel more than 
an hour in each direction to get to school. She and her mother 
are members of the Navajo Nation, where they live. Her home 
lacks vital access to utilities, including wired electricity 
and running water. She relies on a solar panel, a small battery 
and a generator for electricity to access broadband, which she 
receives on her mobile phone. But she cannot use that to 
complete her school work, because her family faces stringent 
punitive data caps.
    I am committed to getting reliable broadband and other 
basic utilities to Helene and her family. However, tribal 
governments themselves often lack the resources to construct 
complete censuses of households without broadband, electricity, 
and running water.
    Growing up in the Bay Mills Indian Community, you know it 
is vital that the Federal Government partner with tribal 
nations to understand and provide basic utilities to Native 
homes and households. You state that tribal governments, rather 
than Federal agencies, are best suited to respond to the 
challenges their communities face.
    How can the Federal Government better support tribal 
nations and households in understanding their basic utility 
infrastructure needs, including broadband?
    Mr. Newland. Thank you, Senator Lujan. First, I appreciate 
you sharing that story. It is all too common across Indian 
Country. Some of the things we need to do are make needed 
investments in this area. President Biden has proposed 
ambitious infrastructure investment across the Country, 
including Indian Country. Just last week, Vice President 
Harris, Secretary Haaland and Secretary Raimondo announced the 
broadband initiative in Indian Country. So these are some of 
the things that can help.
    The other thing that we can do with Indian Country is to be 
a collaborative trustee, by making sure that we are 
facilitating development of that infrastructure and not being 
an impediment, which means letting tribes and Indian landowners 
make those decisions, and then getting it done as quickly as we 
can so they can have access to drinking water, access to 
broadband, and the things that they need.
    Senator Lujan. Yes or no, will you commit to working with 
me in your role as Assistant Secretary to support tribal 
governments in creating complete censuses of households on 
tribal lands and lack basic utility infrastructure? Today, at 
IHS, for example, they do comprehensive reviews of lack of 
water and wastewater. But they count on assessments nation to 
nation. I don't believe that they are complete.
    And in order to make progress to make these investments 
necessary, I think we need accurate data, so that we can make 
progress together. Is that something you can agree to work with 
me on?
    Mr. Newland. Yes, Senator, we can.
    Senator Lujan. I appreciate that.
    Now, another challenge that I have encountered, several 
years ago FEMA issued a declaration after a flood that took out 
a road and a bridge near Manuelito on the Navajo Nation. I 
personally had to go down to moderate a meeting between FEMA, 
the Navajo Nation, the Bureau of Indian Affairs, and the local 
county government to try to figure out what was going on and 
make sure we could expend those funds.
    The BIA would not secure and grant the right-of-way 
necessary to invest the funds that were given and recognized 
with the natural disaster by FEMA. The bridge is still 
unpassable. There was poor coordination between these Federal 
agencies, and the BIA still struggles to realize its treaty and 
trust responsibilities to tribes.
    If confirmed, what are you going to do to modernize the BIA 
and its partnerships so it is there to support tribes and 
protect non-tribal members, especially in situations like the 
example I provided?
    Mr. Newland. Thank you, Senator, and I know full well how 
frustrating that experience is. You have everything lined up as 
a tribe, or as a community, you have done your due diligence 
with Federal agencies, you are within the bounds of the laws 
and the regulations, and for whatever reason, it doesn't 
happen, or when Federal agencies, you are a spectator as a 
tribe, and Federal agencies have a difficult time connecting. 
That is something that, having that experience and frustration, 
I want to make sure it doesn't happen.
    One of the ways that we can do that is to make sure that 
within the Bureau of Indian Affairs, in our approval processes, 
that we are not having, even with the same policies and 
regulations, that we don't have a patchwork of applications 
depending on which community you are in. I know that is 
something that people across Indian Country, it drives them 
crazy. We are working right now at the Department of the 
Interior to make sure we have a consistent application of 
rights of way regulations, leasing regulations, so that there 
is not this patchwork.
    Then better coordination across the government. The 
President has made it clear all of our work, including in 
Indian Affairs, has to be an all-of-government approach. That 
communication you are referencing will be done through the 
White House Council and in other ways.
    Senator Lujan. Chair Schatz, thank you so much. There are a 
few other questions that I have, but will submit them into the 
record. Especially as we work to secure an infrastructure 
package, I think these are going to be areas that we have to 
address in order to see that infrastructure deployed timely.
    Thank you for this important hearing, Mr. Chairman.
    The Chairman. Thank you, Senator Lujan.
    Senator Hoeven.

                STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Hoeven. Thank you, Mr. Chairman.
    Mr. Newland, we had a hearing in North Dakota last year 
where we talked about law enforcement on the reservation. Three 
of the major takeaways were the need to address the shortage of 
BIA law enforcement officers, particularly in the Great Plains 
region, missing and murdered indigenous women and children, and 
substance abuse and mental health challenges.
    So how do you envision working with tribes to address these 
public safety challenges?
    Mr. Newland. Again, I think being a collaborative trustee 
is going to be important on that. But when it comes to missing 
and murdered indigenous persons, and I know you have been an 
advocate and a leader working on these issues, Senator, part of 
the big challenge is raising the visibility of it within the 
Federal Government and prioritizing it. Secretary Haaland has 
made this a priority in unmistakably clear terms within the 
Department.
    So when a Cabinet Secretary says, we are going to focus on 
missing and murdered indigenous people and violence in Indian 
Country, we are expected to deliver. We are working to build 
out the missing and murdered unit within the Bureau of Indian 
Affairs, adding staff to that across the Country and to 
coordinate on investigations for missing persons and murder 
cases.
    I appreciate your highlighting the challenges the Bureau 
has faced through decades in trying to attract and retain law 
enforcement staffing across the Country. It has been a 
challenge, as you know.
    One of the things that we are starting to do is to go and 
identify some of the root causes. Is it pay? Is it the 
challenges of the job? What is leading to the shortage of 
officers in many of these communities, including in your State?
    I think that is going to be the first step we have to take.
    Senator Hoeven. Part of it is having training in the Great 
Plains region, which is what was set up at the Spirit Lake 
Reservation, basically. So we do have a center now there that 
is helping with training. Because it is very hard to recruit 
from the Great Plains region if they have to go all the way 
down to Artesia to get training. It is hard to get people who 
go to Artesia, be it the southwest or whatever, to come up 
north and in the Great Plains.
    So part of it is that training center. I would ask that you 
would be willing to work with me to continue that so we can try 
to fill these vacancies, which as I mentioned is most acute 
across the Great Plains region.
    Mr. Newland. Senator, I would be happy to work with you and 
your team to address these issues.
    Senator Hoeven. Senator Lankford asked about energy. I want 
to follow up on that as well. The MSC Nation, the Mandan, 
Hidatsa, and Arikira tribes in our State, Three Affiliated 
Tribes, that reservation, if it were a State, it would be in 
the top 10 oil and gas producing States in the Country. They 
rely on infrastructure to get their oil to market, including 
the Dakota Access Pipeline.
    Do you think it is important in the discussion of the 
Dakota Access Pipeline that they have a voice in terms of how 
that is handled?
    Mr. Newland. Thank you for your question, Senator. When 
tribes are impacted by Federal decision-making, it is important 
that we engage them early on in meaningful consultation. So 
yes, they should have a voice on matters that directly impact 
them.
    Senator Hoeven. If confirmed, what is your main goal? What 
do you think you can do to help tribes recover from the COVID 
pandemic? What are some of the key things you think can and 
should be done?
    Mr. Newland. Thank you, Senator, for that question, and the 
opportunity to talk about that. I think one of the big things 
hat we can do coming out of the pandemic is to make sure that 
tribes have an economic opportunity at home so they can lead 
safe, fulfilling and healthy lives in their tribal communities. 
Some of the things, as you know from different communities in 
your State, some of the things that are lacking are jus the 
basic infrastructure that many communities take for granted, 
access to the modern economy through broadband connections.
    So making these investments and also making sure that we 
actually turn those investments into real assets in tribal 
communities that can benefit people will help tribes weather 
the storm, whether it is another pandemic, a natural disaster, 
and make it so that people have an opportunity to lead those 
safe, healthy, and fulfilling lives at home.
    Senator Hoeven. Thank you. Welcome to your family, as well. 
Thank you.
    Mr. Newland. Thank you, Senator.
    The Chairman. Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    Again, welcome to the nominee. We appreciate your 
willingness.
    I want to bring up several issues. One, I am excited that 
the Biden Administration is in support of a permanent Carcieri 
fix. I think this is very important, to take land into trust 
and to have recognized tribes be able to move forward on issues 
here. It has been very beneficial in the State of Washington 
over the past several decades when we did have that.
    If confirmed, can you commit to supporting a clean Carcieri 
fix and address the Department of Interior's policies for 
taking land into trust?
    Mr. Newland. Thank you, Senator. Absolutely.
    Senator Cantwell. Great. Will you support another 
initiatives that myself, Senator Murkowski and many others have 
been supportive of, that is dealing with the backlog and cases 
related to murdered and missing indigenous women? In Washington 
State, Seattle specifically, we have the highest rate of 
murdered and missing indigenous people with cases.
    If confirmed, would you commit to supporting and providing 
resources to helping us tackle this issue?
    Mr. Newland. Thank you, Senator. I share Secretary 
Haaland's commitment to taking meaningful action on addressing 
the crisis of missing and murdered indigenous people across 
Indian Country.
    Senator Cantwell. Thank you.
    An agency that affects a lot of our tribes is the Puget 
Sound Agency Fee to Trust. The office has had lots of what we 
would say serious failings in the processing of realty 
transactions. Since 2019, the office has had a series of acting 
superintendents who served only four months, the result being a 
massive backlog of fee to trust applications. As a result, I 
have heard stories about applications being in progress 
literally for years.
    So its failure to really live up to the trust 
responsibility as the Department considers options, what can 
you do? What is your plan to help us with this Puget Sound 
Agency office so we have capacity for the future in dealing 
with these issues in a timely fashion?
    Mr. Newland. Thank you, Senator. I would be happy to take a 
closer look at the Puget Sound Agency to better understand what 
is going on there.
    With respect to overall things that we can do, again, part 
of it is going to involve myself, if confirmed, setting clear 
expectations within the Bureau of Indian Affairs that this is a 
priority, and that our field staff are expected to make 
decisions in a timely manner. Nobody in Indian Country should 
be in the position that my parents were in, being made to wait 
years when they had everything they needed to get into a home 
because the Bureau of Indian Affairs simply would not get to 
their application.
    So this is a priority for me, making sure that our agencies 
across the Country are consistently applying the laws and the 
regulations and the policies on land into trust and leasing. If 
confirmed, I am going to communicate that to our team clearly.
    Senator Cantwell. Thank you. Another top priority for me is 
achieving 100 percent Federal medical assistance percentage 
FMAP for Urban Indian organizations, treating them with the 
same level of parity that you would treat a hospital. Seventy 
percent of American Indians and Alaska Natives live in urban 
settings, and they rely on Urban Indian health. So to me, they 
should be treated just like any other IHS facility.
    So we have been working on this in the past dealing with 
COVID. In the Finance Committee, we are also looking at this. 
If confirmed, will you commit to supporting efforts to provide 
Urban Indian Health organizations 100 percent of their FMAP 
funding?
    Mr. Newland. Thank you, Senator. If confirmed, I would look 
forward to working with folks over at Indian Health Service and 
HHS through the White House Council on Native American Affairs 
to make sure that we are playing a meaningful and positive role 
in addressing these challenges across Indian Country, including 
Urban Indian Health centers.
    Senator Cantwell. Do you see the difference between them 
and a hospital, an IHS hospital?
    Mr. Newland. I am sorry, Senator?
    Senator Cantwell. Do you see a difference between Seattle 
Indian Health and, say, a hospital in some other State? To me, 
they are both facilities run by Indian Health organizations and 
should be funded with full FMAP funding.
    Mr. Newland. I don't see the distinction based on who is 
operating a health center if they are providing health 
services.
    Senator Cantwell. Okay, thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Daines.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman. I greatly 
appreciate it. I will be your cleanup hitter here.
    Mr. Newland, good to see you again. I really enjoyed our 
conversation we had a few weeks ago where we discussed the 
Montana Water Rights Protection Act. The Montana Water Rights 
Protection Act was approved, Senator Tester and I worked hard 
to get that passed last December and signed by the President. 
So it has been ratified and confirmed. It directed the 
Secretary to execute and implement the compact.
    Despite this very clear directive from Congress, we have 
yet to see the Secretary of Interior execute the compact.
    Mr. Newland, can you specifically commit that you and the 
Department of Interior will do whatever is necessary, including 
working with the Department of Justice, to get the compact 
signed in the next few weeks? It has been now almost six 
months.
    Mr. Newland. Thank you for that question, Senator, and also 
for your bipartisan work to get that done and to carry the 
burden here in Congress.
    Yes, I can commit to working with you and others within the 
Department and the Department of Justice to make sure that we 
are getting that finalized and playing our role.
    Senator Daines. Could we see if we can get this done in the 
next few weeks?
    Mr. Newland. Senator, I will work to get it done, play a 
part in getting it done as quickly as we can.
    Senator Daines. Okay. I know the tribe very much wants to 
see this, it was years in negotiations and it settles a 
century-old water dispute, as you know. Thank you for that 
commitment.
    CSKT, and also the Blackfeet Water Rights Settlements along 
with several other authorized settlements across the west, they 
still require significant funding to meet the Federal 
obligations guaranteed by the terms of the settlements. The 
longer it takes to fully fund these settlements, the greater 
the cost to the American taxpayer, and the long and important 
treaty and trust obligations continue to be, frankly, ignored.
    As Congress works on the appropriations process, we look to 
provide funding for these Indian water rights settlements.
    The question, Mr. Newland, is how can you ensure that the 
Department and the Administration's plan appropriately, from 
budgeting discretionary funding, that they pan appropriately 
for that within the DOI's budget to meet these very important 
obligations?
    Mr. Newland. I am sorry, Senator, I didn't understand.
    Senator Daines. How can you ensure that the Department, the 
Administration, they play appropriately for budgeting these 
discretionary funding items within the Department's budget, the 
DOI's budget, so we can meet these obligations?
    Mr. Newland. Thank you, Senator. I know that the Assistant 
Secretary for Indian Affairs works closely with the Secretary's 
Indian Water Rights Office, which coordinates this work for the 
Department of the Interior. We have made it a priority to make 
sure that we are completing our obligations under enacted 
Indian water rights settlements.
    I believe there may be items in the President's budget 
request related to these two settlements. We will be happy to 
work with you and your team to make sure we are getting that 
done.
    Senator Daines. Thank you.
    My last question, last Congress I raised an issue that the 
Department of Interior was slow-rolling improvements for land 
records required to implement the HEARTH Act, which poses 
significant challenges for our tribes. In October of 2019, we 
were told that external portals as a proxy for the trust asset 
and accounting management system would only be, I was told, 
weeks away. That was back in October of 2019. I realize that 
was before your time.
    It has been almost two years since we were promised we were 
weeks away. These portals have never materialized.
    Mr. Newland, could you commit to digitizing Fort Belknap's 
and other tribes' land records and getting these portals up and 
running in accordance with the funding that has been 
appropriated?
    Mr. Newland. Thank you, Senator, I appreciate your 
highlighting that issue.
    Full implementation of the HEARTH Act is something that, as 
we spoke about, is near and dear to my heart. When it comes to 
those portals, I believe we have made that accessible to some 
of the compacted and contracted tribes. I believe we can work 
with you and your team to provide a demonstration of that work.
    When it comes to Fort Belknap, I would be happy to work 
with the tribe there and make sure that they have clear and 
accurate land records and the things that they need to manage 
their lands effectively.
    Senator Daines. Mr. Newland, thank you. You have my support 
in your nomination. I look forward to working with you to help 
out Indian Country, not only in Montana but around the Country. 
Thank you.
    Mr. Newland. Thank you, Senator.
    The Chairman. On that positive note, if there are no more 
questions, members may also submit follow-up written questions 
for the record. I would ask members to do so promptly, as we 
would like to move this confirmation as expeditiously as 
possible.
    I would also ask the nominee to respond fully and as 
promptly as possible to any follow-up questions we may have, 
and also to meet with any remaining Committee members who may 
wish to do so.
    The hearing record will be open for one week. Thank you, 
Mr. Newland, and thank you to your family, you must be very 
proud, for your time and your testimony and all of your 
collective public service. It is much appreciated.
    This hearing is adjourned.
    [Whereupon, at 3:39 p.m., the hearing was adjourned.]

                            A P P E N D I X

    Response to Written Questions Submitted by Hon. John Hoeven to 
                        Hon. Bryan Todd Newland
    Last Congress, when I served as Chairman of the Senate Committee on 
Indian Affairs, I held a field hearing in North Dakota where we 
discussed how tribes, Congress, and federal agencies can best work 
together to improve public safety and promote the safety and security 
of tribal members and their families.
    A key take away from that hearing was the substantial Bureau of 
Indian Affairs (BIA) law enforcement officer shortage present 
throughout the Great Plains region, and the need to find solutions to 
recruit and retain more BIA officers in the region.
    As we discussed at the hearing on June 9, 2021, the BIA law 
enforcement officer shortage must be addressed. One way I have been 
working to address the shortage is by providing BIA law enforcement 
training opportunities in the Great Plains so that individuals do not 
have to travel far from their communities in order to complete their 
training. Providing law enforcement training opportunities closer to 
home will reduce one barrier for those who are interested in pursuing 
BIA law enforcement officer roles in the Great Plains region.
    That is why I have worked to secure $5 million over the last two 
years for additional specialized law enforcement trainings. Last 
Congress, I worked closely with the Department of the Interior and BIA 
to utilize this funding to help establish new BIA law enforcement 
training courses at Camp Grafton, North Dakota. I am hoping to work 
with the administration to continue this important endeavor so that 
more BIA law enforcement officers can receive training closer to their 
home communities.

    Question 1. If confirmed, will you work with me to find solutions 
to the BIA law enforcement officer recruitment and retention challenges 
we are seeing across the country, particularly in the Great Plains 
region?
    Answer. If confirmed, ensuring adequate BIA staffing would be a 
high priority of mine and I would look forward to working with you to 
find solutions to recruitment and retention challenges, including in 
the Great Plains region. I recognize the funding Congress has provided 
for these specialized trainings and as I stated at my hearing, I 
appreciate the potential recruitment benefits to training closer to 
home.

    Question 2. If confirmed, will you support continuing the efforts 
at Camp Grafton in North Dakota to provide specialized law enforcement 
training to BIA officers, and work with me to build upon these efforts 
so that prospective BIA law enforcement officers can receive training 
closer to home and help fill existing gaps in the Great Plains region?
    Answer. The Advanced Training Center (ATC) on Camp Grafton, North 
Dakota opened in 2020 to deliver specialized advanced training in 
criminal investigation, drug enforcement, and command school programs. 
If confirmed, I commit to supporting the ATC and working with you to 
build on its training efforts.
    Last Congress, the U.S. House of Representatives passed the Lumbee 
Tribe of North Carolina Recognition Act (H.R. 1964) by voice vote. 
Companion legislation (S. 1368) was introduced in the Senate by 
Senators Richard Burr and Thom Tillis and was referred to the Senate 
Indian Affairs Committee, a committee I chaired for the last four years 
and of which I remain a member.

    Question 3. Do you support the goals of the Lumbee Tribe of North 
Carolina Recognition Act?
    Answer. I recognize that federal recognition is extremely important 
to communities seeking to establish a government-to-government 
relationship with the United States. I am familiar with the decades-
long pursuit of federal recognition by the Lumbee Tribe of North 
Carolina. While the administration has yet to take a formal position on 
this bill, I recognize that the President has stated his strong support 
for the goals of this legislation in the past and, if confirmed, I look 
forward to working with Congress on this very important issue to the 
Lumbee people.

    Question 4. Do you support extending federal recognition to the 
Lumbee Tribe of North Carolina?
    Answer. I recognize that federal recognition is extremely important 
to communities seeking to establish a government-to-government 
relationship with the United States. I am familiar with the decade's 
long pursuit of federal recognition by the Lumbee Tribe of North 
Carolina. If confirmed, I commit to carefully considering this issue in 
the context of the Department's federal acknowledgment process, but it 
would be inappropriate to prejudge the outcome of that process. 
Additionally, I respect that Congress has the power to recognize 
tribes, and if confirmed, I commit to working with Congress as part of 
that process as well.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mike Rounds to 
                        Hon. Bryan Todd Newland
    Question 1. What is your opinion on individual tribal members 
seeking to take their land out of trust? Or conversely, putting 
individually owned fee land into trust?
    Answer. There is established law, processes, and procedures that 
allow for individual Indians to apply for a patent in fee, or for trust 
status for their undivided fractional and full interests on-reservation 
or contiguous fee land. If confirmed, I intend to follow the law and 
implement the Department's processes and procedures for these 
transactions.

    Question 2. Programmatically, what role should states have in this 
decisionmaking process?
    Answer. Upon receipt of a completed application to have lands taken 
into trust from individual Indians, the Secretary will notify the state 
and local governments having regulatory jurisdiction over the land to 
be acquired, unless the acquisition is mandated by legislation. The 
notice will inform the state or local government that each will be 
given 30 days in which to provide written comments as to the 
acquisition's potential impacts on regulatory jurisdiction, real 
property taxes and special assessments. If the state or local 
government responds within a 30-day period, a copy of the comments will 
be provided to the applicant, who will be given a reasonable time in 
which to reply and/or request that the Secretary issue a decision.

    Question 3. What is your opinion on individual tribal members being 
able to secure private financing by pledging or mortgaging their 
individual trust land or even obtaining a leasehold mortgage on tribal 
trust land?
    Answer. 52 IAM 4 establishes the Department's policy, 
responsibilities, and procedures for the management and processing of 
leasehold and land mortgages of trust property. If confirmed, I intend 
to follow the law and implement the Department's processes and 
procedures for these transactions. As I stated at my hearing, I believe 
the Department should be a collaborative trustee when working with 
Tribal Nations to advance their goals, including homeownership.

    Question 4. How do you intend to improve the BIA mortgage approval 
process? Specifically, is there a way to streamline the requests for 
Title Status Reports, BIA mortgage approval and mortgage recordation on 
the Title Status Reports?
    Answer. In 2019, the BIA issued the Indian Affairs Mortgage 
Handbook, 52 IAM 4-H. It provides standardized procedures and other 
guidance to assist BIA staff in efficient and consistent processing of 
leasehold mortgages and land mortgages of trust property from various 
mortgage lenders and lending programs. If confirmed, I would work on 
ensuring implementation of the Indian Affairs Manual and use of the 
Mortgage Handbook that streamlines the mortgage approval process. I 
would pay close attention to how this new guidance is working and 
listen to Tribes and Tribal organizations, Congress, and other 
stakeholders to determine what, if any, further improvements can be 
made.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                       to Hon. Bryan Todd Newland
Air Force Expansion
    Nevada is home to a large Air Force training installation in 
Southern Nevada and the Navy has a large training installation in 
Northern Nevada. Both the Air Force and Navy have sought to 
significantly expand the footprint of their installations, which would 
have substantive impacts on lands managed by the Interior Department, 
including the Desert National Wildlife Refuge, popular recreational 
areas, federally-owned grazing lands, and important tribal and cultural 
resources.
    The Department of the Interior must be actively engaged in these 
discussions and finding reasonable, workable, and collaborative 
solutions with the military and local stakeholders, including impacted 
tribal communities.

    Question 1. Can I have your commitment that in your role as 
Assistant Secretary for Indian Affairs you will work with all 
stakeholders to find such solutions, and make sure that tribal input is 
a part of these solutions?
    Answer. When Tribes are impacted by federal decisionmaking, it is 
important that we engage them early on in meaningful and robust 
consultation. If confirmed, I commit to working alongside the other 
Bureaus within the Department to listen to all stakeholders and to 
engage in regular, meaningful and robust Tribal consultation to 
identify collaborative solutions. I understand that the Department, is 
engaging with the Department of Defense on these issues and I look 
forward to being part of the effort to ensure tribal input is taking 
seriously during the consideration of solutions.
MMIW Issues
    I'm glad to see Secretary Haaland is moving forward to implement 
the provisions of Savanna's Act and the Not Invisible Act, my bills 
with Sen. Murkowski that became law last year.

    Question 2. If you are confirmed, how will you approach 
implementation of these laws?
    Answer. I share Secretary Haaland's commitment to taking meaningful 
action on addressing the crisis of missing and murdered Indigenous 
people across Indian country. In April, Secretary Haaland announced the 
formation of a new Missing & Murdered Unit (MMU) within the Bureau of 
Indian Affairs Office of Justice Services to provide leadership and 
direction for cross-departmental and interagency work involving missing 
and murdered American Indians and Alaska Natives. The Department is 
also designating new positions to support the investigative needs of 
the MMU, including the collection and analysis of performance data and 
coordination of services with the families of victims. These efforts 
further implementation of Savanna's Act. Secretary Haaland also 
announced that she is moving forward to implement the Not Invisible 
Act, which calls for the Department to coordinate prevention efforts, 
grants, and programs related to missing and murdered Indigenous 
peoples. I look forward to working on these important issues as one of 
the Department's top priorities if I am confirmed.
Law Enforcement
    I hear from tribal law enforcement in Nevada and across the country 
that they need more tools, resources, and support to help keep their 
communities safe.

    Question 3. If confirmed, what will be your priorities when it 
comes to management of the BIA's Office of Justice Services?
    Answer. Every community deserves to be safe. If confirmed, ensuring 
adequate BIA staffing would be a high priority of mine and I would 
commit to the efficient and effective recruitment of qualified people. 
I would also prioritize listening to BIA's Office of Justice Services 
to identify, procure and provide the tools and resources they need. The 
President's FY22 budget request includes strong investments for Indian 
Country, including justice services, and I look forward to engaging 
with Congress to ensure those are well targeted and provide real 
improvements for Tribal public safety.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Ben Ray Lujan to 
                        Hon. Bryan Todd Newland
    Question 1. While we have some estimates at the federal level, it 
is fair to say that we lack information on who does and does not have 
access to clean drinking water and wastewater in Native communities. 
Yet we know the need for water infrastructure on Tribal lands is 
staggering, and it is paramount that we must fund the backlog of 
projects that exist within the Indian Health Service. I was proud to 
introduce the Indian Health Service Sanitation Facilities Construction 
Enhancement Act to provide $3 billion to address the backlog of water 
infrastructure projects documented by IHS. However, Congress must wait 
each year to obtain a report on the cost of sanitation deficiencies of 
Native American communities, and this can hamper legislative efforts to 
fund the most recent project inventory. If confirmed, what will you do 
to increase interim communication of the IHS Sanitation Deficiency 
System inventory and data to Congress?
    Answer. If confirmed, I would look forward to working with 
leadership of Indian Health Service and the Department of Health and 
Human Services on this important issue. While the position to which I 
have been nominated does not have direct authority within HHS, the 
White House Council on Native American Affairs is led by the Department 
and through my participation in several subcommittees, I will make 
every effort to ensure that Interior is playing a meaningful and 
positive role in addressing these challenges across Indian country by 
leading a whole of government approach to these issues.

    Question 2. The IHS has a responsibility to report annually on 
water infrastructure needs. However, IHS relies on Tribal governments 
to obtain data. This data is often incomplete on the number and 
locations of households that lack running water and wastewater. If 
confirmed, what will you do to ensure a more complete and accurate 
database is maintained at IHS?
    Answer. If confirmed, I would look forward to working with 
leadership of Indian Health Service and the Department of Health and 
Human Services on this important issue. While the position to which I 
have been nominated does not have direct authority within HHS, the 
White House Council on Native American Affairs is led by the Department 
and through my participation in several subcommittees, I will make 
every effort to ensure that Interior is playing a meaningful and 
positive role in addressing these challenges across Indian country by 
leading a whole of government approach to these issues.

    Question 3. Would you support a requirement that BIA report to 
Congress every few years on utility infrastructure need inventories, 
including water, electricity and broadband access, similar to the way 
IHS reports water deficiency needs to Congress annually?
    Answer. If confirmed I commit to ensuring that the BIA complies 
with the law and works with Congress consistent with the Department's 
processes for such information requests. Expanding Tribal broadband is 
one of Secretary Haaland and my top priorities for Tribal economic 
development and I am ready to work with Congress on all ways to 
effectively advance that goal.

    Question 4. Non-Tribal and Tribal members, whether they are living 
on or off of Tribal lands, are being negatively impacted by high 
transmission and distribution right of way easement costs. High 
easement costs have a negative impact on Tribal members, especially in 
my state of New Mexico, where utility rates to recover Indian right of 
way costs mostly fall on Tribal members. Escalating easement costs 
often are indirectly imposed onto customers residing within the Tribe's 
exterior boundaries, who must pay higher utility costs charged by 
companies that are trying to recoup the cost of easement agreements 
with Tribes. How will you work with the BIA to consider the impact of 
right of way costs, both direct and indirect, on both Tribal and non-
Tribal members?
    Answer. The Department can be a collaborative trustee with Indian 
country by making sure that we are facilitating development of 
infrastructure, and not being an impediment, which means letting tribes 
and Indian landowners make decisions and then getting things done as 
efficiently as possible. If I am confirmed, I am committed to ensuring 
certainty and transparency in these processes and this will be a 
priority for me if confirmed. I am also committed to the President's 
infrastructure plan which will improve transmission and clean energy 
options for underserved communities, including Tribal Nations and rural 
communities around them.

    Question 5. The Navajo Nation's farm enterprise, the Navajo 
Agricultural Products Industry (NAPI), is based in my state in 
Farmington, New Mexico and utilizes 70,000+ acres of land for farming 
with water from the Navajo Indian Irrigation Project. In March, our 
Committee had a hearing to hear from Tribes about their water 
infrastructure needs. The Navajo Nation and the Colorado River Indian 
Tribes in the hearing testified on the challenges they face with their 
irrigation projects. We heard about routine project maintenance that 
often goes unfinished, irrigation projects that can't meet safety code 
and about the need to complete the construction of these irrigation 
projects to utilize undeveloped land for farming. I understand this is 
a complex issue, but have you developed or are you currently working on 
a plan to address the Operations and Maintenance (O&M) needs of the 
country's Indian irrigation projects?
    Answer. Irrigation projects like the ones mentioned in your 
question can be critical to Tribal economic development. If confirmed, 
I am committed to working on the O&M needs of the Indian irrigation 
projects managed by the Department, in addition to addressing other 
high priority infrastructure needs of Tribal communities.

    Question 6. If not, will you commit to working with Tribes with 
Irrigation projects to develop a plan that is responsive to the 
challenges they face?
    Answer. The President has committed to addressing priority 
infrastructure needs of Tribal Nations. If confirmed, I will work with 
Tribes with irrigation projects managed by the Department to develop a 
plan responsive to the challenges they face.

    Question 7. Would you be willing to enter into consultation with 
the Navajo Nation and the Navajo Agricultural Products Industry to come 
up with a plan and timeline to complete the construction of the Navajo 
Indian Irrigation Project?
    Answer. When Tribes are impacted by federal decision-making, it is 
important that we engage them early on in regular, meaningful and 
robust consultation. If confirmed, I look forward to being briefed on 
this project, the role of the Department of the Interior, and working 
to find solutions within the budget and authorities of the Department.

    Question 8. Have you developed or are you currently working on a 
plan to address the Operations and Maintenance (O&M) needs of the 
Indian irrigation projects?
    Answer. If confirmed, I am committed to working on the O&M needs of 
the Indian irrigation projects managed by the Department, in addition 
to addressing other high priority infrastructure needs of Tribal 
communities. I look forward to being briefed on Indian irrigation 
projects, the role of the Department of the Interior, and working to 
find solutions within the budget and authorities of the Department.

    Question 9. The GAO in 2014 estimated that the backlog of deferred 
maintenance on Indian irrigation projects exceeded $500 million. Have 
you developed or are you currently working on a plan to address the 
deferred maintenance needs of the Indian irrigation projects?
    Answer. As I noted in the previous response, if confirmed, I am 
committed to working on the deferred maintenance needs of the Indian 
irrigation projects managed by the Department. I look forward to being 
briefed on Indian irrigation projects, the role of the Department of 
the Interior, and working to find solutions within the budget and 
authorities of the Department.

    Question 10. If not, will you commit to working with Tribes with 
Irrigation projects to develop a plan that is responsive to the 
challenges they face?
    Answer. If confirmed, I am committed to working with Tribes on the 
deferred maintenance needs of the Indian irrigation projects managed by 
the Department. I look forward to being briefed on Indian irrigation 
projects, the role of the Department of the Interior, and working to 
find solutions within the budget and authorities of the Department.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. James Lankford to 
                        Hon. Bryan Todd Newland
    Question 1. Do you believe that the McGirt decision, plus the 
subsequent decisions that have expanded it to apply to the ``Five 
Tribes'' in Oklahoma, changes the Department of Interior's authorities 
and responsibilities within the state of Oklahoma and on those 
reservations? If so, how?
    Answer. As I stated in my confirmation hearing, it's important to 
take those questions as they come in terms of the consequences of the 
McGirt decision because questions of reservation boundaries and 
jurisdiction are so fact-specific, even within the same reservation. 
They depend on the actors, proposed course of action, and the land 
tenure involved. I don't want to prejudge questions that may arise by 
pronouncing consequences for McGirt that don't exist yet or that 
haven't come before us. If confirmed, I will work with the Solicitor of 
the Department of the Interior, affected Tribes, the state of Oklahoma, 
and non-Tribal communities and try to find answers on questions as they 
come. I understand the importance of this decision for Oklahoma, 
Tribes, and non-Tribal communities and I believe that communication and 
cooperation will be the best ways to move forward.

    Question 2. In areas where the Department determines that the State 
of Oklahoma has lost or has had altered its authority on the 
reservation, how will you work with the tribes and state to ensure a 
seamless transfer of authority?
    Answer. I understand that this is an important issue for you and 
the State of Oklahoma. If confirmed, I would engage in meaningful and 
robust consultation with Tribes and will support efforts to work with 
all parties on how to move forward. I understand the importance of this 
decision for Oklahoma, Tribes, and non-Tribal communities and I believe 
that communication and cooperation will be the best ways to move 
forward.

    Question 3. Do you believe that that the McGirt decision as 
announced by the Supreme Court applies to criminal and civil 
jurisdiction on the reservation? If so, do you feel like the Department 
of Interior has the authority to make the determination that it applies 
to both or is an additional court determination needed?
    Answer. The Supreme Court's decision in McGirt was an 
interpretation of a single treaty for a single tribe on the matter of 
criminal prosecutions, but when you confirm the existence of 
reservation boundaries, that leads to a host of other questions and I 
know that's been a particular topic of interest for tribes, the State, 
and communities in Oklahoma. It is my understanding that the 
Solicitor's Office of the Department believes that the Court's ruling 
also affects civil jurisdiction in some circumstance, but the 
Department must respond to questions arising from the McGirt decision 
as they arise. I would consult with the Department's Solicitor's Office 
on matters such as this.

    Question 4. Is the Department willing to cooperate with the tribes 
to assist in building necessary infrastructure as they exercise the 
authorities and rights that come with having a reservation? Including 
identifying available federal resources that can be utilized by the 
tribes during this transition.
    Answer. Yes. If confirmed, I will work with Tribes to ensure they 
are aware of federal resources and opportunities related to any 
expanded jurisdiction they might have.

    Question 5. Citing the McGirt v. Oklahoma decision, DOI's Office of 
Surface Mining Reclamation and Enforcement (OSMRE) recently notified 
the state of Oklahoma that it no longer has regulatory jurisdiction 
over mines on Indian Lands in the state. OSMRE cites the definition of 
``Indian Lands'' under the Surface Mining Control and Reclamation Act 
of 1977. However, it's my understanding McGirt only applied to criminal 
jurisdiction. Will you commit to working with your colleagues to give 
my office the pre-decisional documentation on how the solicitor's 
office arrived at the decision? Will you also commit to providing the 
pre-decisional documentation for future decisions regarding application 
of civil authority from McGirt?
    Answer. If confirmed, I commit to consulting with the Department's 
Solicitor's Office to determine what information is appropriate to 
provide and make good faith efforts to provide your office with 
information to help understand the Department's conclusion.

    Question 6. Do you support legislation in response to the 2009 
Supreme Court decision Carcieri v. Salazar? If so, what would be your 
policy preference for that legislation?
    Answer. President Biden has made it clear that he supports a clean 
Carcieri fix to ensure that the Secretary may place land into trust for 
all tribes, and I support it, too. If confirmed, I will work with 
Secretary Haaland, the Department, and Congress on these issues related 
to the Carcieri decision.

    Question 7. Do you intend or expect to make any changes to the 
Department's rules concerning the Indian Child Welfare Act? If so, what 
changes would you make?
    Answer. President Biden supports the Indian Child Welfare Act. The 
recent Fifth Circuit decision is a complicated one that found parts of 
the law unconstitutional but generally upheld the law. That decision is 
being reviewed by the Office of the Solicitor General, Department of 
Justice, and our Solicitor's Office. Once that review is finished, we 
will determine what steps may need to be taken. If confirmed, I will 
work to support the best interests of children and Tribes, consistent 
with the law.

    Question 8. If confirmed, will you commit to publishing a map 
showing generally (and without divulging confidential information or 
specific addresses) where and how much land is held in trust throughout 
the country?
    Answer. If confirmed, I look forward to working with appropriate 
personnel in the Department to evaluate the appropriate options for 
this information and make a good faith effort to consider this 
question.

    Question 9. Do you support off-reservation tribal gaming?
    Answer. I support Tribal economic development, including gaming, as 
may be provided under the law. If confirmed, I look forward to working 
with the Department through its established legal process while 
reviewing off-reservation gaming requests.

    Question 10. Should land-into-trust applications be approved 
automatically?
    Answer. Placing land into trust for the benefit of Tribes and 
individual Indians is an important responsibility. If confirmed, I look 
forward to working with the Bureau of Indian Affairs and the 
Solicitor's Office on fulfilling this responsibility, according to the 
law.
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                        Hon. Bryan Todd Newland
    In 2015, the U.S. Department of the Interior finalized revisions to 
the criteria for federal recognition of Indian Tribes which prohibited 
previously denied Tribes from re-petitioning under the new criteria. 
The final regulations were the result of significant input from the 
Connecticut delegation and Connecticut state and local officials. In 
2020, two US District Court decisions found the re-petitioning ban to 
be unconstitutional. The Department of the Interior has not addressed 
the impact of these decisions. How the Department resolves this issue 
is of significant concern to Connecticut residents who may be 
substantially impacted by any change in the regulations.

    Question 1. Will you consult with the Connecticut Congressional 
delegation, state and local officials about any change in the rule 
banning Tribes that have been denied federal recognition from re-
petitioning under the new criteria to respond to the U.S. District 
Courts' decisions striking down such ban and agree to address our 
concerns?
    Answer. I know this is an issue that is important to you. If 
confirmed, I will engage with states and local governments, tribes, 
Congress, and other interested stakeholders before promulgating any 
change.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Lisa Murkowski to 
                        Hon. Bryan Todd Newland
Alaska's Unique Legal Structure
    Question 1. What are your views on the Government's position, as 
briefed and argued by the Solicitor General of the United States, in 
the case Yellen v. Confederated Tribes of the Chehalis Reservation, 
Nos. 20-543 and 20-544, that the Indian Self Determination and 
Education Assistance Act's (ISDEAA) recognition clause (``recognized as 
eligible for the special programs and services provided by the United 
States to Indians because of their status as Indians'') within the 
definition of ``Indian tribe'' can be reasonably read to refer not only 
to sovereign Indian Nations, but also, given the explicit reference to 
Alaska Native Corporations (ANCs) in that definition, to the distinct 
statutory status that Congress has conferred on ANCs. (See Gov't Br. 
47-48; Gov't Reply Br. 19-20.)? Please explain.
    Answer. As I am currently at the Department, and the Department 
does not comment on active litigation, I am unable to provide a 
personal comment on the Government's position. I understand the 
Government's position and respect the legal process that is going 
forward.

    Question 2. Will you support and defend the Government's position, 
in the case Yellen v. Confederated Tribes of the Chehalis Reservation, 
Nos. 20-543 and 20-544, if confirmed?
    Answer. As I am currently at the Department, and the Department 
does not comment on active litigation, I am unable to provide comment. 
I understand the Government's position and respect the legal process 
that is going forward. That litigation is being led by the Department 
of Justice, and when there is a decision, I will respect and follow it.

    Question 3. At the hearing on your nomination you told me that you 
were working to educate yourself on the unique structure of Indian Law 
in Alaska and the ways other laws interact with specific Alaska 
statutes like Alaska Native Claims Settlement Act (ANCSA) and Alaska 
National Interest Lands Conservation Act (ANILCA). What have you 
learned about how ISDEAA and ANCSA interact? Please explain.
    Answer. The depth and breadth of Indian Law in Alaska, much like 
the State itself, is vast. While I have had some introduction to it, if 
I am confirmed, I commit to my ongoing education on these issues 
throughout my tenure. I understand that ANCSA was passed in 1971 to 
settle Native land claims in Alaska and led to the establishment of 
Alaska Native Corporations (ANCs). Congress passed ISDEAA subsequently 
in 1975, in order to empower Tribes to operate their own services 
provided for by the federal trust responsibility including housing, 
education, transportation, public safety, and healthcare, and included 
ANCs as part of ISDEAA. In Alaska, some ANCs provide essential services 
for Alaska Natives using ISDEAA authorities.

    Question 4. Are you now aware of how important it is that ANCs are 
included in the ISDEAA definition of ``Indian tribe,'' which is 
referenced in hundreds of other statutes, with the specific intent of 
explicitly including ANCs?
    Answer. I understand the importance of ANCs in ISDEAA. I know that 
Alaska is a very unique situation for Native People, with the Alaska 
Native Corporation structure put in place by ANCSA, when compared to 
the lower 48 states. I also understand that ANCs provide educational 
services, health services, and social services to Alaska Native people. 
Additionally, I know that ANCs are not like other corporations. They 
are distinguished by their manner of creation, ownership, governance, 
roles, connection to place, and values. If confirmed, I commit to 
working to ensure that the Alaska Native people get the services that 
they need, whether through Alaska Native Corporations, tribal 
governments, or any other organizations.

    Question 5. Are you now aware of how important it is that ANCs 
serve as the recognized governing body of an ``Indian tribe'' under 
ISDEAA and Department of the Interior guidelines, even if only in 
limited circumstances?
    Answer. I am aware of the importance of ANCs to delivering services 
such as those provided for under ISDEAA. As I said in the response to 
the previous question, I know that Alaska is a very unique situation 
for Alaska Natives and that the Alaska Native Corporations play a very 
important role in their lives and for their health, safety, and well-
being. If confirmed, I commit to learning more about issues such as 
this. I will always work to ensure that Alaska Native people get the 
services that they need, whether through the Alaska Native Corporations 
or any other organizations.

    Question 6. The Department of the Interior offers ANCSA and ANILCA 
trainings for its employees who will have to navigate the application 
of these laws in their work. Will you commit to taking yourself, and 
mandating for others in your office, ANCSA and ANILCA trainings, if you 
are confirmed?
    Answer. Yes, if confirmed, I commit to taking the Department's 
ANCSA and ANILCA trainings and ensure those who have to work with these 
laws view it as required training.

    Question 7. At the hearing on your nomination, you told me that you 
share my assessment that there is a lot of education that needs to be 
done on the unique structure of Indian law in Alaska. What actions will 
you take as Assistant Secretary to ensure that education takes place 
across the government, and Indian country, if you are confirmed?
    Answer. As I noted in a previous response, I would learn more about 
these issues myself. In addition to the benefit of your experience, I 
would commit to taking the Department's ANCSA and ANILCA trainings and 
I would ensure those who have to work with these laws in my office view 
it as required training.

    Question 8. In an article from April 2020, titled, ``Indian Tribes 
object to allowing federal bailout money to go to Alaskan Native 
Corporations.'' You are quoted as saying, COVID-19 funds should not go 
to ``stabilize or improve the returns for shareholders in for profit 
corporations at the expense of tribal governments that desperately need 
money to protect their citizens..'' You further stated, giving Alaskan 
Native Corporations a share of the $8 billion ``would not be equitable 
it would be galling.'' (Dermotcole.com.) Is this still your opinion? 
Why or why not?
    Answer. When the pandemic struck that became an important life or 
death focus of mine for my community as the Tribal President. I 
recognize that the role of a Tribal President is much different than 
the role of the Assistant Secretary-Indian Affairs. I know that Alaska 
Native Corporations are not like other corporations, and that they 
provide important services to Alaska Native people. If I am confirmed, 
I will be serving all federally recognized Indian Tribes, Alaska Native 
villages, ANCs, and answerable to individual Indians and Alaska 
Natives.

    Question 9. In an opinion piece you authored from July 2020, titled 
``Congress should make sure pandemic relief legislation works for 
Indian Country,'' that was published on Indianz.com, you state that new 
legislation should ``clarify'' that the Coronavirus Relief Fund is 
intended for use by the 574 recognized tribal governments, rather than 
for profit corporations referring to ANCs. Is this still your opinion? 
Why or why not?
    Answer. As I noted in the response to the previous question, in 
2017 my Tribe elected me to serve as Tribal President and we set about 
to make Bay Mills a better place to live. When the pandemic struck that 
became an important life or death focus of mine for my community as the 
Tribal President. I recognize that the role of a Tribal President is 
much different than the role of the Assistant Secretary-Indian Affairs. 
If I am confirmed, I will be serving all federally recognized Indian 
Tribes, Alaska Native villages, ANCs, and answerable to individual 
Indians and Alaska Natives.
    As discussed in previous questions, this topic is a matter of 
litigation, and as a current official at the Department I am not able 
to comment on it directly. As a member of the Department, I respect the 
administration's position and I am not advocating for any legislation 
outside of President Biden's legislative priorities.

    Question 10. How will you lower the temperature related to tribes 
and ANCs, given that you, yourself, have made comments critical of ANCs 
in the context of the CARES Act Tribal set-aside implementation, if 
confirmed?
    Answer. Communication and transparency are important functions for 
building trust, and I would ensure that I am carrying out my duties in 
a transparent and open way, if I am confirmed. I will ensure that 
federally recognized Indian Tribes, ANCs, Tribal consortia, and 
individual Indians know that I am working hard to serve them all. 
During disagreements, rhetoric can become overheated but I will work 
every day to communicate with civility and respect and encourage others 
to do the same.

    Question 11. How would you set the tone as an ambassador and 
advocate for all of Indian country and Native peoples, if confirmed?
    Answer. If I am confirmed as Assistant Secretary--Indian Affairs, I 
will be serving all federally recognized Indian Tribes, ANCs, 
individual Indians. I would look forward to engaging in meaningful 
tribal and ANC consultation, so all have a voice on matters that 
directly impact them. I would endeavor to be a clear, strong leader on 
Tribal priorities broadly within the government and with external 
stakeholders and strive to communicate with the civility and respect 
that my parents taught me.
Consultation
    Question 12. What are your views on consultation with Alaska Native 
Corporations? Please explain.
    Answer. When Tribes, Native organizations, and ANCs, are impacted 
by federal decisionmaking, it is important that we engage them early on 
in meaningful consultation. So yes, they should have a voice on matters 
that directly impact them and their lands. The Department's Manual 
requires this consultation with ANCs in these situations and I believe 
that is an important obligation.

    Question 13. Do I have your commitment, if confirmed, to conduct 
meaningful and consistent consultation with the Tribes and Native 
organizations in Alaska including ANCs, and to involve them 
appropriately in decisionmaking relevant to them?
    Answer. Yes. When Tribes and Native organizations, including ANCs, 
are impacted by federal decisionmaking, it is important that we engage 
them early on in meaningful and robust consultation. So yes, they 
should have a voice on matters that directly impact them.

    Question 14. If confirmed, how will you encourage collaboration 
between the Department, your office and other agencies across 
government, including the Department of Justice, in particular, to 
address the problems and concerns of Native people?
    Answer. Yes. The President has made it clear all of our work, 
including in Indian Affairs, has to be an all-of government approach. I 
look forward to working through the White House Council on Native 
American Affairs to make sure that we are playing a meaningful and 
positive role in addressing these challenges across Indian country.

    Question 15. What role do you have in the development of the 
Interior Department's plan of actions to implement the President's 
directives on consultation with Indian Tribes? Have those plans been 
submitted and approved?
    Answer. Under our Department Manual (DM), as Principal Deputy 
Assistant Secretary--Indian Affairs (PDAS-IA), I was appointed as a 
Tribal Governance Officer (TGO) to oversee consultation efforts. The DM 
incorporates statutory language that requires Interior to consult with 
Alaska Native Claims Settlement Act (ANCSA) corporations in the same 
manner as Tribes. In late April, Interior submitted its detailed plan 
for improving consultation to OMB, as required by the January 26, 2021 
Presidential Memorandum.

    Question 16. Do I have your commitment to meet and work with the 
people of King Cove, Alaska to understand their decades long quest for 
a life-saving road, if confirmed?
    Answer. Yes, I will meet with the people of King Cove and work to 
understand their views. All our people should have access to adequate 
medical services and that this can be a very serious matter for those 
living in remote areas and under difficult conditions. I am hopeful 
that a solution that works for all can be achieved, and I am committed 
to working toward making that happen, if confirmed.
Land into Trust in Alaska
    Question 17. What tribal consultation, including with Alaska Native 
Corporations, has occurred in Alaska since M-37064 was rescinded?
    Answer. The Department has conducted 27 tribal consultations on 
various issues since M-37064 was rescinded on January 19, 2021.

    Question 18. What is your involvement specifically in these 
consultations?
    Answer. I participate as needed in many consultations and review 
all input collected from consultations under the purview of Indian 
Affairs.

    Question 19. How will the Interior Department ensure the protection 
of regional native corporations' valid, existing rights to develop that 
subsurface estate if there is an effort to take the surface lands into 
trust? How will these subsurface rights be administered?
    Answer. If confirmed I will follow the law. The Department must 
respect existing legal rights in any administrative process that it 
conducts. If confirmed, I would be happy to work with the Committee to 
provide further information on the question of administration.

    Question 20. What are your views on the development and 
implementation of Alaska-specific land-into-trust regulations, rather 
than simply using the Part 151 regulations for off-reservation 
requests?
    Answer. The Bureau of Indian Affairs will schedule virtual 
consultation sessions with Tribal Nations and ANCs to engage in 
regular, meaningful and robust consultation on the Secretary's land 
into trust authority in Alaska. This consultation will inform the 
Department's actions regarding this issue, and I do not want to 
prejudge this process.

    Question 21. Please describe what subsistence means to you. What 
role do you expect to have in subsistence management in Alaska, if you 
are confirmed?
    Answer. Subsistence rights are important to me as someone who grew 
up in a Native community and understands what they mean for feeding 
people in Indian Country. Alaska presents unique issues around the 
Alaska National Interest Lands Conservation Act (ANILCA) 
``subsistence'' priority for rural Alaska residents upon which many 
Native communities depend. The Department looks forward to working with 
the Alaska Native community respecting the protections for hunting, 
fishing, and gathering rights.
Public Safety and Tribal Justice
    Question 22. How will you use your experience as Chief Judge to 
further improve the tribal court systems in Alaska and across all of 
Indian Country, if confirmed?
    Answer. As I stated in my testimony to the Committee, my experience 
as a Tribal judge instilled in me the importance of applying the law in 
a fair and impartial manner regardless of the parties. I also 
understood that many of the cases that came before the court would 
benefit from mental health, substance abuse, and other counseling 
services that would improve lives and families, and that's why I worked 
to help secure federal resources to create the Bay Mills Healing to 
Wellness Court. I know that Tribal courts benefit from support for 
their resources and technical expertise, especially in rural and 
isolated places in Indian Country and Alaska, and if confirmed I would 
work with Tribes to identify and implement support for their self-
governance and sovereignty when it comes to Tribal court systems.

    Question 23. How do we navigate the roadblocks, including those 
that may be internal to the BIA, to support public safety and justice 
in Alaska, especially when we know self-determination is so critical to 
adequate responses at the tribal level?
    Answer. If confirmed, I will prioritize supporting public safety 
and justice efforts throughout the United States, including Alaska. As 
I stated at my confirmation hearing, I believe the Department should be 
a collaborative trustee, not an impediment, so I would work to address 
roadblocks to support for public safety where they exist.

    Question 24. Do I have your commitment to work with us here at the 
Indian Affairs Committee to develop a tribal title to improve and 
expand on the authorities granted in the existing VAWA to address 
violence against native women and children, if confirmed?
    Answer. Yes. President Biden and Secretary Haaland are committed to 
renewing and strengthening VAWA, including for Native women and 
children and I look forward to playing an active role in that 
legislative process with other members of the Administration when it 
comes to Tribal provisions with Congress, if confirmed.

    Question 25. The Office of Justice Service has been under the 
Bureau of Indian Affairs Directorate for many years and has lost the 
visibility to be effective due to bureaucracy. Are you willing to 
consider moving the Office of Justice Service under your office, Office 
of the Assistant Secretary for Indian Affairs, and away from BIA, if 
confirmed?
    Answer. If confirmed, I will work to ensure that the Indian Affairs 
bureaus are organized in a manner to ensure they are able to meet the 
needs of Indian country. In addition, I would commit to meaningful and 
robust Tribal consultation prior to any efforts to significantly 
reorganize the structure of the Indian Affairs bureaus.

    Question 26. Staffing BIA police and detention officers has to be a 
top priority for your division. Do you support increasing law 
enforcement personnel to the field? If so, what regions would you staff 
up first, if confirmed?
    Answer. If confirmed, ensuring adequate BIA staffing would be a 
high priority of mine and I would commit to the efficient and effective 
recruitment of qualified people. I would also prioritize listening to 
BIA's Office of Justice Services to identify, procure and provide the 
tool and resources they need where they need them. I want to work to 
understand the root cause of law enforcement staffing shortages in 
different regions and work to systematically address them to meet the 
public safety needs of tribal communities.

    Question 27. Will you commit to keeping the BIA drug enforcement 
officer in Alaska, if confirmed?
    Answer. There are no plans to eliminate that position, and I will 
work to ensure that we have law enforcement resources where they are 
needed, including Alaska.

    Question 28. A recent news article, ``Indian Affairs Promised to 
Reform Tribal Jails. We found Death, Neglect and Disrepair'' from 
NPR.org found a pattern of neglect, disrepair and mismanagement at 
jails overseen by the Bureau of Indian Affairs. What steps will you 
immediately implement to ensure that future deaths and disrepair will 
not be tolerated? Please explain.
    Answer. I am aware of and upset about the disturbing issues that 
were recounted in this article. I am committed to tackling the long-
standing problems of staffing and facilities and operations that have 
contributed to these tragedies. Secretary Haaland believes these deaths 
are unacceptable. So do I. If confirmed, I look forward to working with 
this Committee to do all we can to improve this situation.

    Question 29. What is your position on using BIA funding for tribal 
courts in P.L. 280 states?
    Answer. With regard to the President's rescue plan that Congress 
enacted, the Department worked with leaders across Alaska Native 
communities to make sure that law enforcement funding that came through 
the Department acknowledged the unique challenges that tribes in Public 
Law 280 states face. We made sure that they were not excluded from 
public safety funding under the rescue plan. This is an important 
issue, and if confirmed, I look forward to working on it.
Fee to Trust Indian Country
    Question 30. How does the Supreme Court decision in Carcieri affect 
tribal and non-tribal communities?
    Answer. The Court's opinion in Carcieri created confusion about the 
application of the Indian Reorganization Act to a number of tribes and 
has made the land-into-trust process more time consuming and expensive.

    Question 31. Describe your previous experience involving work 
related to the Carcieri decision.
    Answer. I was not involved in the Carcieri litigation but have 
helped implement the Department's land-into-trust policies during my 
previous work at the Department. In private law practice, I provided 
legal counsel regarding the applicability of the Carcieri decision to 
tribal clients.

    Question 32. On your committee questionnaire, you said a ``Carcieri 
fix'' should be a priority for legislative action. If confirmed, what 
steps will you take to help advance such a fix in Congress? If a 
legislative fix is not possible, do you support Tribes to individually 
seek land into trust through Congressional action instead of 
administratively?
    Answer. President Biden has called for clean Carcieri fix 
legislation and I believe that is one of the top priorities for 
legislation relating to the position for which I have been nominated. I 
would work with Congress to support its legislative efforts, including 
this Committee on a bipartisan basis, such as providing testimony, 
technical assistance, and other support as necessary while respecting 
that Congress is the legislative branch of our government. While a 
legislative fix is still in the legislative process, I would also work 
with Congress on any individual land into trust legislative issues as 
they may arise.

    Question 33. On land into trust applications, are you considering 
changing how input received from local and state stakeholders is 
factored into or considered in the decisionmaking on whether such lands 
should be taken into trust?
    Answer. Upon receipt of a completed application to have lands taken 
into trust, the Secretary will notify the state and local governments 
having regulatory jurisdiction over the land to be acquired, unless the 
acquisition is mandated by legislation. The notice will inform the 
state or local government that each will be given 30 days in which to 
provide written comments as to the acquisition's potential impacts on 
regulatory jurisdiction, real property taxes and special assessments. 
If the state or local government responds within a 30-day period, a 
copy of the comments will be provided to the applicant, who will be 
given a reasonable time in which to reply and/or request that the 
Secretary issue a decision.

    Question 34. Are you considering reforming or streamlining the land 
into trust applications for on-reservation and off-reservation 
acquisitions?
    Answer. I look forward to hearing from Tribes about their 
experience with the land into trust process. In addition, Solicitor's 
Opinion M-37069 recommends the Bureau of Indian Affairs schedule 
consultation sessions with Tribal Nations to engage in regular, 
meaningful and robust consultation on the Secretary's land into trust 
authority in Alaska.

    Question 35. How can the BIA work better with Tribes on their land 
into trust applications to avoid long backlogs? Are you considering 
sunsets for land into trust applications that are pending for too long?
    Answer. There is established law, processes, and procedures to 
evaluate land into trust applications. The Department's Fee-to-Trust 
Handbook has identified timeframes for processing applications. If 
confirmed, I intend to follow the law and efficiently and effectively 
implement the Department's processes and procedures for these 
transactions.

    Question 36. How can the Interior Department be more supportive of 
Tribes when undertaking the costly process of applying to take land 
into trust?
    Answer. The Department provides technical assistance as requested 
during the evaluation period of a fee-to-trust application. I believe 
this is an important function for requesting Tribes and I would 
continue to do that.

    Question 37. Under Carcieri, what are your views on whether and how 
an Indian tribe can show it was ``under federal jurisdiction'' in 1934, 
if it was not ``federally recognized'' before 1934?
    Answer. Solicitor's Opinion M-37070, Withdrawal of Certain 
Solicitor M-Opinions, Reinstatement of Sol. Op. M-37029 The Meaning of 
`Under Federal Jurisdiction' for Purposes of the Indian Reorganization 
Act, and Announcement Regarding Consultation on ``Under Federal 
Jurisdiction'' Determinations, is binding on all Departmental 
employees. Sol. Op. M-37070 reinstates Sol. Op. M-37029, The Meaning of 
`Under Federal Jurisdiction' for Purposes of the Indian Reorganization 
Act, which established criteria for determining when a tribe could be 
considered ``under federal jurisdiction'' under Section 19 of the 
Indian Reorganization Act of 1934.

    Question 38. In your opinion, do the federally recognized Alaskan 
tribes fall ``under the federal jurisdiction'' criteria in the 1934 
Indian Reorganization Act and therefore are not subject to further 
Carcieri analysis?
    Answer. The Department relies on the Office of the Solicitor to 
prepare an analysis of whether the Tribal applicant was under Federal 
jurisdiction in 1934 for inclusion in the decision, if applicable. An 
opinion whether a tribal applicant was under Federal jurisdiction in 
1934 (a ``Carcieri opinion'') is only required for applications 
submitted pursuant to 25 U.S.C.  5108 and that rely on the first 
definition of ``Indian.'' Where the Solicitor's Office has already 
prepared an analysis of whether the Tribal applicant was under Federal 
jurisdiction in 1934, BIA may rely on that analysis.

    Question 39. In your own analysis, how are lands to be taken into 
trust for an Indian Tribe in Alaska different from other Indian Tribes 
lands taken into trust in the lower 48 states? And, what federal laws 
may be applied in these circumstances?
    Answer. Solicitor's Opinion M-37069 recommends the Bureau of Indian 
Affairs schedule virtual consultation sessions with Tribal Nations to 
engage in regular, meaningful and robust consultation on the 
Secretary's land into trust authority in Alaska. At the present time, 
there is only one set of regulations found at 25 C.F.R.  151 that 
pertain to discretionary land-into-trust acquisitions.
30x30 America the Beautiful Plan
    Question 40. What is the vision for tribal land conservation under 
this new 30x30 America the Beautiful Plan?
    Answer. The vision for Tribal conservation in the America the 
Beautiful Plan is articulated in the preliminary report as one of the 
eight principles for a locally led effort to conserve and restore 
America the Beautiful. That report states:
    Tribal Nations have sovereign authority over their lands and 
waters, possess long-standing treaty hunting and fishing rights on and 
off reservations, and have many cultural, natural, and sacred sites on 
national public lands and the ocean. Efforts to conserve and restore 
America's lands and waters must involve regular, meaningful, and robust 
consultation with Tribal Nations. These efforts must respect and honor 
Tribal sovereignty, treaty and subsistence rights, and freedom of 
religious practices. Federal agencies should seek to support and help 
advance the priorities of American Indian, Alaska Native, Native 
Hawaiian, and Indigenous leaders, including those related to 
sustainable land management and the conservation of natural, cultural, 
and historical resources.

    Question 41. Is there a timeframe and how much land do you hope to 
conserve for Indian country under the 30x30 America the Beautiful Plan?
    Answer. The administration released its America the Beautiful 
report which includes its specific recommendations for achieving the 30 
percent conservation goal by 2030. I look forward to the America the 
Beautiful initiative providing opportunities for Tribes to pursue 
conservation on a voluntary basis, consistent with the principles of 
Tribal sovereignty over their trust land. The report did not include 
any specific targets for conservation on Tribal land.

    Question 42. How do you view ``land into trust'' coming into play, 
if at all, in this plan?
    Answer. I believe that Tribal Nations and Native communities do 
significant amounts of conservation work, including drawing from 
traditional Tribal knowledge about managing resources. I look forward 
to the America the Beautiful initiative providing opportunities for 
Tribes to pursue conservation on a voluntary basis, consistent with the 
principles of Tribal sovereignty over their trust land. Any 
conservation actions taken on land taken into trust would be a decision 
by a Tribe consistent with the principles of Tribal sovereignty.
Energy Development
    Question 43. What role do you see your office and the Department of 
Interior, more generally, playing in facilitating energy development in 
Indian Country and in Alaska?
    Answer. The mission of the Division of Energy and Mineral 
Development (DEMD) is to provide the best possible technical and 
economic advice and services in assisting Indian mineral owners to 
achieve economic self-sufficiency by creating sustainable economies 
through the environmentally sound development of their energy and 
mineral resources. DEMD works with Tribes on all aspects of energy 
development to grow their economies. DEMD has an expert team of 
geologists, engineers, marketing experts, and other key personnel, our 
staff facilitates all aspects of energy development for Tribes. DEMD is 
committed to finding the best companies that fit with Tribal goals.

    Question 44. Since the passage of the Indian Energy and Self 
Determination Act of 2005 and 2017, there has been zero tribes that 
have completed a Tribal Energy Resource Agreements (TERAs) will you 
commit to ensuring that these agreements can be approved, if confirmed?
    Answer. If confirmed I commit to learning more about why Tribes 
have not entered into TERAs with the Department and working with Tribes 
further on this topic.

    Question 45. The Office of Indian Economic Development oversees the 
Division of Energy and Mineral Development for tribes. Do you commit to 
staffing this office appropriately to meet the demand of tribes?
    Answer. If confirmed I would seek to ensure appropriate staffing 
for this office, working within our budget limits and balancing 
staffing needs to meet the needs of Tribal programs throughout the 
areas under my authority.

    Question 46. Indian Energy is a vital for economic development for 
Tribes. You testified that you support all forms of energy development. 
Specifically, do you commit to supporting the following forms of 
energy? Please answer Yes or No for each of the following: Oil and Gas, 
Renewables, Electricity Production, Coal, Minerals and nuclear power.
    Answer. As I stated at my hearing, I support Tribal sovereignty and 
self-determination when it comes to developing their natural resources, 
and that extends to all types of energy resources including the ones 
listed in your question.
    I am also committed to supporting President Biden's administration 
whole of government approach to combatting the threat of climate change 
and providing for an equitable clean energy future for all Native 
communities. It is my understanding that the Biden administration's 
approach includes a wide variety of options and solutions, including 
Carbon Capture, Utilization and Storage and nuclear energy, along with 
renewable energy and other technologies.
Previous Employment
    Question 47. Can you explain your relationship with the Fletcher 
Law? Are you still being compensated from previous legal work?
    Answer. I have severed my relationship with Fletcher Law, PLLC and 
am not still being compensated from previous legal work.

    Question 48. Do you commit to recuse yourself from matters 
involving clients you represented while employed at Fletcher Law, if 
confirmed?
    Answer. I am committed to following the high ethical standards 
required by the Administration and the Department. I have provided the 
Committee with my ethics agreement, which was been developed by the 
Department's career ethics officials and covers my recusal 
requirements.
Gaming
    Question 49. The Indian Gaming Regulatory Act provides statutory 
authority for how land is taken into trust for Indian gaming after 
1988. Federal Courts and the Department have developed a common law and 
regulatory framework for applying the Indian Gaming Regulatory Act's 
land to trust exceptions. Consistency and transparency in the 
application of this legal and regulatory framework is key to ensuring 
the success of the nearly $35 billion tribal gaming industry. Can you 
commit that any decision coming before you, or previous decisions 
adjudicated by the Department, regarding land into trust for gaming 
will continue to follow the legal and regulatory framework outlined by 
Congress, the Department, and Federal Courts, and not be subject to 
Agency overreach?
    Answer. As you note, there are established common law and 
regulatory frameworks for land into trust gaming applications. If 
confirmed, I intend to follow the law and impartially implement the 
Department's established processes and procedures for these decisions.

    Question 50. The last administration had a ``communicability'' 
distance standard for any on off reservation land into trust request. 
Do you believe a ``communicability'' standard should continue to apply? 
What standards will you consider for any off reservation land into 
trust requests? Please explain.
    Answer. The Department of the Interior adopted regulations in 2008 
governing how to evaluate applications to place land into trust for 
gaming. If confirmed, I would apply those regulations to tribal 
applications in a manner consistent with existing law.

    Question 51. As President of the Bay Mills Indian Community, you 
negotiated and entered into various agreements with the State of 
Michigan, including a recent Class III gaming agreement for the Tribe 
to offer mobile sports wagering within the State. If confirmed, you 
will be authorized to approve or disapprove Class III compacts and 
their amendments pursuant to the Indian Gaming Regulatory Act (IGRA). 
Please explain your understanding of how mobile sports wagering, 
conducted pursuant to a class III compact, is applied to wagers placed 
off of tribal lands.
    Answer. Mobile gaming is a new technology that presents 
opportunities and challenges for Tribes. It also presents a number of 
questions about the application of IGRA. If confirmed, I would work 
closely with the Department's Office of the Solicitor, the National 
Indian Gaming Commission, and the Department of Justice to understand 
how IGRA and other federal laws apply to tribally-operated mobile 
gaming enterprises.

    Question 52. The IGRA allows for gaming to occur on Indian Lands. 
At least one gaming compact allows for sports betting to be made 
anywhere in the state as long as the server is located on Indian Lands. 
Do you agree with this position that a server housed on Indian Lands is 
sufficient under IGRA?
    Answer. As I indicated in my previous response, there are many 
questions regarding how existing laws apply to mobile and Internet 
sports betting. If confirmed, I would work closely with the 
Department's Office of the Solicitor, the National Indian Gaming 
Commission, and the Department of Justice to understand how IGRA and 
other federal laws apply in these circumstances.

    Question 53. Can a state-tribal gaming agreement seeking approval 
by the Department be approved if it is in violation of Federal Law? If 
so, please explain?
    Answer. The Indian Gaming Regulatory Act governs the Department's 
review of tribal-state gaming compacts, and states that the Department 
may disapprove such an agreement if it ``violates.any other provision 
of federal law that does not relate to jurisdiction over gaming on 
Indian lands.'' 25 U.S.C.  2710(d)(8).
Housing
    Question 54. If confirmed, please discuss how you plan to change 
the current title reporting process to expedite BIA clearance of title 
to lands held in trust.
    Answer. The Department is working to finalize updates to 
regulations governing title and land records at 25 C.F.R. Part 150. If 
confirmed, I will work to complete this effort.

    Question 55. The Department's Trust Asset and Accounting Management 
System (TAAMS) is archaic and needs improvement. What is your plan to 
update this system so tribes can expedite title searches for home 
ownership?
    Answer. The Trust Asset and Accounting Management System is a 
critical tool that helps the Department's leadership ensure that it is 
effectively carrying out its trust obligations to Indian landowners. If 
confirmed, I will work with appropriate staff within the Indian Affairs 
bureaus to ensure that TAAMS is modernized and works properly to 
facilitate our trust responsibilities.

    Question 56. Will you commit to work and coordinate with the 
Department of Housing and Urban Development, (HUD) Office of Native 
American Programs (ONAP) to assist with homeownership for tribes, if 
confirmed?
    Answer. Yes, as I stated at my hearing, meeting the trust and 
treaty responsibilities to Tribes is not just a duty within the 
Department of the Interior but for the entire Federal government. In 
order to best serve those interests and meet those responsibilities, 
interagency cooperation is essential, including in the case of Tribal 
housing with HUD's ONAP.

    Question 57. Will you commit to working with HUD, ONAP on setting 
metrics to increase on-reservation homeownership, if confirmed?
    Answer. If confirmed, I would be willing to work with HUD ONAP to 
improve opportunities for homeownership across Indian country.

    Question 58. What are your goals to increase tribal HEARTH Act 
implementation? Have you set any metrics? Please explain.
    Answer. Implementation of the HEARTH Act is driven by Tribes who 
are seeking to reclaim control over tribal land management decisions. I 
will work with the Bureau of Indian Affairs and the Office of the 
Solicitor to ensure that review of tribal HEARTH Act ordinances is 
responsive and timely.

    Question 59. At your nomination hearing before the Committee you 
testified that reforming the land leasing and title clearance process 
at the Department of the Interior would be a priority for you if 
confirmed to this position. Please discuss your understanding of any 
recent reforms by the Department with regard to expediting clearance of 
title and leasing on trust lands?
    Answer. The Department is currently working to finalize changes to 
the land and title standards regulations at 25 C.F.R. Part 150; and, if 
confirmed, I will work to ensure that this effort is completed. Within 
the past decade, the Department has made significant updates to its 
leasing and right of way regulations, which have modernized the 
process, empowered tribes to make land-use decisions, and expedited the 
Department's review of leases and rights of way.
Congressional Responsibility
    Question 60. Office morale at BIA is very important. The last 
administration had a zero tolerance policy regarding sexual harassment 
or any work place harassment. Will you commit to adhere to a zero 
tolerance sexual harassment policy?
    Answer. Yes. The Department takes sexual harassment very seriously 
and so do I. I agree that strong morale at BIA is important to ensuring 
we are doing the best job for Tribal Nations and I will work to foster 
a positive workplace environment in all aspects.

    Question 61. Testifying in Congress is part of being Senate 
Confirmed. Will you commit to testifying at the Senate Committee on 
Indian Affairs, if asked?
    Answer. Yes.

    Question 62. If confirmed, are you committed to providing the 
Committee with Congressionally mandated reports such as those required 
under the NATIVE Act, the 477 program, and others that may be due or 
are overdue for submittal?
    Answer. Yes, complying with Congressional direction for reports is 
an important duty for the Department and I would take these 
responsibilities seriously. In areas where the Department is behind on 
deadlines, I will work to understand the factors at work and improve 
performance.
477 Program
    Question 63. The 477 program has been very successful. In the 
legislation that established the 477 program, the Assistant Secretary 
of Indian Affairs is in charge of the 477 program implementation. Will 
you commit to leading 477 implementation and not delegate this to 
another Department or Division in the federal government?
    Answer. If confirmed, I will work to ensure that the 477 program is 
implemented effectively.

    Question 64. Will you commit to consult with all the 477 tribes on 
any new changes to the program, if confirmed?
    Answer. Yes, the Department has a duty to consult with Tribal 
Nations when making decisions that have a significant impact for them.
Federal Acknowledgement
    Question 65. In a July 12, 2012 hearing on the federal 
acknowledgment process before the Senate Committee on Indian Affairs, 
you testified that allowing previously denied petitioners to reapply 
under the administrative acknowledgment regulations was a concern that 
the Department considered in undertaking revisions to the 
acknowledgment regulations. The 2015 revisions to the acknowledgment 
regulations retained the long-standing prohibition on re-petitioning by 
previously denied petitioner groups, but that ban was recently vacated 
and remanded to the Department by two federal district courts. In 
response to those remands, the Department engaged in tribal 
consultation regarding the ban earlier this year. What is your position 
on allowing re-petitioning by previously denied petitioner groups? Did 
any recognized tribes express opposition to allowing re-petitioning? 
What process will the Department follow to complete the court remands?
    Answer. The Department is working to understand what is required by 
the recent district court decisions, and how they affect the 2015 
regulatory ban on re-petitioning. The Department will move forward in a 
way that complies with federal law and existing statutes. During the 
recent consultation process, no federally recognized tribes expressed 
support for allowing re-petition.

    Question 66. Do you support revising the acknowledgment regulations 
to reverse the significant changes to the substantive criteria 
identified by the courts? What would be next steps the Department would 
take to achieve this?
    Answer. The Department undertook significant revisions to its 
federal acknowledgment regulations in 2015, which were based on years 
of review and tribal consultation. It is important to implement those 
regulations and ensure consistency in decisionmaking.

    Question 67. The 2015 revisions to the acknowledgment regulations 
added a provision that allows the use of land set aside by a State for 
a petitioner or its collective ancestors to be used as evidence for 
criteria (b) (Community) and (c) (Political influence and authority). 
If re-petitioning is allowed, are there any previously denied 
petitioners outside that this provision would apply to?
    Answer. I am not aware of specific instances where these criteria 
would apply. It is important that the Department consider all of the 
evidence submitted by a petitioning group when applying the regulations 
and making decisions on petitions for federal acknowledgment.

    Question 68. Can you please explain your understanding of the 
administrative process for ``federal recognition'' of tribal 
communities in Alaska?
    Answer. If confirmed, I look forward to learning more about this 
process. I understand that the acknowledgement regulations apply to 
indigenous entities that are not federally recognized tribes. 25 C.F.R. 
 83.4. In addition, Indigenous means native to the continental United 
States in that at least part of the petitioner's territory at the time 
of first sustained contact extended into what is now the continental 
United States, which includes Alaska. 25 C.F.R.  83.1.
    Question 69. For decades, two tribes in Alaska-the Qutekcak Native 
Tribe (or QNT) and the Knugank Tribe (aka Olsonville)--have had 
petitions pending before DOI to organize under the congressionally-
created common bond standard for Alaska Native communities and to gain 
federal recognition. Can you commit to issuing decisions on Knugank's 
and QNT's pending petitions? And can you set a timeframe for issuing a 
final decision before December 31, 2022?
    Answer. If confirmed, I will work to ensure that the Department is 
not allowing petitions to languish for unreasonably long periods of 
time and that we are making timely decisions. If confirmed, I will look 
into this specific situation and work with the Tribes to ensure that we 
are communicating clearly about the Department's process when it comes 
to these pending petitions.
Education
    Question 70. Getting students back to school is very important. 
What steps will you take to ensure that students will be back to school 
in the fall in a timely and safe manner?
    Answer. Supporting vaccine confidence and ensuring BIE teachers, 
support staff, and student families are protected against COVID-19 is a 
key part of safely re-opening in person learning.
    BIE hosted school reopening consultations on May 10 for Grades K-12 
and BIE residential facilities and May 11 for post-secondary 
institutions to determine if supplemental reopening guidance is needed 
due to the unique nature of our system. As BIE staff gathers 
recommendations for reopening, they will work with schools to assist in 
the updating of locally and culturally responsive individual school 
reopening plans to prepare for the 2021-2022 school year. Further, BIE 
is partnering with states with high Native populations through our ED-
funded comprehensive center to exchange best practices for reopening 
and also supporting school leaders by providing opportunities for cross 
collaboration and professional development.

    Question 71. What steps will you take to ensure Indian students are 
not left behind regarding mandatory testing?
    Answer. In May the BIE consulted with tribes and stakeholders 
regarding the extent to which BIE-funded schools can administer BIE's 
assessments this year and whether BIE should request an assessment 
waiver from ED. I understand the difficult school year that many BIE 
students had with distance learning and Internet access challenges, 
along with the importance of testing to educational progress, and will 
work with BIE to ensure that decisions are made in the best interest of 
student's long term success.

    Question 72. The GAO High Risk list was just released for 2021, The 
Office of Indian Energy and Bureau of Indian Education remained on the 
list. Please explain what steps you will take to get both the Office of 
Indian Energy and the Bureau of Indian Education off the list.
    Answer. The Department has concurred with all of GAO's 
recommendations and is working to implement the outstanding 
recommendations in order to get both the Office of Indian Energy and 
the BIE off the High-Risk list. Successfully implementing those 
recommendations and moving BIE off that list will be an important goal 
for me and the Department.

    Question 73. What is your vision for the five percent in mandatory 
funds from the National Parks and Public Land Legacy Restoration Fund, 
that BIE will receive for priority deferred maintenance at BIE schools 
under the Great American Outdoors Act?
    Answer. The Great American Outdoors Act (GAOA) funding is a much-
needed boost to address backlogged school repairs and replacement. BIE 
has instituted regular school condition and safety assessments and 
expedited facilities improvement and repair projects through 
streamlined procurement options. Currently, the Bureau has 86 schools 
assessed as in poor condition, and 44 prioritized for action. My vision 
is for BIE to allocate GAOA funding as Congress intended, prioritizing 
deferred maintenance projects that frees up regular appropriations to 
improve schools across BIE to ensure a safe and productive learning 
environment for Native children. I look forward to working with 
Congress and others in the Department on BIE facilities funding, if 
confirmed.
Marijuana
    Question 74. As President of the Bay Mills Indian Community, you 
worked towards approval and opening of the first Tribally owned 
recreational Marijuana dispensary in the State of Michigan. Can you 
please discuss your understanding of how the Controlled Substance Act 
applies to activities on Tribal lands?
    Answer. The voting citizens of the Bay Mills Indian Community 
authorized and directed the Tribe's involvement in the recreational 
marijuana industry under Tribal law. If confirmed, in this position, I 
would rely on the legal advice of the Department's attorneys and the 
position of the Department of Justice on how the Controlled Substance 
Act applies to activities on Tribal lands.
                                 ______
                                 
                              Keweenaw Bay Indian Community
                                                       May 24, 2021
Dear Chairman Schatz and Vice Chair Murkowski:

    The Keweenaw Bay Indian Community (``Community'') would like to 
express our support for the nomination of Bryan Newland to serve as the 
Assistant Secretary for Indian Affairs (``Assistant Secretary'') at the 
Department of the Interior. Mr. Newland's experience as a tribal 
leader, as well as his current and past experiences working at the 
Interior Department make him uniquely qualified to carry out the duties 
of the Assistant Secretary.
    Mr. Newland, the former President of the Bay Mills Indian 
Community, knows firsthand how federal policies and regulations 
directly impact tribal nations. As a neighboring tribal nation, I have 
had the privilege to work with Mr. Newland during his tenure as 
President of the Bay Mills Indian Community. If confirmed by the 
Senate, Mr. Newland would be the first former tribal chairman to serve 
as the Assistant Secretary in over 30 years.
    Mr. Newland's previous service as a counselor and senior policy 
advisor to the Assistant Secretary makes him incredibly knowledgeable 
on the inner workings of the Interior Department. During his time with 
the Obama Administration, he worked on key issues related to fee-to-
trust, Indian gaming, and the leasing of Indian lands. He has performed 
his current role, Principal Deputy Assistant Secretary, admirably and 
has been instrumental in carrying out the federal government's day-to-
day responsibilities to tribal nations.
    Mr. Newland's background provides him with a 360-degree view of 
Indian Country's challenges and opportunities. He has in-depth 
knowledge of the broader issues facing tribal nations, as well as the 
unique issues in our region. Combined with Secretary Haaland's 
leadership, and the historic investments Congress recently made in 
Indian Country, Mr. Newland's potential service as Assistant Secretary 
gives us a great sense of optimism.
    In closing, the Keweenaw Bay Indian Community urges the Senate 
Committee on Indian Affairs to promptly consider and confirm Bryan 
Newland to serve as the Assistant Secretary for Indian Affairs. His 
proven leadership abilities and in-depth knowledge of Indian law and 
policy are desperately needed during these challenging times.
        Sincerely,
                                Warren C. Swartz, President
                                 ______
                                 
                                         Pascua Yaqui Tribe
                                                      June 15, 2021
Dear Chairman Schatz and Vice Chair Murkowski:

    On behalf of the Pascua Yaqui Tribe in Arizona, I am reaching out 
to you today in support of President Biden's nomination of Bryan 
Newland to the position of Assistant Secretary for Indian Affairs. Mr. 
Newland's years of experience within the DOI and his firsthand 
understanding of Tribal governance make him a candidate that can foster 
the collaboration needed to meet the challenges we face.
    Beyond all the obvious reasons Mr. Newland is the perfect 
candidate--from his experience as Principal Deputy Assistant Secretary 
for Indian affairs to his legal acumen in the field of Indian Law--it 
is his experience with policy making and regulations that makes him 
stand out. Mr. Newland helped develop policies on Indian gaming and 
Indian lands, led a team that reformed the BIA's Indian leasing 
regulations, and worked with key officials to help enact the HEARTH Act 
of 2012. Mr. Newland understands how to effect change; with those 
skills I have every confidence that he will achieve his goals to 
``build back better.''
    Mr. Newland's testimony today, which specifically highlighted the 
need to ``respond with urgency to the violence against indigenous women 
and children [and] lay the foundation for the next generation of Native 
children to succeed,'' resonates deeply with the Pascua Yaqui people. 
Eight years ago, the Pascua Yaqui Tribe joined Phase One of the VAWA 
2013 Pilot Project and we have made great strides. But our work is far 
from over. We welcome the opportunity to collaborate with Mr. Newland 
on ways that Indian Country can come together and address this problem 
together.
    I look forward to working with Mr. Newland in his role as Assistant 
Secretary oflndian Affairs.
    Thank you for your time in this matter. Your service on the Senate 
Committee for Indian Affairs is greatly appreciated.
        Sincerely,
                                  Peter Yucupicio, Chairman
                                 ______
                                 
                                                   USET SPF
                                                     April 23, 2021
USET SPF Applauds the Nomination of Bryan Newland for Assistant 
        Secretary--Indian Affairs
    (Washington, DC)--Yesterday, the Biden Administration announced its 
intent to nominate Bryan Newland, a citizen of the Bay Mills Indian 
Community (Ojibwe), to be the next Assistant Secretary-Indian Affairs 
(AS-IA). The AS-IA plays a critical role in elevating the voices of 
Indian Country, as well as delivering upon the federal government's 
trust responsibility and obligations. The position's responsibilities 
include advising the Secretary of the Interior on Indian Affairs policy 
issues and overseeing the Bureau of Indian Affairs and the Bureau of 
Indian Education.
    Mr. Newland has spent his career fighting for Tribal rights, 
becoming a trusted voice in the field of federal Indian law. He would 
bring a wealth of experience to the role of Assistant Secretary, having 
served most recently as the President of the Bay Mills Indian 
Community, as well as Chief Judge of the Bay Mills Tribal court and 
counselor and Senior Advisor to the AS-IA during the Obama 
Administration. His background provides him with a unique perspective 
on matters of Tribal self-governance, self-determination, and the 
delivery of federal trust and treaty obligations. USET SPF celebrates 
this nomination as another opportunity to advance Tribal sovereignty 
and improve the relationship between the United States and Tribal 
Nations.
    ``Bryan knows first-hand the challenges we face, as well as the 
opportunities that lie ahead for us as sovereign governments,'' said 
USET SPF President, Kirk Francis. ``We know him to be fair, 
knowledgeable, and passionately committed to justice for our people and 
the advancement of the U.S.-Tribal Nation diplomatic relationship. At a 
time when America is reckoning with its past, Bryan is the right person 
to meet this moment and deliver meaningful change for Indian Country. 
On behalf of the USET/USET SPF family, I extend our congratulations and 
full support.''
    As a former Tribal Leader, Mr. Newland's intimate understanding of 
both Tribal and federal service will be an asset to the Department of 
the Interior and its role in Nation-to-Nation diplomacy with Indian 
Country. Like Secretary Haaland, Mr. Newland holds a full appreciation 
for our history and relationship with the United States, as well as an 
indigenous sensibility for the stewardship of our lands, environment, 
and cultural resources. USET SPF is confident that Mr. Newland's 
service as AS-IA will bring significant progress in Tribal sovereignty, 
self-governance, and self-determination. We call upon the United States 
Senate to act swiftly on his confirmation in accordance with its 
responsibility to honor its obligations to Tribal Nations.
                                 ______
                                 
                 Sault Ste. Marie Tribe of Chippewa Indians
                                                     April 26, 2021
Dear Senate Majority Leader Schumer, Senate Minority Leader McConnell, 
Chair Schatz and Vice-Chair Murkowski:

    Ahneen, Boozho Negee Ogemuk,
    On behalf of the Sault Ste. Marie Tribe of Chippewa Indians, I 
write in support of the confirmation of Mr. Bryan Newland as Assistant 
Secretary--Indian Affairs (AS-IA) in the US Department of the Interior. 
My tribe is the closest relative nation to the Bay Mills Indian 
Community for which Mr. Newland has been a lifelong tribal citizen. The 
families in our respective tribal nations overlap with several 
ancestors in common but were separately recognized with Bay Mills 
maintaining recognition through the 1934 Indian Reorganization Act and 
my tribe seeking federal recognition and gaining approval in 1972. Our 
respective tribes hold our treaty rights in common from both the 1820 
and 1836 treaties. Given our shared history and close familial ties, 
submitting this letter of support of Mr. Newland's nomination is even 
more momentous.
    The United States must uphold its responsibility to tribal nations, 
honor its treaties, and provide a voice for Indian Country in the 
federal government. It is with this responsibility in mind and with 
tremendous enthusiasm that the Sault Ste. Marie Tribe of Chippewa 
Indians urges you to confirm President Biden's nomination of Mr. Bryan 
Newland to lead as the Assistant Secretary of Indian Affairs in the 
U.S. Department of the Interior.
    As you know, the Assistant Secretary--Indian Affairs under the U.S. 
Department of the Interior carries out a broad range of 
responsibilities including serving a key role in advising the Secretary 
of the Interior and sharing the responsibility as trustee to tribal 
nations in upholding the federal trust and treaty responsibilities to 
the 574-plus tribal nations and more than 5.2 million American Indians 
and Alaska Natives. The Bureau of Indian Affairs, the Bureau of Indian 
Education and other trustee related functions are led by the AS-IA with 
day-to-day leadership responsibility over all aspects of tribal 
sovereignty and self-governance, from education to economic development 
to law enforcement.
    As a result of this unique fiduciary obligation to tribal nations, 
it is critical that Interior leadership and employees reflect the 
communities it serves.
    President Biden's nominee Mr. Newland has spent his career 
advocating and serving as an advocate for tribal rights of his tribe as 
well as others. Over the years, he has matured into sound, rational and 
trusted voice in the field of federal Indian law. His vast experience 
would bring a wealth of experience to role the of Assistant Secretary, 
having served most recently as the President of the Bay Mills Indian 
Community, as well as Chief Judge of the Bay Mills Tribal Court, and 
Counselor and Senior Advisor to the AS-IA during the Obama 
Administration. His background provides him with a unique perspective 
on matters of tribal self-governance and the delivery of the treaty and 
trust obligation.
    In a regional and local sense and from a personal perspective, I 
have served as Chair to Bryan as Vice Chair of the Inter-Tribal Council 
of Michigan and as Vice Chair to Bryan as Chair of the Bay Mills Tribal 
College. Further, we have worked closely as colleagues through the 
United Tribes of Michigan, Chippewa Ottawa Resource Authority, and on 
countless projects of inter-tribal, state, regional and national scope. 
I have a very high regard for Bryan's diplomatic and respectful 
approach to honoring the sovereignty of every tribe he has worked with 
or for whom he has had diplomatic relations.
    In conclusion, I ask you to support the confirmation of Mr. Bryan 
Newland as Assistant Secretary--Indian Affairs. He has extensive 
experience, exemplary qualifications, and a demonstrated commitment to 
public service. His broad experience in Indian law, tribal justice and 
governance and commitment to good public policy showcases that he will 
continue to bring pragmatism to his role and responsibility as 
Assistant Secretary--Indian Affairs. As an Anishinaabe Ogemuk Ogitch'da 
(tribal leader and modern warrior) Mr. Newland descends from people who 
have hunted, fished, gathered and served as our nation's first stewards 
who cared for our Aki (Mother Earth) and Neebii (waters) since time 
immemorial. He understands deeply that these landscapes are 
multipurpose and integral to sustaining many communities, economies, 
and cultures.
    On behalf of the Sault Ste. Marie Tribe of Chippewa Indians, it is 
my honor to support Mr. Bryan Newland as Assistant Secretary--Indian 
Affairs and ask that you swiftly confirm Mr. Newland.
    Chi MeGwitch Negee.
        Submitted with Great Respect,
                          Dr. Aaron A. Payment, Chairperson
                                 ______
                                 
                                  Southern Ute Indian Tribe
                                                     April 26, 2021
Dear Chairman Schatz and Vice Chairman Murkowski:

    On behalf of the Southern Ute Indian Tribe, this letter expresses 
our support for the nomination of Bryan Newland as Assistant 
Secretary--Indian Affairs, Department of the Interior Mr. Newland is 
well qualified for this position. A member of the Bay Mills Indian 
Community, Mr. Newland recently completed his tenure as President of 
his Tribe. Growing up on the Bay Mills Reservation, he knows the 
challenges faced by Indian families in terms of housing, health care, 
unemployment and associated concerns. He graduated from Michigan State 
University College of Law, served as Chief Judge of the Bay Mills 
Tribal Court, and was Counselor and Policy Advisor to the Assistant 
Secretary--Indian Affairs in the Obama Administration.
    As a result of these life and career experiences, Mr. Newland has a 
unique understanding of the needs of federally-recognized Tribes and is 
well respected throughout Indian Country.
    With his in-depth knowledge of Federal Indian Law and his practical 
experience working with Tribes and in the Department of Interior, Mr. 
Newland will make an exceptional Assistant Secretary. We strongly 
support his nomination without hesitation or qualification.
        Sincerely,
                                 Melvin J. Baker, Chairman,
                                 Southern Ute Indian Tribal Council
                                 ______
                                 
           Great Plains Tribal Chairmen's Association, Inc.
                                                     April 26, 2021
Dear Chairman Schatz, Vice Chairman Murkowski, Senator Rounds and 
Senator Hoeven:

    Please vote to confirm Bryan Newland as Assistant Secretary for 
Indian Affairs.
    Bryan Newland is a seasoned Indian law attorney, who has served his 
own Native Sovereign Nation as Chairman and served the Obama 
Administration in the Office of the Assistant Secretary for Indian 
Affairs. Bryan is thoughtful, knows Tribal Government protocol. 
Chairman Harold Frazier, Great Plains Tribal Chairmen's Association, 
Inc., with 16 Member Nations and Tribes, said, ``Bryan Newland will 
work to ``strengthen our Nation-to-Nation Relations with the United 
States and Respect Tribal Sovereignty,'' as the Biden Administration 
has pledged to do.
    The AS-IA plays a critical role in Indian Country, by working with 
our Native Sovereign Nations on a Nation-to-Nation basis as well as 
working to deliver upon the federal government's treaty 
responsibilities and trust obligations. AS-IA responsibilities include 
advising the Secretary of the Interior on Indian Affairs policy issues 
and overseeing the Bureau of Indian Affairs and the Bureau of Indian 
Education.
    We encourage you to vote for Bryan Newland for Assistant Secretary 
for Indian Affairs. Thank you for your thoughtful consideration.
        Sincerely,
                               Harold C. Frazier, Chairman,
                                 ______
                                 
                                   Spokane Tribe of Indians
                                                       May 10, 2021
Chairman Schatz and Vice Chairman Murkowski,

    On April 23, 2021, President Joe Biden nominated Bryan Newland to 
be the new Assistant Secretary for Indian Affairs at the Department of 
the Interior. The Spokane Tribal Business Council strongly supports 
this nomination.
    The Spokane Tribe of Indians have a rich history and our 
ancestorial homelands consist of approximately 3 million acres in what 
is now northeastern Washington State. We are a river people, and the 
Spokane Indian Reservation sits at the confluence of the Spokane and 
Colombia rivers.
    During his previous time at the Bureau of Indian Affairs, Mr. 
Newland had a great understanding of the unique challenges facing our 
Tribe and to challenges facing Indian Country as a whole. Following his 
service during the Obama Administration, Mr. Newland was selected to 
serve as Chairman of the Bay Hills Indian Community. This experience of 
leading his people, combined with his previous tenure serving at the 
Bureau of Indian Affairs makes Mr. Newland the ideal candidate to serve 
as Assistant Secretary.
    We were grateful for your earlier support in the confirmation of 
Deb Haaland as the first Native American to serve as Secretary of the 
Department of the Interior. If confirmed, Bryan Newland is well 
equipped to help carry out the mission of the Bureau of Indian Affairs.
        Sincerely,
                                      Carol Evans, Chairman
                                 ______
                                 
         Chippewa Cree Tribe of the Rocky Boy's Reservation
                                                       May 11, 2021
    The Chippewa Cree Tribe officially endorsed President Biden's pick 
to lead the Bureau of Indian Affairs. Bryan Newland is a citizen of the 
Bay Mills Indian Community (Ojibwe), where he recently completed his 
tenure as Tribal Chairman. Before that, Newland served as Chief Judge 
of the Bay Mills Tribal Court. From 2009 to 2012, Newland served as a 
Counselor and Senior Policy Advisor to the Assistant Secretary of the 
Interior--Indian Affairs.
    Newland is yet to be confirmed by the U.S. Senate. If confirmed 
Bryan Newland would serve as Assistant Secretary for Indian Affairs, 
along with the first Native American Secretary of Interior, Deb 
Haaland.
    Many Indian tribes believe the Native American leadership at the 
Department of the Interior will have more success to secure traditional 
cultures, develop tribal economies and continue to heal the broken 
relationship with the federal government.
    While working under the Obama Administration Newland helped develop 
policies on Indian gaming and Indian lands, reforming the Department of 
the Interior's policy on reviewing tribal-state gaming compacts. He 
also led a team that improved the BIA's Indian leasing regulations and 
worked with key officials to help enact the HEARTH Act of 2012.
    Prior to his federal service, Newland worked as an attorney with 
Fletcher Law in Lansing, Michigan. He represented tribal clients on 
issues including the regulation of gaming facilities, negotiation of 
tribal-state gaming compacts, the fee-to-trust process, and leasing of 
Indian lands. He graduated magna cum laude from Michigan State 
University College of Law and received his undergraduate from James 
Madison College at Michigan State University.
                                     Harlan Baker, Chairman

  resolution no. 63-21--officially supporting the nomination of bryan 
    newland of the bay mills indian community (ojibwe) to serve as 
  assistant secretary--indian affairs for the u.s. department of the 
                               interior.
    WHEREAS, the Chippewa Cree Business Committee is the governing body 
of the Chippewa Cree Tribe of the Rocky Boy's Indian Reservation, 
Montana, by the authority of the Constitution and by-Laws of the 
Chippewa Cree Tribe approved on the 23rd day of November, 1935; and

    WHEREAS, pursuant to their inherent sovereignty and Constitution 
and By-Laws of the Chippewa Cree Tribe, the Chippewa Cree Business 
Committee is charged with the duty to promote and protect the health, 
security, and general welfare of the Chippewa Cree Tribe; and

    WHEREAS, the Chippewa Cree Business Committee is authorized to 
negotiate with the Federal, State and local governments on behalf of 
the Chippewa Cree Tribe, and to advise and consult with representatives 
of the Interior Department on all activities of the Department that may 
affect the Rocky Boy's Indian Reservation; and

    WHEREAS, President Biden has nominated Bryan Newland to serve as 
Assistant Secretary for Indian Affairs. Mr. Newland served as President 
of the Bay Mills Indian Community; and is a former Senior Policy 
Advisor of Interior under Secretary Ken Salazar, with a professional 
record and experience in Indian Country that is well-known and 
respected; and

    WHEREAS, Mr. Newland is a citizen of the Bay Mills Indian Community 
(Ojibwe), where he recently completed his tenure as Tribal Chairman. 
Before that, Newland served as Chief Judge of the Bay Mills Tribal 
Court. From 2009 to 2012, Newland served as a Counselor and Senior 
Policy Advisor to the Assistant Secretary of the Interior--Indian 
Affairs. In that capacity, he helped develop the Obama Administration's 
policies on Indian gaming and Indian lands, reforming the Department of 
the Interior's policy on reviewing tribal-state gaming compacts. He 
also led a team that improved the BIA's Indian leasing regulations and 
worked with key officials to help enact the HEARTH Act of 2012; and

    WHEREAS, a successful U.S. Senate confirmation of Bryan Newland to 
serve as Assistant Secretary for Indian Affairs, along with the first 
Native American Secretary of Interior, Deb Haaland--Indian tribes have 
the critical opportunity to take steps to secure traditional cultures, 
tribal economies, and continue to heal the broken relationship with the 
federal government; and

    WHEREAS, prior to his federal service, Newland worked as an 
attorney with Fletcher Law in Lansing, Michigan. He represented tribal 
clients on issues including the regulation of gaming facilities, 
negotiation of tribal-state gaming compacts, the fee-to-trust process, 
and leasing of Indian lands. He graduated magna cum laude from Michigan 
State University College of Law and received his undergraduate degree 
from James Madison College at Michigan State University.

    THEREFORE BE IT RESOLVED, the Chippewa Cree Business Committee 
hereby approves the resolution officially supporting the nomination of 
Bryan Newland of the Bay Mills Indian Community (Ojibwe) as the next 
Assistant Secretary of Indian Affairs of the U.S. Department of the 
Interior.
                                 ______
                                 
                                           Wilton Rancheria
                                                        May 4, 2021
Dear Chairman Schatz and Vice Chairman Murkowski:

    On behalf of the Wilton Rancheria, I write to support President 
Biden' s nomination of Bryan Newland to be Assistant Secretary--Indian 
Affairs (AS-IA). Wilton Rancheria is located in Sacramento County, 
California. The Tribe was terminated in 1959 by the federal government. 
After years of struggle, the Tribe regained its federal recognition in 
June 2009. In November 2011 , the Tribe adopted its modern 
Constitution, and since that time, the Tribe's leadership has worked 
diligently to implement and further develop the Tribal government. The 
Tribe intends to build on these successes and having a strong 
partnership with the federal government will be essential for this 
purpose.
    The United States must uphold its trust obligations to tribal 
governments, honor its treaties, and provide a strong voice for Indian 
Country within the federal government. The AS-IA, as the primary 
representative of the Department of the Interior on issues affecting 
Indian Affairs, has an essential role in ensuring that the federal 
government fulfills these obligations and responsibilities.
    Mr. Newland is eminently qualified for the AS-IA role. His prior 
experience includes having served as the President of Bay Mills Indian 
Community, the Chief Judge of the Bay Mills Tribal Court, and an 
attorney representing tribal governments. Therefore, Mr. Newland 
understands the government-to-government relationship from a tribal 
perspective. Additionally, he has significant federal Indian Affairs 
experience, having served as Counselor and Policy Advisor to a previous 
AS-IA. Accordingly, he has firsthand knowledge of the federal 
government processes affecting Indian Affairs and would have a holistic 
understanding of the Department's unique role in ensuring the federal 
government meets its obligations to Indian Country.
    Mr. Newland's experience also demonstrates a strong commitment to 
serving Indian Country. This strong commitment is vital to ensuring the 
Department and other agencies across the federal government truly 
enngage with tribes on a government-to-government basis to improve the 
lives of Native people across the nation.
    It is with Mr. Newland's qualifications and commitment in mind that 
Wilton Rancheria is honored to support his nomination. Accordingly, I 
respectfully urge you to support his confirmation to be the next AS-IA.
        Sincerely,
                                    Jesus Tarango, Chairman
                                 ______
                                 
The Confederated Salish and Kootenai Tribes of the Flathead 
                                                     Nation
Dear Chairman Schatz and Vice Chairman Murkowski:

    On behalf of the Confederated Salish and Kootenai Tribes (Tribes) I 
am writing to you in support of the nomination of Mr. Bryan Newland to 
be the Assistant Secretary for Indian Affairs.
    Mr. Newland has established himself as a strong advocate for Indian 
tribes. Through his previous work as President of his tribe, a tribal 
judge, an attorney, and an advisor in the Obama administration, Mr. 
Newland has a very well-rounded body of experience from which to draw 
in making policy and other decisions affecting tribes and tribal 
members.
    I met with Mr. Newland recently in his current capacity as 
Principal Deputy Assistant Secretary Indian Affairs. I appreciated his 
attention to, and consideration of, the issues that my Tribes raised. 
Having been the leader of the Bay Mills Indian Community, it makes 
sense that he, as Assistant Secretary, will be an effective federal 
partner with tribal leaders. His prior experience in the Assistant 
Secretary's office will undoubtedly serve him well.
    In short, I am confident that Mr. Newland will be a constructive 
part of Secretary Haaland's Interior leadership team and I urge your 
Committee to recommend his confirmation to be the next Assistant 
Secretary--Indian Affairs.
        Thank you,
                Shelly R. Fyant, Chairwoman, Tribal Council
                                 ______
                                 
                                                       June 4, 2021
Dear Chairman Schatz and Vice Chairman Murkowski,

    On behalf of our undersigned organizations, we state our 
unequivocal support for the confirmation of Bryan Newland, a citizen of 
the Bay Mills Indian Community (Ojibwe), to be the next Assistant 
Secretary-Indian Affairs (AS-IA). The AS-IA plays a critical role in 
elevating the voices of Indian Country, as well as delivering upon the 
federal government's trust responsibility and obligations. The 
position's responsibilities include advising the Secretary of the 
Interior on Indian Affairs policy issues and overseeing the Bureau of 
Indian Affairs and the Bureau of Indian Education.
    Mr. Newland has spent his career fighting for Tribal rights, 
becoming a trusted voice in the field of federal Indian law. He would 
bring a wealth of experience to the role of Assistant Secretary, having 
served most recently as the President of the Bay Mills Indian 
Community, as well as Chief Judge of the Bay Mills Tribal court and 
counselor and Senior Advisor to the AS-IA during the Obama 
Administration. His background provides him with a unique perspective 
on matters of Tribal self-governance and the delivery of federal trust 
and treaty obligations. Our collective organizations celebrate this 
nomination as another opportunity to advance Tribal sovereignty and 
improve the relationship between the United States and Tribal Nations.
    Mr. Newland knows first-hand the challenges we face, as well as the 
opportunities that lie ahead for us as sovereign governments. We know 
him to be fair, knowledgeable, and passionately committed to justice 
for our people and the advancement of the U.S.-Tribal Nation diplomatic 
relationship. At a time when America is reckoning with its past, Mr. 
Newland is the right person to meet this moment and deliver meaningful 
change for Indian Country.
    As a former Tribal Leader, Mr. Newland's intimate understanding of 
both Tribal and federal service will be an asset to the Department of 
the Interior and its role in Nation-to-Nation diplomacy with Indian 
Country. Like Secretary Haaland, Mr. Newland holds a full appreciation 
for our history and relationship with the United States, as well as an 
indigenous sensibility for the stewardship of our lands, environment, 
and cultural resources. We are confident that Mr. Newland's service as 
AS-IA will bring significant progress in Tribal sovereignty, self-
governance, and self-determination.
    Our organizations stand in unity and offer our full support for Mr. 
Bryan Newland as the next Assistant Secretary--Indian Affairs (AS-IA). 
We call upon the United States Senate to act swiftly on his 
confirmation in accordance with its responsibility to honor its 
obligations to Tribal Nations.
        Sincerely,
      Kirk Francis (Penobscot) President, USET Sovereignty 
                                            Protection Fund

     Fawn Sharp (Quinault) President, National Congress of 
                                           American Indians

     Harold Frazier (Cheyenne River Sioux) Chairman, Great 
                  Plains Tribal Chairmen's Association, Inc

    W. Ron Allen, Tribal Chairman/CEO, Jamestown S'Klallam 
  Tribe and President, Board of Directors, Self-Governance 
                Communication & Education Tribal Consortium

Aaron Payment (Sault Ste. Marie Tribe of Chippewa Indians) 
            President, Midwest Alliance of Sovereign Tribes

 Jason Giles (Muscogee Creek) Executive Director, National 
                                  Indian Gaming Association

         Aaron Payment (Sault Ste. Marie Tribe of Chippewa 
  Indians)Chairman of the Board of Directors, Inter-Tribal 
                                  Council of Michigan, Inc.

        William F. Snell, Jr. (Crow/Assiniboine) Executive 
            Director, Rocky Mountain Tribal Leaders Council

      Frank Ettawageshik (Odawa) President, Association on 
                                    American Indian Affairs

Leonard Forsman (Suquamish) President, Affiliated Tribes of 
                                          Northwest Indians

       Cristina Danforth (Oneida Nation) President, Native 
                      American Finance Officers Association

      Chuck Hoskin, Jr. (Cherokee) President, Inter-Tribal 
                       Council of the Five Civilized Tribes

Adrian Stevens (Seneca Nation) Acting Chairperson, National 
                            American Indian Housing Council

 Laura Harris (Comanche) Executive Director, Americans for 
                                         Indian Opportunity

  Wilfred Herrera (Laguna) Chairman, All Pueblo Council of 
                                                  Governors

    Jason Dropik (Bad River Band of Lake Superior Chippewa 
  Indians) President, National Indian Education Association
                                 ______
                                 
                                Gila River Indian Community
                                                       June 4, 2021
Dear Chairman Schatz and Vice Chairwoman Murkowski,

    I write on behalf of the Gila River Indian Community 
(``Community'') in support of the nomination of Bryan Newland to serve 
as the Assistant Secretary for Indian Affairs at the United States 
Department of the Interior (``Interior'').
    The Community is very familiar with Mr. Newland, both during his 
time in the Assistant Secretary's Offrce during the 
ObamaAdministration, as well as his time as the Chairman of his own 
tribe. In both instances, Mr. Newland demonstrated that he understood 
the complicated balance that Native leaders must strive to achieve 
between providing social services for our people, protecting and 
strengthening our culture and traditions, and looking for opportunities 
to expand our economies and become more self-sufficient. For example, 
during his time in the Assistant Secretary's Office Mr. Newland was 
instrumental in drafting the Helping Expedite and Advance Responsible 
Tribal Homeownership Act (``HEARTH Act'') which grants greater 
authority to federally recognized tribes to develop and implement their 
own regulations for leasing on Indian lands. The Community has 
benefited from the HEARTH Act, through passage of our own Community 
leasing regulations, that has enabled the Community to significantly 
reduce the time it takes to approve leases for homes and small 
businesses on our Reservation. Efforts such as these, aimed at 
empowering tribal goveffIments, is exactly the type of leadership that 
Interior needs. The Community feels confident that Mr. Newland is well-
positioned to provide such leadership and would fully embrace and 
encourage tribal self-determination and economic development across 
Indian Country.
    The Community has also witnessed Mr. Newland's commitment to 
consultation between Interior and tribal governments which involves 
more than just listening to tribal goverrrments but actually partnering 
with tribal governments to further strengthen the government-to-
government relationship. The Community is similarly committed to 
working with Mr. Newland in his role as the Assistant Secretary for 
Indian Affairs to work together to coordinate and collaborate with 
other federal agencies, educate the different facets of the 
BidenAdministration and communicating with the relevant Congressional 
committees. The Community has no concerns that Mr. Newland has the 
experience, legal background, and unique knowledge of the interplay 
between all of these entities to successfully advocate for and make 
difficult policy decisions impacting Indian Country.
    Indeed, the multitude of problems facing Indian Country especially 
heightened during the recent pandemic, make it clear that there is no 
one-size-fits-all approach to addressing these problems. Mr. Newland's 
experience working for the Obama Administration and as a tribal leader 
make him particularly qualified to work with tribal governments to 
address these problems and develop unique solutions.
    For the reasons described above, the Community supports the 
nomination of Mr. Newland and hopes that this Committee will quickly 
approve his nomination and bring it to the full Senate for 
consideration in a timely manner.
        Sincerely,
                                Stephen Roe Lewis, Governor
                                 ______
                                 
                                  Mille Lacs Band of Ojibwe
                                                       June 4, 2021
Dear Chairman Schatz and Vice Chairwoman Murkowski,

    On behalf of the Mille Lacs Band of Ojibwe Indians, I am writing to 
provide our strongest support for the swift confirmation of Bryan 
Newland, a citizen of the Bay Mills Indian Community (Ojibwe), to be 
the next Assistant Secretary-Indian Affairs (AS-IA).
    As Chief Executive/Chairwoman of the Mille Lacs Band of Ojibwe, I 
have known Mr. Newland for decades. Mr. Newland's character and 
integrity are beyond reproach. He is one of the best and brightest 
Indian country has to offer, and has spent his entire career in public 
service to Indian nations and our citizenry. I know he will be an 
outstanding Assistant Secretary for Indian Affairs and will always do 
right by tribal governments and Indiam people.
    As a tribal leader and activist, Mr. Newland has spent his career 
fighting for Tribal rights, becoming a trusted voice in the field of 
federal Indian law. He would bring a wealth of experience to the role 
of Assistant Secretary, having served most recently as the President of 
the Bay Mills Indian Community, as well as Chief Judge of the Bay Mills 
Tribal court and counselor and Senior Advisor to the AS-IA during the 
Obama Administration. His background provides him with a unique 
perspective on matters of Tribal self-governance and the delivery of 
federal trust and treaty obligations.
    The AS-IA plays a critical role in protecting and advancing tribal 
sovereignty, self-determination and self-governance for tribal 
governments. Mr. Newland knows first-hand the challenges we face, as 
well as the opportunities that lie ahead for us as sovereign 
governments. We know him to be fair, knowledgeable, and passionately 
committed to justice for our people and the advancement of the U.S.-
Tribal Nation diplomatic relationship. At a time when America is 
reckoning with its past, Mr. Newland is the right person to meet this 
moment and deliver meaningful change for Indian Country.
    I am incredibly proud of Mr. Newland and all he has accomplished 
across his career, and very happy to see a former tribal leader 
stepping into this key role. Mr. Newland has my unequivocal trust and 
support.
    The Mille Lacs Band of Ojibwe Indians urges you to move swiftly to 
confirm Mr. Newland and we are very excited to work with him. It is my 
opinion that Mr. Newland will be the best Assistant Secretary for 
Indian Affairs that Indian country has ever seen.
        Sincerely,
                          Melanie Benjamin, Chief Executive
                                 ______
                                 
                               Alaska Federation of Natives
                                                       June 4, 2021
Dear Senator Murkowski and Senator Sullivan:

    On behalf of the Alaska Federation of Natives (AFN), I am writing 
to express our support for Bryan Newland's nomination for Assistant 
Secretary-Indian Affairs in the U.S. Department of the Interior.
    AFN represents more than 175,000 Alaska Natives, including 169 
federally recognized tribes, 174 village for-profit corporations, nine 
regional for-profit corporations, and 12 regional nonprofit and tribal 
consortia. Our mission, among other things, is to enhance and promote 
the cultural, economic, and political voice of the entire Alaska Native 
community.
    Mr. Newland is qualified for this role and is widely known for 
being a strong advocate for tribal communities across the nation. Mr. 
Newland is a citizen of the Bay Mills Indian Community (Ojibwe), where 
he recently completed his tenure as Tribal Chairman. Before that, 
Newland served as Chief Judge of the Bay Mills Tribal Court. From 2009 
to 2012, Newland served as a Counselor and Policy Advisor to the 
Assistant Secretary of the Interior--Indian Affairs. In that capacity, 
he helped develop the Obama Administration's policies on Indian gaming 
and Indian lands, reforming the Department of the Interior's policy on 
reviewing tribal-state gaming compacts. Before his federal service, 
Newland worked as an attorney with Fletcher Law in Lansing, Michigan. 
He represented tribal clients on issues including the regulation of 
gaming facilities, negotiation of tribal-state gaming compacts, the 
fee-to-trust process, and leasing of Indian lands.
    Mr. Newlands's strong background and multi-faceted experience 
promoting Native rights, cultural values, and economic prosperity will 
make him a strong advocate for Native communities within the 
Administration. As such, we look forward to the opportunity to work 
with Mr. Newland on issues that impact our communities across Alaska 
and the nation.
    I would be pleased to speak with you or your staff in more detail 
about his qualifications.
    Thank you for considering our views on this nomination.
        Sincerely,
                                     Julie Kitka, President
                                 ______
                                 
                                       Oneida Indian Nation
                                                       June 7, 2021
Dear Chairman Schatz and Vice Chairman Murkowski:

    Shekolih. Greetings. On behalf of the Oneida Indian Nation, we 
write to express our full support for the confirmation of Bryan Newland 
(Ojibwe) as Assistant Secretary--Indian Affairs.
    Mr. Newland is a respected Native leader, who will bring real world 
and practical experience that will help him succeed in this position 
within the U.S. Department of the Interior. His breadth of experience, 
including as a Senior Advisor to a prior AS-AI, gives him a unique 
understanding of how this role functions, and how the policies and 
approaches that impact Indian Country must evolve so that Indian tribes 
can govern and act in the 21st century.
    Serving most recently as President of the Bay Mills Indian 
Community, Mr. Newland's knowledge and ability in public service will 
be invaluable to the Department of the Interior. Tribal sovereignty 
remains a critical component of Tribal-federal relations, and his deep 
knowledge of our collective history will serve to fortify the existing 
relationships between the United States and the Tribal nations across 
the country.
    We encourage the United States Senate to confirm Mr. Newland as 
quickly as possible.
        Na ki'wa,
                      Ray Halbritter, Nation Representative
                                 ______
                                 
                      Northwest Indian Fisheries Commission
                                                       June 8, 2021
Dear Chairman Schatz and Vice Chairman Murkowski:

    The Northwest Indian Fisheries Commission--composed of the 20 
treaty Indian tribes \1\ in western Washington--respectfully submits 
our unequivocal support for the confirmation of President Biden's 
nomination of Bryan Newland to be the next Assistant Secretary--Indian 
Affairs (AS-IA). The AS-IA is a critical position for Indian Country, 
whose responsibilities include advising the Secretary of the Interior 
on policy issues relative to Indian Affairs and overseeing the Bureau 
of Indian Affairs and the Bureau of Indian Education. The nomination of 
the AS-IA is important to our tribes because the AS-IA plays a 
fundamental role in ensuring that the Department of Interior is 
carrying out the federal government's trust responsibility and treaty 
obligations.
---------------------------------------------------------------------------
    \1\ The NWIFC member tribes are the Hoh, Jamestown S'Klallam, Lower 
Elwha Klallam, Lummi, Makah, Muckleshoot, Nisqually, Nooksack, Port 
Gamble S'Klallam, Puyallup, Quileute, Quinault, Sauk-Suiattle, 
Skokomish, Squaxin Island, Stillaguamish, Suquamish, Swinomish, 
Tulalip, and Upper Skagit.
---------------------------------------------------------------------------
    Mr. Newland is well situated to understand the distinct challenges 
that our tribes face and has the experience and know-how to help guide 
the federal government to address them. Having served most recently as 
President of Bay Mills Indian Community and Chief Judge of Bay Mills 
Tribal Court, Mr. Newland is both well-informed and has a unique 
perspective on matters regarding tribal self-governance, treaty-
reserved rights and the federal government's fiduciary responsibility 
to tribes. Mr. Newland's service as a Counselor and Policy Advisor to 
the AS-IA, under President Obama, gives him the essential experience in 
navigating the agency.
    We have crossed paths with Mr. Newland many times over the years 
and are confident in his ability to carry out his duties in a manner 
that is professional, fair and knowledgeable. Mr. Newland's keen 
management and policy skills are sure to advance the federal-tribal 
government diplomatic relations, and his passion for justice and the 
protection of tribal rights lends us certainty that the job will be 
carried out respectfully and ethically.
    Mr. Newland has served the Bay Mills Indian Community during one of 
the most difficult years due to the COVID-19 pandemic and it is our 
understanding that his service was critical to overcoming economic, 
financial and emotional hardships. These reports only further bolster 
our confidence in Mr. Newland's leadership and management abilities. 
Therefore, we offer our full support for Mr. Newland as the next AS-IA 
and respectfully request the United States Senate to act swiftly on his 
confirmation.
    Thank you for your consideration on this important issue.
        Sincerely,
                               Lorraine Loomis, Chairperson
                                 ______
                                 
                                                Yurok Tribe
                                                      June 10, 2021
Aiy-ye-kwee' Chairman Schatz and Vice Chairwoman Murkowski,

    The Yurok Tribe writes to express our unqualified support for the 
nomination of Bryan Todd Newland for the position of Assistant 
Secretary--Indian Affairs at the Department of the Interior. Mr. 
Newland has both the experience and skills to succeed in this position.
    Mr. Newland has worked on both sides of the federal trust 
responsibility to Indian tribes. His work in the Assistant Secretary--
Indian Affairs office previously is well known for being careful, 
diligent, high quality, and demonstrating a positive relationship with 
Indian country. Since then, he has served admirably in leadership for 
his own tribe, the Bay Mills Indian Community. He therefore understands 
the many challenges and demands that Indian tribes face. His legal 
training also gives him additional understanding of the complicated 
laws and programs that he will oversee.
    Mr. Newland demonstrates the appropriate personal skills for this 
difficult position. He is calm and committed to his work. He shows 
critical leadership skills and a remarkable commitment to Indian 
country. We are confident he will serve Indian country and the nation 
well if confirmed and urge the Committee to enthusiastically support 
his nomination.
        Wok-hlew'
                                  Joseph L. James, Chairman
                                 ______
                                 
                                      Coquille Indian Tribe
                                                      June 10, 2021
Dear Chairman Schatz and Vice Chairwoman Murkowski,

    Dai'sla! I am honored to submit this letter of support for 
Chairperson Bryan Newland to serve as the U.S. Assistant Secretary of 
lndian Affairs.
    As a member of the Bay Mills Indian Community, Chairperson Newland 
has a personal appreciation for the intergenerational struggles that 
Indian people confront on a daily basis. For much of our nation's 
history, Federal Indian affairs policy has been conceived and 
implemented from a non-Indian point of view. As a result, these well-
intentioned policies often fail because they misunderstand what Indian 
people need.
    As the Chairperson of the Bay Mills Indian Community Executive 
Council, Mr. Newland appreciates the position of Indian tribal 
governments in our modern era of tribal self-determination, tribal 
governments are the key service delivery agents in Indian county. I can 
personally attest to the challenges that tribal leaders face to both 
understand federal policy and use federal tools to provide real help to 
their people. Because he has been a leader of a Federally recognized 
tribe, I believe that Chairperson Newland is more likely to provide 
wise and meaningful leadership. My sense is that Indian people are more 
likely to accept even difficult policy choices when they are made using 
traditional values by a person who is accountable to his own elders and 
ancestors.
    As an Indian person who has chosen a path of higher education and 
leadership, Chairperson Newland will serve as a role model for all 
Native American youth.
    For these reasons and more, the Coquille Indian Tribe supports 
Chairperson Newland's confirmation as Assistant Secretary of Indian 
Affairs.
    Thank you for the opportunity express our support.
        Masi,
                                  Brenda Meade, Chairperson
                                 ______
                                 
                             Soboba Band of Luiseno Indians
                                                      June 19, 2021
Dear Chairman Schatz and Vice Chairwoman Murkowski,

    The Soboba Band of Luiseno Indians (Tribe) is pleased to support 
the recent nomination of Bryan Newland for the position of Assistant 
Secretary--Indian Affairs in the U.S. Department of the Interior.
    We have full respect for Mr. Newland's accomplishments and 
appreciate his advancement of tribal issues and concerns over the 
years. His record and experience in Indian country are well-known. We 
strongly encourage you and your colleagues to move quickly to confirm 
Bryan Newland as the new Assistant Secretary of Indian Affairs.
    The Tribe appreciates your prompt consideration of this matter.
        Sincerely,
                                   Isaiah Vivanco, Chairman
                                 ______
                                 
                           Alabama-Coushatta Tribe of Texas
                                                      June 22, 2021
Dear Chairman Schatz and Vice Chairwoman Murkowski, and Members of the 
Senate Indian Affairs Committee:

    On behalf of the Alabama-Coushatta Tribe of Texas, I write in 
support of the confirmation of Bryan Newland as the new Assistant 
Secretary for Indian Affairs. Mr. Newland's experience leading his 
people at the Bay Mills Indian Community as well as his previous 
service at the Department of the Interior has made him aware of the 
challenges tribes face in trying to meet the needs of their tribal 
members through economic development and education. At the same time, 
he has continued to honor and maintain important cultural traditions. 
We are confident that Mr. Newland will work to ensure that tribes have 
the tools and support necessary to allow tribes to shape their futures.
    The Alabama and Coushatta, formerly known as the Alibamu and 
Koasati, were originally separate organized tribes, both of whom 
migrated westward from present-day Alabama to East Texas prior to most 
European settlers. In recognition for assisting General Sam Houston's 
army during the war for Texas Independence, the 1854 Texas Legislature 
authorized the purchase of separate lands for both tribes, and in the 
absence of available acreage, both tribes began living on their 
present-day reservation in 1859. Recognition as one tribe came through 
the issuance of the 1929 land deed for 3,071 acres. During the 
termination period of the 1950s, the Tribe's federal recognition was 
terminated, but Congress restored the Tribe's federal status in 1987. 
Today, the Tribe is engaged in a struggle with Texas regarding the 
Tribe's ability to offer electronic bingo as a means to provide for its 
members and achieve economic independence. We would look forward to 
working with Mr. Newland regarding this and our other tribal issues.
    The Alabama-Coushatta Tribe of Texas fully supports the nomination 
of Mr. Newland as the Assistant Secretary for Indian Affairs and hopes 
for a quick confirmation.
        Respectfully,
                   Nita Battise, Tribal Council Chairperson
                                 ______
                                 
                          Northern Arapaho Business Council
                                                       June 9, 2021
Dear Chairman Schatz and Vice Chairwoman Murkowski,


    I write to you on behalf of the Northern Arapaho Business Council 
(NABC) to express our strong support for Bryan Newland, a citizen of 
the Bay Mills Indian Community, to be the Assistant Secretary for 
Indian Affairs at the Department of the Interior. Mr. Newland's 
understanding of tribal governments and experience supporting the 
Assistant Secretary for Indian Affairs makes him an ideal candidate to 
be confirmed as the next Assistant Secretary for Indian Affairs. I urge 
you to swiftly advance Mr. Newland's nomination and support his 
confirmation on the Senate floor.
    The Assistant Secretary for Indian Affairs (ASIA) plays a 
significant role for tribal governments, primarily by fulfilling 
federal trust obligations and advising the Secretary of the Interior on 
issues related to Indian Country. It is important for tribes throughout 
the country that the ASIA is someone who understands the unique 
position of tribal governments and also has indepth knowledge of the 
Department of the Interior and federal government. Mr. Newland is a 
person who fits this position, and NABC proudly supports his 
nomination.
    Mr. Newland's experience as President of the Bay Mills Indian 
Community will be invaluable as he works alongside tribal leaders to 
strengthen the govemment-to-govemment relationship. The Northern 
Arapaho Business Council works alongside federal officials on a daily 
basis, and we see firsthand the importance of working with partners who 
understand the complexities that tribal governments face as one of the 
most regulated entities in the country. Mr. Newland's appreciation of 
the challenges that tribal governments must navigate to accomplish 
basic tasks will help him be an effective ASIA, and ultimately benefit 
everyone.
    Mr. Newland's time as Counselor and Senior Advisor to the Assistant 
Secretary for Indian Affairs has him ready to hit the ground running 
once he is confirmed. His understanding of the Agency combined with his 
policy expertise has him well positioned to effectively execute the 
Administration's direction while strengthening tribal sovereignty. We 
anticipate that he will play a strong role in advancing the 
Administration's Native American priorities, such as meaningful 
consultation, and we are optimistic that he will be a great partner for 
Indian Country.
    The NABC has no doubt that Mr. Newland will be a strong Assistant 
Secretary for Indian Affairs and we respectfully urge you to support 
him. We look forward to continue working with you to continue 
strengthening our govemment-to-govemment relationship.
        Kind Regards,
                                      Lee Spoonhunter, Co-Chairman

    Attachment

                     resolution no. nabc 2021-1363
     WHEREAS, The Northern Arapaho Business Council (NABC) is the duly 
constituted governing body of the Northern Arapaho Tribe, and

     WHEREAS, The Tribe retains inherent sovereign authority to promote 
interests of the Tribe and its members and residents of the Wind River 
Reservation, and

     WHEREAS, President Biden has nominated Bryan Newland to serve as 
Assistant Secretary for Indian Affairs. Mr. Newland served as President 
of the Bay Mills Indian Community; and is a former Senior Policy 
Advisor of Interior under Secretary Ken Salazar, with a professional 
record and experience in Indian Country that is well-known and 
respected, and

     WHEREAS, Mr. Newland is a citizen of the Bay Mills Indian 
Community (Ojibwe), where he recently completed his tenure as Tribal 
Chairman. Before that, Newland served as Chief Judge of the Bay Mills 
Tribal Court. From 2009 to 2012, Newland served as a Counselor and 
Senior Policy Advisor to the Assistant Secretary of the Interior--
Indian Affairs. In that capacity, he helped develop the Obama 
Administration's policies on Indian gaming and Indian lands, reforming 
the Department of the Interior's policy on reviewing tribal-state 
gaming compacts. He also led a team that improved the BIA's Indian 
leasing regulations and worked with key officials to help enact the 
HEARTH Act of 2012, and

     WHEREAS, a successful U.S. Senate confirmation of Bryan Newland to 
serve as Assistant Secretary for Indian Affairs, along with the first 
Native American Secretary of Interior, Deb Haaland--Indian tribes have 
the critical opportunity to take steps to secure traditional cultures, 
tribal economies, and continue to heal the broken relationship with the 
federal government, and

     WHEREAS, Prior to his federal service, Newland worked as an 
attorney with Fletcher Law in Lansing, Michigan. He represented tribal 
clients on issues including the regulation of gaming facilities, 
negotiation of tribal-state gaming compacts, the fee-to-trust process, 
and leasing of Indian lands. He graduated magna cum laude from Michigan 
State University College of Law and received his undergraduate degree 
from James Madison College at Michigan State University.

     THEREFORE, BE IT RESOLVED AS FOLLOWS:

    The NABC hereby approves the resolution officially supporting the 
nomination of Bryan Newland of the Bay Mills Indian Community (Ojibwe) 
as the next Assistant Secretary of Indian Affairs of the U.S. 
Department of the Interior.

     CERTIFICATION
    The undersigned, as Chairman of the Northern Arapaho Business 
Council, hereby certifies that the Northern Arapaho Business Council 
consists of six (6) members and that four (4) members were present 
constituting a quorum, at a specially called meeting of the Northern 
Arapaho Business Council held on June 9,2021 that the foregoing 
resolution was adopted a vote of Four (4) Members FOR and Zero (0) 
Members AGAINST and that the foregoing resolution was not rescinded or 
amended in any way.
                                 ______
                                 
                                            Blackfeet Tribe
                                                        May 6, 2021
    Browning, MT. The Blackfeet Tribe officially endorsed President 
Biden's pick to lead the Bureau of Indian Affairs. Bryan Newland is a 
citizen of the Bay Mills Indian Community (Ojibwe), where he recently 
completed his tenure as Tribal Chairman. Before that, Newland served as 
Chief Judge of the Bay Mills Tribal Court. From 2009 to 2012, Newland 
served as a Counselor and Senior Policy Advisor to the Assistant 
Secretary of the Interior--Indian Affairs.
    Newland is yet to be confirmed by the U.S. Senate. If confirmed 
Bryan Newland would serve as Assistant Secretary for Indian Affairs, 
along with the first Native American Secretary of Interior, Deb 
Haaland.
    Many Indian tribes believe the Native American leadership at the 
Department of the Interior will have more success to secure traditional 
cultures, develop tribal economies and continue to heal the broken 
relationship with the federal government.
    While working under the Obama Administration Newland helped develop 
policies on Indian gaming and Indian lands, reforming the Department of 
the Interior's policy on reviewing tribal-state gaming compacts. He 
also led a team that improved the BIA's Indian leasing regulations and 
worked with key officials to help enact the HEARTH Act of 2012.
    Prior to his federal service, Newland worked as an attorney with 
Fletcher Law in Lansing, Michigan. He represented tribal clients on 
issues including the regulation of gaming facilities, negotiation of 
tribal-state gaming compacts, the fee-to-trust process, and leasing 
oflndian lands. He graduated magna cum laude from Michigan State 
University College of Law and received his undergraduate degree from 
James Madison College at Michigan State University.

resolution of the blackfeet nation officially supporting the nomination 
of bryan newland of the bay mills indian community (ojibwe) to serve as 
  assistant secretary--indian affairs for the u.s. department of the 
                         interior--no. 311-2021

    WHEREAS, The Blackfeet Tribal Business Council is the duly 
constituted governing body within the exterior boundaries of the 
Blackfeet Indian Reservation, and

    WHEREAS, The Blackfeet Tribal Business Council has been organized 
to represent, develop, protect and advance the views, interests, 
education and resources of the Blackfeet Indian Reservation, and

    WHEREAS, In accordance with Article VI Section 1 (a) of the 
Constitution for the Blackfeet Tribe, the Blackfeet Tribal Business 
Council is empowered to negotiate with the federal, state and local 
governments on behalf of the tribe and to advise and consult with the 
representatives of the United States Government on all activities that 
may affect the Blackfeet Tribe, and

    WHEREAS, President Biden has nominated Bryan Newland to fill the 
post as Assistant Secretary for Indian Affairs. Mr. Newland served as 
President of the Bay Mills Indian Community; and is a former Senior 
Policy Advisor of Interior under Secretary Ken Salazar, with a 
professional record and experience in Indian Country that is well-known 
and respected.

    WHEREAS, Mr. Newland is a citizen of the Bay Mills Indian Community 
(Ojibwe), where he recently completed his tenure as Tribal Chairman. 
Before that, Newland served as Chief Judge of the Bay Mills Tribal 
Court. From 2009 to 2012, Newland served as a Counselor and Policy 
Advisor to the Assistant Secretary of the Interior-Indian Affairs. In 
that capacity, he helped develop the Obama Administration's policies on 
Indian gaming and Indian lands, reforming the Department of the 
Interior's policy on reviewing tribal-state gaming compacts. He also 
led a team that improved the BIA's Indian leasing regulations and 
worked with key officials to help enact the HEARTH Act of 2012.

    WHEREAS, a U.S. Senate confirmation of Bryan Newland to serve as 
Assistant Secretary for Indian Affairs, along with the first Native 
American Secretary of Interior, Deb Haaland--Indian tribes have the 
critical opportunity to take steps to secure traditional cultures, 
tribal economies, and continue to heal the broken relationship with the 
federal government.

    WHEREAS, Prior to his federal service, Newland worked as an 
attorney with Fletcher Law in Lansing, Michigan. He represented tribal 
clients on issues including the regulation of gaming facilities, 
negotiation of tribal-state gaming compacts, the fee-to-trust process, 
and leasing oflndian lands. He graduated magna cum laude from Michigan 
State University College of Law and received his undergraduate degree 
from James Madison College at Michigan State University.

    THEREFORE, BE IT RESOLVED AS FOLLOWS:
    1. The Blackfeet Tribal Business Council hereby approves the 
resolution officially supporting the nomination of Bryan Newland of the 
Bay Mills Indian Community (Ojibwe) as the next Assistant Secretary 
oflndian Affairs of the U.S. Department of the Interior.

    2. That the Chairman or Vice-Chairman in the Chairman's absence and 
Secretary of the Blackfeet Tribal Business Council are hereby 
authorized to sign this Resolution and any other documents to 
effectuate the purposes of this Resolution.
                                 ______
                                 
                         resolution no. 21-217
    WHEREAS, the Constitution of the Tohono O'odham Nation vests the 
Legislative Council with the authority to ``consult, negotiate and 
conclude agreements and contracts on bebalf of the Tohono O'odham 
Nation with Federal, State and local governments'' and to ``promote, 
protect and provide for public health, peace, morals, education and 
general wellfare of the Tohono O'odham Nation and its members'' 
(Constitution, Article VI, Section 1(t) and Section 1(c)(2)); and

    WHEREAS, the U.S. Department of the Interior has vast 
responsibilities in carrying out the federal government's trust 
obligation with tribal nations and makes decisions that directly affect 
the lives of millions of American Indians and Alaska Natives; and

    WHEREAS, President Joe Biden has nominated Bryan T. Newland, a 
member of the Bay Mills Indian Community, to serve as Assistant 
Secretary--Indian Affairs in the U.S. Department of the Interior; and

    WHEREAS, nominee Bryan T. Newland has served as President of the 
Bay Mills Indian Community, has served as a political appointee in the 
office of the Assistant Secretary--Indian Affairs during the Obama 
Administration, and more recently as the Principal Deputy Assistant 
Secretary of Indian Affairs in the Department of the Interior; and

    WHEREAS, nominee Bryan T. Newland is uniquely qualified to serve as 
the Assistant Secretary for Indian Affairs given his extensive 
experience practicing federal Indian law, his service as a tribal 
leader, and his service in the Department of the Interior.

    NOW, THEREFORE, BE IT RESOLVED, that the Tohono O'odham Legislative 
Council strongly supports the confirmation of Bryan T. Newland as 
Assistant Secretary--Indian Affairs and calls for expeditious 
confirmation hearings in the U.S. Senate.
                                 ______
                                 
                                         Oglala Sioux Tribe
                                                      July 14, 2021
Dear Chairman Schatz and Vice-Chairwoman Murkowski:

    On behalf of the Oglala Sioux Tribe, I write in support of the 
confirmation of Bryan Newland as Assistant Secretary for Indian 
Affairs. The United States must uphold its responsibility to Tribal 
Nations, honor its treaties, and provide a voice for Indian Country in 
the federal government. It is with this responsibility in mind and with 
tremendous enthusiasm that the Oglala Sioux Tribe urges you to vote to 
confirm Bryan Newland to be the Assistant Secretary for Indian Affairs.
    The Oglala Sioux Tribe is a part of the Oceti Sakowin (Seven 
Council Fires, known as the Great Sioux Nation) and a signatory to the 
Treaty with the Teton of 1815, 7 Stat. 125 (Jul. 19, 1815), the Treaty 
of Fort Laramie of 1851, 1 Stat. 749 (Sept. 17, 1851), and the Treaty 
of Fort Laramie of 1868, 15 Stat. 635 (Apr. 29, 1868). The Tribe is one 
of the largest land-based tribes in the United States. Our Tribe's Pine 
Ridge Indian Reservation is comprised of 3,155,200 acres of land in 
southwestern South Dakota, roughly the size of Connecticut. Our 
Reservation, however, is extremely rural and remote, and we are in need 
of adequate housing, economic development, job opportunities, community 
development and infrastructure, and quality health care.
    The U.S. Department of the Interior (Interior) carries out a broad 
range of responsibilities affecting Tribal Nations and its day-to-day 
decisions impact all aspects of tribal sovereignty and self-governance, 
from education to economic development to law enforcement. As part of 
the Administration, Interior is charged and entrusted with upholding 
the federal trust and treaty responsibilities to the 574 tribal nations 
and more than 5.2 million American Indians and Alaska Natives. Thus, it 
is critical that nominees for Interior's leadership positions fully 
understand the challenges facing our people and Indian Country as a 
whole and reflect the communities Interior serves.
    We believe that Mr. Newland knows first-hand the challenges we 
face, as well as the opportunities that lie ahead for us as sovereign 
governments. His background and work experience have prepared him well 
to be the Assistant Secretary for Indian Affairs. Therefore, for the 
reasons expressed in the June 4, 2021, Joint Inter-Tribal Organization 
Letter (attached), we believe Mr. Newland is the right person to fill 
the role of Assistant Secretary for Indian Affairs, and we ask you and 
the other members of the Committee to vote to confirm Bryan Newland to 
be the Assistant Secretary for Indian Affairs.
        Sincerely,
                                    Kevin Killer, President
                                 ______
                                 
                                                      July 23, 2021
Dear Majority Leader Schumer and Minority Leader McConnell:

    As federally recognized tribes in Virginia, we are pleased to urge 
Senate confirmation of Bryan Todd Newland as Assistant Secretary for 
Indian Affairs at the U.S. Department of the Interior. Mr. Newland's 
experience and background make him exceptionally well-qualified for the 
role of Assistant Secretary for Indian Affairs.
    A graduate of the Indian Law program at Michigan State University 
College of Law, citizen of the Bay Mills Indian Community (Ojibwe), and 
former elected President of his Tribe, Mr. Newland possesses impressive 
academic and professional credentials. As a lawyer in private practice, 
he represented tribal clients on issues like gaming, the fee-to-trust 
process, litigation concerning tribal sovereign immunity and 
jurisdiction, leasing of Indian lands, land planning and regulation, 
economic development, and code drafting. Mr. Newland has the personal 
and professional background to lead the staffs of the U.S. Bureau of 
Indian Affairs, the Office of Indian Gaming, and the U.S. Bureau of 
Indian Education. His experience working in the federal government as a 
presidentially appointed Counselor and Policy Advisor to the AS-IA in 
the Obama administration will be an asset in his new role. Mr. Newland 
brings experience developing policies on Indian gaming and Indian 
lands, reforming the Department of the Interior's policy on reviewing 
tribal-state gaming compacts, reforming the BIA's Indian leasing 
regulations, and helping enact the HEARTH Act of 2012.
    Bryan Todd Newland is eminently qualified to serve as the Assistant 
Secretary for Indian Affairs. We respectfully urge you to vote in 
support of Mr. Newland's nomination, and we appreciate your 
consideration of our views.
        Sincerely,
                                         Chickahominy Tribe
                      Chickahominy Indians Eastern Division
                                    Nansemond Indian Nation
                                      Monacan Indian Nation
                                         Rappahannock Tribe
                               Upper Mattaponi Indian Tribe
                                 ______
                                 
                             Stillaguamish Tribe of Indians
                                                      July 13, 2021
Dear Chairman Schatz and Ranking Member Murkowski,

    On behalf of the Stillaguamish Tribe of Indians, I write to 
encourage you to quickly take up the nomination of Bryan Newland to 
serve as the Assistant Secretary for Indian Affairs at the U.S. 
Department of the Interior and to favorably report this nomination from 
the Senate Committee on Indian Affairs to the full Senate.
    Bryan Newland is a dedicated civil servant and former Tribal leader 
who has consistently demonstrated his commitment to and support of 
Indian Country throughout his career. Prior to his current role as 
Principle Deputy Assistant Secretary for Indian Affairs, Mr. Newland 
served as the Tribal President of Bay Mills Indian Community. As Tribal 
President, Mr. Newland championed Tribal health initiatives, economic 
development, and the protection of Tribal natural resources.
    Before being elected as Tribal President of his Tribe, Mr. Newland 
served in the Obama Administration as a senior policy advisor to the 
Assistant Secretary of the Interior for Indian Affairs. During his 
tenure at Indian Affairs, we worked with Mr. Newland on a number of 
matters including protecting Tribal treaty rights and Tribal natural 
resources. In our work with Mr. Newland, he was always supportive of 
the Federal Government in its role as trustee to Tribes while also 
ensuring Tribal sovereignty was respected.
    Because of his dedication and deep understanding of the issues 
facing Tribes, we feel that Bryan Newland is the right person to serve 
in this critical leadership role. As such, we strongly support Bryan 
Newland's nomination as Assistant Secretary for Indian Affairs and ask 
that you swiftly consider and support his nomination in your Committee.
    Thank you for your consideration of our request.
        Sincerely,
                                     Shawn Yanity, Chairman
                                 ______
                                 
                  Nottawaseppi Huron Band of the Potawatomi
                                                      July 13, 2021
Dear Chairman Schatz and Vice Chairwoman Murkowski,

    On behalf of the Nottawaseppi Huron Band of the Potawatomi (NHBP), 
I write to express our support for the nomination of Bryan Newland to 
serve as the Assistant Secretary for Indian Affairs at the U.S. 
Department of the Interior (``Department'').
    NHBP interacted regularly with Mr. Newland during his time as the 
Chairman of the Bay Mills Indian Community. We were not always on the 
same side of every issue, but, Mr. Newland always conducted himself in 
a respectful and well-reasoned manner and he was always honest and 
transparent in his dealings with NHBP. Our experience with him is that 
he is very knowledgeable on the issues, fair, and professional. We can 
agree to disagree on some issues, but still work together on others.
    NHBP is also familiar with Mr. Newland during his previous tenure 
at the Department of the Interior. During that time, we observed Mr. 
Newland providing critical counsel on a number of highly technical and 
difficult issues and advocate for new policy initiatives focused on 
strengthening tribal self-governance and self-determination. He has a 
strong record of accomplishment for thinking outside of the box to 
tackle systemic problems that have plagued Indian Country and the 
Department. This type of leadership is exactly what the Department 
needs to stimulate economic development and self-sufficient tribal 
nations.
    We recognize that Mr. Newland would be recused from any issues that 
might impact his own tribe and likely other Michigan tribal matters, 
but we appreciate the fact that he will bring his unique perspective as 
a former tribal leader and tribal attorney to this high-level position 
at the Department.
    We believe Mr. Newland has the key characteristics needed to 
successfully serve as Assistant Secretary for Indian Affairs, and urge 
the Committee to favorably vote and report Mr. Newland's nomination to 
the full Senate. We hope that the full Senate will confirm him in a 
timely manner so that he can get to work in his new position as quickly 
as possible.
        Sincerely,
                                      Jamie Stuck, Chairman

                                  [all]
</pre></body></html>
